No. 21In the

Supreme Court of the United States
AMANDA AND CASEY P.,
Petitioners,
v.
COPPERAS COVE INDEPENDENT
SCHOOL DISTRICT,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

A ndrew K. Cuddy
Counsel of Record
Cuddy Law Firm, P.L.L.C.
5693 South Street Road
Auburn, NY 13021
(315) 370-4020
acuddy@cuddylawfirm.com
Counsel for Petitioners

306200

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
1. Whether de novo review or clear error is the
standard of review applicable to the question of whether
a school district has provided a free appropriate public
education (“FAPE”) to a child with a disability under the
Individuals with Disabilities Education Act (“IDEA”), 20
U.S.C. 1400 et seq.
2. In cases arising under the IDEA, whether judicial
deference is owed to school district procedures that delay
evaluation of students with disabilities or that otherwise
violate the IDEA.
3. Whether a retrospective assessment of “some”
or “objective” progress, regardless of how minimal, is
sufficient to determine that a school district has provided
FAPE under this Court’s holding in Endrew F. ex rel.
Joseph F. v. Douglas Cty. Sch. Dist. RE-1, 137 S. Ct. 988
(2017).

ii
PARTIES TO THE PROCEEDING
The caption of this case includes the names of all
parties.

iii
RELATED CASES
The following are the cases related to this petition:
• Amanda P. and Casey P. as Parents/Guardians/
Next Friends of T.P., v. Copperas Cove Independent
School District, Civil No. 6:19-CV-00197-ADA,
U.S. District Court for the Western District of
Texas—Waco Division, judgment entered April
14, 2020.
• Amanda P., as Parent/Guardian/Next Friend of
T.P., No. 20-50373, U.S. Court of Appeals for the
Fifth Circuit, judgment entered March 1, 2021.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS AND ORDERS BELOW . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
A. Legal Background . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. Factual Background  . . . . . . . . . . . . . . . . . . . . . . . 8
C. Proceedings Below . . . . . . . . . . . . . . . . . . . . . . . . 13
REASONS FOR GRANTING THE WRIT . . . . . . . . . 14

v
Table of Contents
Page
A. As to each question presented, the decision
below contravenes the intent and spirit
of the IDEA and, regarding the issues
of the appropriate standard of review
and appropriate progress under Endrew
F., perpetuates a conflict among circuits
of the Courts of Appeals.  . . . . . . . . . . . . . . . . . . 14
1.

Modified de novo review is the appropriate
standard for an analysis of factual
determinations regarding FAPE . . . . . . . . 14

2.

Deference is not owed to school district
procedures that violate the IDEA . . . . . . . 18

3.

The adequacy of an IEP to provide FAPE
requires prospective assessment . . . . . . . . 26

B. The questions presented are exceptionally
important to children with disabilities and
their parents and warrant this Court’s
review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
C. The Fifth Circuit’s decision is in error.  . . . . . . 30
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

vi
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED MARCH 1, 2021  . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS, WACO
DIVISION, FILED APRIL 14, 2020 . . . . . . . . . . . . 7a
A PPENDIX C — DECISION BEFORE A
SPECIAL EDUCATION HEARING OFFICER
FOR THE STATE OF TEX A S, FILED
MARCH 7, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33a

vii
TABLE OF CITED AUTHORITIES
Page
CASES:
A.A. v. Northside Indep. Sch. Dist.,
951 F.3d 678 (5th Cir. 2020) . . . . . . . . . . . . . . . . . . . .  17
Bd. of Educ. v. Rowley,
458 U.S. 176 (1982)  . . . . . . . . . . . . . . . . . . . . . . . passim
Brandywine Heights Area Sch. Dist. v. B.M.,
248 F. Supp. 3d 618 (E.D. Pa. 2017)  . . . . . . . . . . . . . . 7
Burlington Sch. Comm. v. Dep’t of Educ.,
471 U.S. 359 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
C.G. ex rel. Keith G. v. Waller Indep. Sch. Dist.,
697 Fed. Appx. 816 (5th Cir. 2017) . . . . . . . . . . . . . . . . 7
Carlisle Area Sch. Dist. v. Scott P.,
62 F.3d 520 (3d Cir. 1995) . . . . . . . . . . . . . . . . . . . . . .  17
Cypress-Fairbanks Indep. Sch. Dist. v.
Michael F. ex rel. Barry F.,
118 F.3d 245 (5th Cir. 1997) . . . . . . . . . . . . . . . . 7, 8, 31
D.R. v. East Brunswick Bd. of Educ.,
109 F.3d 896 (3d Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 16
Dallas Indep. Sch. Dist. v. Woody,
865 F.3d 303 (5th Cir. 2017) . . . . . . . . . . . 20, 21, 22, 23
David D. v. Dartmouth Sch. Comm.,
775 F.2d 411 (1st Cir. 1985)  . . . . . . . . . . . . . . . . . . . . 16

viii
Cited Authorities
Page
Devine & Devine Food Brokers, Inc. v.
Wampler Foods, Inc.,
313 F.3d 616 (1st Cir. 2002) . . . . . . . . . . . . . . . . . . . . .27
Endrew F. ex rel. Joseph F. v.
Douglas Cty. Sch. Dist. RE-1,
137 S. Ct. 988 (2017) . . . . . . . . . . . . . . . . . . . . . . passim
Erickson ex rel. Erickson v.
Albuquerque Pub. Sch.,
199 F.3d 1116 (10th Cir. 1999)  . . . . . . . . . . . . . . . . . . 15
Forest Grove Sch. Dist. v. T.A.,
557 U.S. 230 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Garcia v. Bd. of Educ. of Albuquerque Pub. Sch.,
520 F.3d 1116 (10th Cir. 2008) . . . . . . . . . . . . . . .  14, 15
Gill v. Columbia 93 Sch. Dist.,
217 F.3d 1027 (8th Cir. 2000) . . . . . . . . . . . . . . . .  27-28
Indep. Sch. Dist. No. 283 v. S.D. ex rel. J.D.,
88 F.3d 556 (8th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 15
Jones-Herrion v. District of Columbia,
No. 18-CV-2828, 2019 WL 5086693
(D.D.C. Oct. 10, 2019)  . . . . . . . . . . . . . . . . . . . . . . . . . 24
Kerkam ex rel. Kerkam v.
Superintendent, D.C. Pub. Sch.,
931 F.2d 84 (D.C. Cir. 1991) . . . . . . . . . . . . . . . . . 16, 28

ix
Cited Authorities
Page
Kerkam v. McKenzie,
862 F.2d 862 (D.C. Cir. 1988) . . . . . . . . . . . . .  15-16, 28
Knable ex rel. Knable v. Beckley City Sch. Dist.,
238 F.3d 755 (6th Cir. 2001) . . . . . . . . . . . . . . . . . . . . 16
L.M. v. Capistrano Unified Sch. Dist.,
556 F.3d 900 (9th Cir. 2009) . . . . . . . . . . . . . . . . . . . . . 3
M.C. v. Cent. Reg’l Sch. Dist.,
81 F.3d 389 (3d Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . 26
Oberti ex rel. Oberti v. Bd. of Educ.,
995 F.2d 1204 (3d Cir. 1993) . . . . . . . . . . . . . . . . . . . . 16
Phyllene W. v. Huntsville City Bd. of Educ.,
630 Fed. Appx. 917 (11th Cir. 2015) . . . . . . . . . . . . . . 19
Polk v. Cent. Susquehanna Intermediate Unit 16,
853 F.2d 171 (3d Cir. 1988) . . . . . . . . . . . . . . . . . . . . . 28
R.E. v. New York City Dept. of Educ.,
694 F.3d 167 (2d Cir. 2012) . . . . . . . . . . . . . . . . . . . . . 26
R.S. ex re. E.S. v.
Montgomery Twp. Bd. of Educ.,
No. 10-CV-5265, 2012 WL 2119148 (D.N.J. 2012) . . 20
R.S. ex rel. Ruth B. v.
Highland Park Indep. Sch. Dist.,
951 F.3d 319 (5th Cir. 2020) . . . . . . . . . . . . . . . . . . . .  17

x
Cited Authorities
Page
Reaves v. Missouri Dept.
of Elementary and Secondary Educ.,
422 F.3d 675 (8th Cir. 2005) . . . . . . . . . . . . . . . . . . . . 15
Reid ex re. Reid v. District of Columbia,
401 F.3d 516 (D.C. Cir. 2005) . . . . . . . . . . . . . . . . . . . 16
Reyes-Torres v. Holder,
645 F.3d 1073 (9th Cir. 2011) . . . . . . . . . . . . . . . . . . . 19
Richardson Indep. Sch. Dist. v. Michael Z.,
580 F.3d 286 (5th Cir. 2009) . . . . . . . . . . . . . . . . . . . 2, 8
Robertson Cty. Sch. Sys. v. King,
99 F.3d 1139 (6th Cir. 1996) . . . . . . . . . . . . . . . . . . . . 25
Schaffer ex rel. Schaffer v. Weast,
546 U.S. 49 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Shore Reg’l High Sch. Bd. of Educ. v. P.S.,
381 F.3d 194 (3d Cir. 2004) . . . . . . . . . . . . . . . . . . . . . 28
Spring Branch Indep. Sch. Dist. v. O.W.,
961 F.3d 781 (5th Cir. 2020) . . . . . . . . . . . . . . . . . 21, 23
T.S. v. Indep. Sch. Dist. No. 54,
265 F.3d 1090 (10th Cir. 2001) . . . . . . . . . . . . . . . . . . 15
Thompson R2-J Sch. Dist. v. Luke P.,
540 F.3d 1143 (10th Cir. 2008) . . . . . . . . . . . . . . . . . . 15

xi
Cited Authorities
Page
Timothy O. v. Paso Robles Unified Sch. Dist.,
822 F.3d 1105 (9th Cir. 2016)  . . . . . . . . . . . . . . . . . . . 24
Villano v. City of Boynton Beach,
254 F.3d 1302 (11th Cir. 2001) . . . . . . . . . . . . . . . . . . 19
STATUTES AND REGULATIONS
20 U.S.C. § 1400  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
20 U.S.C. § 1401  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5
20 U.S.C. § 1414 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 20
20 U.S.C. § 1415  . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 14, 15
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
34 C.F.R. § 300.302 . . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 23
34 C.F.R. § 300.303 . . . . . . . . . . . . . . . . . . . . . . . . 19, 22, 24
34 C.F.R. § 300.304 . . . . . . . . . . . . . . . . . . . . . . . . 19, 24, 25
34 C.F.R. § 300.307 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
34 C.F.R. § 300.327 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
34 C.F.R. § 300.502 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

xii
Cited Authorities
Page
34 C.F.R. § 300.503 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
34 C.F.R. §§ 300.304-300.311  . . . . . . . . . . . . . . . . . . . . . 24
19 Tex. Admin. Code 89.1011 . . . . . . . . . . . . . . . . 19, 20, 21
S. Rep. No. 105-17 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
OPINIONS AND ORDERS BELOW
The Opinion of the United States Court of Appeals
for the Fifth Circuit from which this appeal arises (Pet.
App. 1a-6a) is unpublished but is available at 838 Fed.
Appx. 104. The opinion of the United States District Court
for the Western District of Texas, Waco Division, from
which this appeal arises (Pet. App. 7a-32a), is unpublished
but is available at 2020 WL 1866876. The opinion of the
Texas Education Agency (Pet. App. 33a-122a) is also
unpublished.
JURISDICTION
The judgment of the Court of Appeals for the Fifth
Circuit was filed on March 1, 2021. Pet. App. 1a. This Court
has jurisdiction pursuant to 28 U.S.C. § 1254(1). On March
19, 2020, this Court ordered that the deadline for filing
any petition for writ of certiorari be extended to 150 days
from the date of the lower court judgment, order denying
review, or order denying a timely petition for rehearing.
Order List 589 U.S. On July 19, 2021, while this Court
rescinded the order of March 19, 2020, it further ordered
that for any case, as here, in which lower court judgment
was issued prior to July 19, 2021, the deadline to file for a
writ of certiorari remains extended to 150 days from the
date of the judgment or order.
STATUTES INVOLVED
The Individuals with Disabilities Education Act
(“IDEA”), 20 U.S.C. 1400 et seq., requires public
educational agencies receiving federal funds for special
education services provide each child with a disability a

2
“free appropriate public education” that must be “provided
in conformity with the individualized education program
required under” the IDEA. 20 U.S.C. § 1401(9).
STATEMENT OF THE CASE
In enacting the IDEA, Congress emphasized the
importance of complying with the procedural and
substantive requirements of the IDEA. See Richardson
Indep. Sch. Dist. v. Michael A., 580 F.3d 286 (5th Cir. 2009).
In the case presented, a school district substituted its own
procedures for the evaluation procedures established
by the IDEA and by state law, thereby delaying full
evaluation of a student with a disability and delaying
the development and implementation of an appropriate
program based on an adequate evaluation. Moreover, the
case presented is one in which a court applied a retroactive
standard requiring merely “some” or “objective” progress
subsequent to the development of the IEP in determining
whether the IEP had afforded a FAPE. However, whether
an IEP was reasonably calculated to enable a child to
receive educational benefits is a question that must be
addressed prospectively as of the time that the IEP was
created. These issues are further complicated when the
federal courts apply the clear error standard of review
to the highly-individualized and fact-intensive matter of
a particular child’s educational program.
The first inquiry regarding a question of FAPE is
whether the school district has procedurally violated the
IDEA. A procedural violation that results in the loss of
educational opportunity for the child or that infringes
on the parent’s right to participate in the educational
decision-making process “clearly results in the denial of

3
FAPE.” L.M. v. Capistrano Unified Sch. Dist., 556 F.3d
900, 909 (9th Cir. 2009).
In the underlying matter, the school district’s use
of non-special education services to address T.P.’s need
for specialized dyslexia instruction effectively deprived
the Parent of participation in the development of annual
goals for dyslexia services and receipt of progress reports
regarding those goals and services, and T.P. was deprived
of special education services consistent with the IDEA,
including a description of present levels of performance
to establish baselines against which future progress could
be measured, annual goals based on full and current
evaluations, and an IEP providing special education
services in all areas of need.
In the case presented, the school district implemented
its own evaluation procedures, delayed the child’s full and
timely evaluation, and thus delayed the use of evaluative
information to develop his educational program. In the
absence of a timely and full evaluation, and in the absence
of an IEP that addressed all of his special education
needs, including dyslexia, T.P.’s progress in reading in the
general education setting did not constitute meaningful
progress, according to the testimony of an expert witness.
Pet. App. 93a.
This case presents an opportunity to determine
whether the judicial deference shown to local procedures
by the circuit court below is consistent with the procedural
protections afforded by the IDEA.
The second inquiry regarding the provision of FAPE
pertains to determinations regarding the substantive

4
content of an IEP, the mechanism by which schools must
provide a free appropriate public education to children
with disabilities under the IDEA. This Court has recently
confirmed that an IEP must be reasonably calculated to
enable the child to make progress appropriate in light
of the child’s circumstances. Endrew F. ex rel. Joseph
F. v. Douglas Cty. Sch. Dist. RE-1, 137 S.Ct. 988, 99899 (2017); Bd. of Educ. v. Rowley, 458 U.S. 176, 206-07
(1982). In the case presented, the court below has adopted
a retrospective “some” progress or “objective” progress
standard for assessing the substantive compliance of the
program provided, a standard which reflects a lack of
detailed analysis of the IEP itself and the quantity and
quality of any such progress.
The circuits of the Court of Appeals are divided
over the level of benefit demanded by the IDEA. Some,
including the Fifth Circuit below, rely on pre-Endrew F.
caselaw to find school districts in harmless violation of
the IDEA so long as they provide generalized educational
intervention that may or may not address all areas of need.
In contrast, other courts conclude that such an approach
cannot be considered harmless if the IEP team failed to
assess and consider all of a child’s special education and
related service needs. This case affords an opportunity
to clarify whether such standards of assessing student
progress are sufficient in determining whether FAPE
has been offered and provided to a child with a disability
under this Court’s holding in Endrew F.
Moreover, circuit courts are divided with regard to
the standard of review applicable to such cases and with
regard to the level of judicial deference to be afforded to
school district procedures that delay evaluation of students
with disabilities or that otherwise violate the IDEA.

5
A. Legal Background
The IDEA utilizes Congress’s spending power to
encourage states to provide children with disabilities
a FAPE1 , which requires parents and educators to
collaborate in annually creating IEPs “tailored to the
unique needs” of each child with a disability. Rowley,
458 U.S. at 179, 181; see 20 U.S.C. § 1414(b)(4), (d)(1)(B);
34 C.F.R. § 300.327. However, Congress recognized that
“this cooperative approach would not always produce
a consensus” and created “procedural safeguards” to
ensure the participation of the parents and resolution
of disagreements, including administrative and judicial
review. Burlington Sch. Comm. v. Dep’t of Educ., 471 U.S.
359, 368 (1985); 20 U.S.C. § 1415(f), (i)(2)(A). Schools and
parents may request a due process hearing to present the
dispute to a hearing officer. 20 U.S.C. § 1415(f)(1)(A); see
Schaffer ex rel. Schaffer v. Weast, 546 U.S. 49, 51 (2005).
The hearing officer then decides whether the school
district has met IDEA requirements, including whether
it has provided FAPE. 20 U.S.C. § 1415(b)(6), (f)(1)(A). An
aggrieved party may seek review of the decision in a state
or federal court which “shall grant such relief as the court
determines is appropriate.” 20 U.S.C. § 1415(i)(2)(C)(iii).

1. Under the IDEA, a FAPE is “special education
and related services that (A) have been provided at
public expense, under public supervision and direction,
and without charge; (B) meet the standards of the state
educational agency; (C) include an appropriate preschool,
elementary school or secondary school education in the
state involved; and (D) are provided in conformity with the
individualized education program required under section
1414(d) of this title.” 20 U.S.C. S. 1401(9).

6
This Court first examined the IDEA’s predecessor
statute in Rowley, where it held that a child’s IEP must
be reasonably calculated to enable the child to receive
educational benefit. Rowley, 458 U.S. at 206—07. More
than thirty years later, the Court added that it “should
come as no surprise” that “the progress contemplated
by the IEP must be appropriate in light of the child’s
circumstances.” Endrew F., 137 S.Ct. at 999. Between
Rowley and Endrew F., Congress twice amended and
reauthorized the IDEA. Pub. L. No. 105-17, 111 Stat.
37 (1997); Pub. L. No. 108-446, 118 Stat. 2647 (2004).
The 1997 amendments elevated the IDEA’s goals from a
guarantee of access to a commitment of “ensuring equality
of opportunity, full participation, independent living, and
economic self-sufficiency for individuals with disabilities.”
20 U.S.C. § 1400(c)(1). Congress explained that the
previous version of the statute had been “successful in
ensuring children with disabilities… access to a free
appropriate public education,” implementation had been
“impeded by low expectations and an insufficient focus
on applying replicable research on proven methods of
teaching and learning for children with disabilities.” 20
U.S.C. § 1400(c)(3), (c)(4). The 1997 amendments, therefore,
sought “to place greater emphasis on improving student
performance and ensuring that children with disabilities
receive a quality public education.” Forest Grove Sch.
Dist. v. T.A., 557 U.S. 230, 239 (2009) (quoting S. Rep. No.
105-17 at 3 [1997]).
Meaningful progress in this context varies depending
on the disabilities of the child but has been interpreted
to mean “significant progress in a number of areas” or
progress reflected through an increase in a child’s baseline
abilities accompanied by revisions to the child’s IEP to

7
provide more individualized instruction to address the
student’s changing deficits. Brandywine Heights Area
Sch. Dist. v. B.M., 248 F.Supp.3d 618, 634 (E.D.Pa. 2017).
In 2017, the Supreme Court addressed the question
of what constitutes educational benefit and progress for
students who, unlike the student in the Rowley case,
are not fully educated in the mainstream classroom
environment. In Endrew F., the Court held that a school
must offer an IEP that is reasonably calculated to
enable the child to make progress appropriate in light
of the child’s circumstance in order to meet the school’s
substantive obligations under the IDEA. Id. at 1001. For a
child who is not fully integrated in the regular classroom
and who is not able to achieve on grade level without
special education intervention, such as the student in
this proceeding, the Court articulated that “reasonably
calculated” and “appropriate” progress is progress toward
goals that are “appropriately ambitious in light of [the
child’s] circumstances. Id. at 1002. The Court rejected
the contention that the IDEA required merely a “basic
floor of opportunity” or “merely more than de minimis”
progress to provide FAPE and concluded that a child
whose educational program enables the child to make
“merely more than de minimis progress” could “hardly
be said to be receiving an education at all,” noting that
“the IDEA demands more” for those children. Id.
Following the decision in Endrew F., the Fifth Circuit
determined that the “appropriately ambitious” standard
articulated by the Supreme Court is compatible with its
Michael F. factors of substantive compliance with the
IDEA. C.G. ex rel. Keith G. v. Waller Indep. Sch. Dist., 697
Fed.Appx. 816, 819 (5th Cir. 2017). However, the inquiry

8
under Michael F. is no longer just whether a student is
receiving some academic benefit and nonacademic benefit,
but, in line with the Endrew F. standard, whether the child
is making progress under an IEP that is “appropriately
ambitious in light of his circumstances.” Endrew F., 137
S.Ct. at 1000. Thus, the proper inquiry under Michael F.
remains whether a student’s IEP confers a meaningful
educational benefit in order to enable the child to make
meaningful progress appropriate in light of the child’s
circumstances. See Richardson Indep. Sch. Dist. v.
Michael Z., 580 F.3d 286 (5th Cir. 2009).
B. Factual Background
T.P. began receiving special education services when
he was 1.5 years old and was diagnosed with Autism at
age three. Pet. App. 43a. With privately-arranged Applied
Behavioral Analysis as an instructional methodology, T.P.
acquired the ability to speak. Pet. App. 43a. T.P.’s cognitive
and verbal comprehension abilities are within the average
range. Pet App. 91a.
During the 2015-2016 school year, T.P. attended
kindergarten in the Wake County (North Carolina)
Public School System (“WCPSS”), which provided
services under the eligibility categories of Significant
Developmental Delay and Speech-Language Disorder
and, during the second semester, received twice-weekly
one-to-one tutoring to “address his literacy skills.”
Pet. App. 43a-C44a. WCPSS assessments and teacher
reports indicated that T.P.’s disability adversely affected
educational performance and that he would benefit from
specialized instruction to address decoding deficits.
Pet. App. 45a-46a. By the end of first-grade, WCPSS

9
determined that T.P. required Tier II interventions
and provided 30 minutes weekly for phonics and 40
minutes weekly of small-group instruction for reading
comprehension. Pet. App. 46a-47a. Based on a diagnosis
of Attention Deficit Hyperactivity Disorder, WCPSS
changed T.P.’s eligibility category to Other Health
Impairment, noting that he “continued to struggle with
reading and has made slow progress.” Pet. App. 47a.
T.P. enrolled in the Copperas Cove (Texas) Independent
School District (“CCISD”) in September 2017, after the
family’s relocation due to a military transfer. Pet. App.
48a. CCISD provided co-teaching and resource instruction
in amounts provided on the WCPSS IEP, but did not
provide the Tier II interventions in phonics and reading
comprehension described on the WCPSS IEP. Pet.
App. 49a. During 2017-2018, CCISD provided dyslexia
services, including instruction in the Wilson Program, in a
general education setting. Pet. App. 50a. An October 2017
assessment using the Fountas & Pinnell Reading System
placed T.P. at Level F, early first grade. Pet. App. 50a.
An October 2017 assessment using the iReady program
placed him at the kindergarten level in reading. Pet. App.
51a. T.P.’s gradebook reflects that his reading teacher
recorded a grade of 65 on those occasions when he actually
attained a lower grade, and, when determining whether
he was passing classes, used the recorded grades – not
the grades he actually earned. Pet. App. 51a.
Other than a speech-language evaluation, CCISD
did not conduct additional formal assessments of T.P. in
conjunction with a Review of Existing Evaluation Data
(“REED”) meeting on October 20, 2017. Pet. App. 52a.
The meeting resulted in a determination that T.P. met

10
eligibility criteria for special education services. Pet. App.
53a. The description of T.P.’s present levels of academic
achievement and functional performance (“PLAAFP”) for
reading did not incorporate information from the Student’s
WCPSS IEP, included no objective data regarding his
skills in reading comprehension or decoding, and noted
that he was performing at kindergarten level. Pet. App.
53a. The CCISD case manager, who drafted the present
levels of performance and annual goals, was unable
to show that the IEP established a baseline against
which T.P.’s progress toward his reading goals could be
measured. Pet. App. 54a. The October 2017 IEP reflects
the team’s determination that “weaknesses indicate a need
for specially-designed instruction in the areas of reading
comprehension and language arts” but indicated only
“general classroom core interventions.” Pet. App. 56a.
In January 2018, during his second-grade year,
CCISD reassessed T.P.’s reading skills; he scored at Level
G on Fountas & Pinnell, indicating that he “does not meet
expectations, needs intensive intervention.” Pet. App.
60a. At an Admission, Review and Dismissal Committee
(“ARDC”) meeting in January 2018, the Parent expressed
concerns regarding dyslexia testing and, in response,
CCISD offered to conduct a dyslexia “screening.” CCISD
did not explain the difference between a screening and
an evaluation, and Parent believed that the CCISD would
be conducting a full evaluation for a reading disability.
Pet. App. 61a. The “screener” was conducted by a CCISD
reading interventionist on February 15, 2018, and Student
scored in the “very poor” range. Pet. App. 61a, 73a. The
screener indicated a reason to suspect dyslexia. Pet. App.
73a. The ARDC did not convene to consider the results of
the screening until April 6, 2018, at which time it agreed

11
to conduct “dyslexia testing.” Pet. App. 61a. By the end
of the 2017-2018 school year, T.P. remained at Fountas &
Pinnell Level G. Pet. App. 70a.
On April 6, 2018, CCISD presented the Parent with
a form for Consent for Full and Individual Evaluation,
which the Parent signed and submitted on the same day.
Pet. App. 62a. The dyslexia assessment was not conducted
until May 18, 2018, and included four norm-referenced
standardized assessments on which T.P.’s scores qualified
him as a student with dyslexia. Pet. App. 62a-63a. By
August 23, 2018, CCISD had not communicated the
dyslexia testing results to the Parent. Pet. App. 63a, 74a.
The reading interventionist informed the Parent that
T.P. “fit the dyslexic profile” and allowed him to receive
Wilson-based dyslexia services with other students prior
to the meeting of the review team. Pet. App. 74a, 75a. The
ARDC did not review the dyslexia evaluation report until
September 17, 2018. Pet. App. 74a.
CCISD declined to prov ide summer ser v ices
because T.P.’s grades were too high and because he had
not demonstrated regression in skills. Pet. App. 64a.
However, T.P.’s recorded grades reflect the school district’s
practice of recording a grade of 65 on those occasions
when students actually attained lower grades, and, when
determining whether a student was passing classes, used
the recorded grades rather than the actual grades. Pet.
App. 51a.
On July 18, 2018, Parent requested an Independent
Educational Evaluation (“IEE”) of T.P. in “all areas of
suspected disability and need, including but not limited
to Autism, Specific Learning Disability, Other Health

12
Impairment…” Pet. App. 65a. On September 5, 2018,
CCISD contracted with licensed psychologist Jason Craig
to conduct an independent psychoeducational evaluation.
Pet. App. 66a, 86a. Craig’s evaluation found an abnormally
low score on the auditory processing subtest warranting
additional investigation, and a words-per-minute rate
that reflected “not meaningful progress” since entering
CCISD. Pet. App. 87a. T.P.’s scores on the WoodcockJohnson demonstrated profound deficits in academic
abilities indicative of a learning disability; the evaluator
recommended that he receive special education services
as a student with a Specific Learning Disability in basic
reading, fluency, comprehension and written expression.
Pet. App. 88a. The evaluator noted that the CCISD
dyslexia instruction provided to T.P. may not be effective
because of his auditory processing deficits, adding, “More
of the same instructional method will not increase his
fluency and comprehension.” Pet. App. 89a.
On September 17, 2018, T.P.’s ARDC determined that
he was “dyslexia/qualified,” yet included no provision on
the IEP for eligibility for services in the “Specific Learning
Disability” classification, recommending instead that
services be provided “in the general education setting.”
Pet. App. 76a. On November 8, 2018, CCISD issued an
Intervention Progress Report indicating that T.P. had
“Made Progress, Less than Expected.” Pet. App. 85a.
Rachel Robillard, a licensed psychologist with a specialty
in school psychology and neuropsychology, testified that
T.P.’s progress in reading in the general education setting
did not constitute meaningful progress, as he remained
on a mid-first grade level. Pet. App. 90a, 93a.

13
C. Proceedings Below
On February 5, 2019, a Special Education Hearing
Officer (“SEHO”) of the State of Texas issued a Decision
in an impartial due process hearing initiated by the Parent
on September 20, 2018, pursuant to the Individuals with
Disabilities Education Act (“IDEA”), 20 U.S.C. §§ 14011482, and its implementing state and federal regulations.
Pet. App. 39a, 122a. The Parent appealed the SEHO
decision, challenging the findings of the SEHO, including
findings that (1) no procedural violations of the IDEA
had occurred, (2) no substantive violations of the IDEA
had occurred, (3) no denial of a FAPE had occurred, and
(4) no violation of the IDEA had occurred. Pet. App. 14a.
The Parties filed cross-motions for summary judgment
on February 21, 2020. Id.
On April 14, 2020, the United States District Court
for the Western District of Texas, Waco Division, issued
an Order Granting Defendant’s Motion for Judgment on
the Administrative Record, and a final judgment in that
matter was filed on the same date. Pet. App. 7a-32a.
On March 1, 2021, the United States Court of Appeals
for the Fifth Circuit issued a per curiam opinion affirming
the District Court’s finding that the Plaintiffs had failed
to show either a procedural or substantive violation of the
IDEA. Pet. App. 1a-6a.

14
REASONS FOR GRANTING THE WRIT
A. As to each question presented, the decision below
contravenes the intent and spirit of the IDEA and,
regarding the issues of the appropriate standard of
review and appropriate progress under Endrew F.,
perpetuates a conflict among circuits of the Courts
of Appeals.
1.

Modified de novo review is the appropriate
s t a n d a r d fo r a n a n a l y s i s o f f a c t u a l
determinations regarding FAPE.

The responsibility for determining whether a
challenged IEP will provide a child with FAPE rests in
the first instance with administrative hearing officers,
whose rulings are subject to “independent” judicial
review. Rowley, 458 U.S. at 205. The Supreme Court
has cautioned that the “independent” review “is by no
means an invitation to the courts to substitute their own
notions of sound educational policy for those of the school
authorities they review.” Id., at 206. While federal courts
are expected to give “due weight” to these proceedings,
they are not to simply rubber-stamp administrative
decisions. Id. at 206, 208.
“Unlike the deferential review typically afforded
to administrative adjudication of statutory claims,
Congress requires district courts to apply a modified de
novo standard when reviewing agency disposition in the
IDEA context.” Garcia v. Bd. of Educ. of Albuquerque
Pub. Sch., 520 F.3d 1116, 1125 (10th Cir. 2008); 20 U.S.C.
§ 1415(i)(2)(c). Specifically, the district court must (1)
receive the record of the administrative proceedings, (2)

15
hear additional evidence at the request of a party, and (3)
base its decision on the preponderance of the evidence. 20
U.S.C. § 1415(i)(2)(C). Although the statute provides for
de novo review, the Supreme Court has interpreted this
to require the district court to give “due weight” to the
administrative proceedings and to the findings of fact,
which are “considered prima facie correct.” Garcia, 520
F.3d at 1125. This “rather unusual statutory standard”
(see Indep. Sch. Dist. No. 283 v. S.D. ex rel. J.D., 88
F.3d 556, 561 (8th Cir. 1996) is more deferential than
de novo review, requiring the district court to refrain
from substituting its own notions of sound policy for
those of state authorities. See Reaves v. Missouri Dep’t
of Elementary and Secondary Educ., 422 F.3d 675 (8th
Cir., 2005).
The Tenth Circuit, in its review of district court
decisions regarding the issue of FAPE, characterized
the standard as a “modified de novo review” entailing
an “independent review of the evidence.” T.S. v. Indep.
Sch. Dist. No. 54, 265 F.3d 1090, 1093 (10th Cir. 2001).
The Tenth Circuit had previously rejected the application
of the “clear error standard.” Erickson ex rel. Erickson
v. Albuquerque Pub. Sch., 199 F.3d 1116, 1120 n.6 (10th
Cir. 1999). In 2008, the Tenth Circuit acknowledged and
declined to address its status as a minority in applying a
modified de novo review in the IDEA context, instead of
the clear error review applied by the Third, Fifth, Eighth
and Ninth Circuits. Thompson R2-J Sch. Dist. v. Luke P.,
540 F.3d 1143, 1150 fn. 6 (10th Cir. 2008) (Gorsuch, C.J.).
The District of Columbia Circuit has concluded
that the IDEA “plainly suggests less deference than is
conventional” in administrative hearings. Kerkam v.

16
McKenzie, 862 F.2d 862, 887 (D.C. Cir. 1988). A hearing
decision “without reasoned and specific findings deserves
little deference.” Kerkam v. Superintendent, D.C. Pub.
Sch., 931 F.2d 84, 87 (D.C. Cir. 1991). The D.C. Circuit
applies a deferential clear error review as to findings
of fact in IDEA cases in which the decision reviewed
involved the exercise of fact-finding and remedy-crafting
which involve “broad discretion” and implicate “equitable
considerations.” Reid ex re. Reid v. District of Columbia,
401 F.3d 516, 522 (D.C. Cir. 2005).
The Sixth Circuit has also described the appropriate
standard of review as “modified” de novo standard of
review in which a district court is required to make
findings of fact based on a preponderance of the evidence
contained in the complete record, while giving some
deference to the fact findings of the administrative
proceedings.” Knable ex rel. Knable v. Bexley City Sch.
Dist., 238 F.3d 755, 764 (6th Cir. 2001).
The Third Circuit adhered to a deferential standard of
review of district court findings in IDEA cases involving
determinations regarding FAPE, accepting district
courts’ findings of fact “unless they are clearly erroneous.”
Oberti ex rel. Oberti v. Bd. of Educ., 995 F.2d 1204, 1220
(3d Cir. 1993) (citing David D. v. Dartmouth Sch. Comm.,
775 F.2d 411, 415 (1st Cir. 1985)). The Third Circuit has
articulated its standard to provide guidance regarding
“due weight.” D.R. v. East Brunswick Bd. of Educ., 109
F.3d 896, 898 (3d Cir. 1997). While district courts are to
give due weight to the factual findings of administrative
hearing officers, it does not interpret Rowley to require
adoption of those findings. Id. Rather, the court has
stated that the appeals panel “should defer to the hearing

17
officer’s findings based on credibility judgments unless the
non-testimonial, extrinsic evidence in the record would
justify a contrary conclusion or unless the record read in
its entirety would compel a contrary conclusion.” Carlisle
Area Sch. Dist. v. Scott P., 62 F.3d 520, 529 (3d Cir. 1995).
In the case below, the Fifth Circuit cited its precedent
regarding the standard of review in IDEA cases involving
the denial of FAPE. “This court reviews a district court’s
determination as to whether a school district has provided
FAPE under IDEA as a mixed question of fact and law.”
R.S. ex rel. Ruth B. v. Highland Park Indep. Sch. Dist.,
951 F.3d 319, 328 (5th Cir. 2020). The Court noted that
“The district court’s legal conclusions are reviewed de
novo, while findings of underlying fact are reviewed for
clear error.” Id. “Whether the student obtained educational
benefit from the school’s special education services is a
finding of underlying fact.” Id. The Circuit Court has
explained that “under clear error review, a factual finding
may be reconsidered” only when, “after reviewing all of
the evidence, the court is left with the definite and firm
conviction that a mistake has been committed.” A.A. ex
rel. K.K. v. Northside Indep. Sch. Dist., 951 F.3d 678, 684
(5th Cir. 2020). The Fifth Circuit’s determination that the
question of the conferral of educational benefit is solely
a matter of underlying fact, and therefore subject only
to clear error review, reflects a level of deference to the
decisions of school districts which is not consistent with
the IDEA.
Some courts below have missed a fine yet important
distinction in both Rowley and Endrew F. concerning what
standard of review should apply to the analysis of various
aspects of educational progress under the IDEA, i.e., what

18
appropriate progress looks like, as opposed to the factual
finding that some progress was made. In the case of T.P.,
the District Court determined that T.P. “made progress
on all IEP goals” by the end of the school year, that he
“demonstrated objective progress in reading” in May
2018, and that he “made progress in developing reading
skills toward grade level.” Pet. App. 10a-12a. Here, the
Fifth Circuit upheld the District Court’s determination
that the school district had provided to T.P. a program
reasonably calculated to make meaningful progress. Pet.
App. 115a. The Circuit Court’s decision, however, did not
reference progress made by the student during the school
years at issue, but, rather, affirmed the lower court’s
decision “for substantially the same reasons articulated
by the district court.” Pet. App. 6a. The Circuit Court
utilized a retrospective “some progress” standard when
it should have conducted a prospective assessment of the
appropriateness of the IEP itself in light of T.P.s needs
at the time of the development of the IEP. Whatever
progress T.P. may have made in the deficient program,
FAPE cannot be offered or provided by an IEP that fails to
provide appropriate special education services to address
all areas of educational need.
2.

Deference is not owed to school district
procedures that violate the IDEA.

As the District Court acknowledged in the instant
case, “[i]nstead of following the required procedures
and conducting a fully comprehensive test, CCISD
conducted a dyslexia ‘screener’ on Student.” Pet. App.
18a. School staff stated that the district conducted the
screener rather than an evaluation because dyslexia
testing is a “long” process. Pet. App. 22a. The District

19
Court acknowledged that “the reevaluation time from
start to finish may have prevented the Student from
receiving meaningful educational benefits.” Pet. App. 23a.
The Circuit Court, “for substantially the same reasons
articulated by the district court,” affirmed the finding
of the District Court that the CCISD complied with the
IDEA’s procedural requirements regarding evaluation.
These decisions reflect a misplaced deference to local
procedures inconsistent with the IDEA.
Local school procedures cannot eviscerate a statutory
right. Cf., Villano v. City of Boynton Beach, 254 F.3d 1302,
1309 (11th Cir. 2001) (rejecting interpretation of Local
Rule that would have blocked a statutory entitlement);
cf., Reyes-Torres v. Holder, 645 F.3d 1073, 1076-1077
(9th Cir. 2011) (rejecting government’s argument that
would allow Attorney General’s unilateral reduction of
statutory ninety-day period to file motion to reopen).
Evaluation criteria are explicit and assessments are
used to collaboratively consider eligibility for services. 34
C.F.R. § 300.304. Reevaluation is warranted when a parent
makes such a request and when an additional disability
classification is suspected. 34 C.F.R. § 300.303(a); see, e.g.,
Phyllene W. v. Huntsville City Bd. of Educ., 630 F. Appx.
917, 926 (11th Cir. 2015). The IDEA makes clear that “a
screening for instructional purposes is not evaluation.”
34 C.F.R. § 300.302. Texas requires school districts,
within fifteen school days of a parent’s written request for
evaluation, to provide the parent with prior written notice
of its proposal to conduct an evaluation consistent with 34
C.F.R. 300.503, or to provide to the parent prior written
notice of its refusal to conduct such an evaluation. 19 Tex.
A dmin. Code § 89.1011(b)(1), (2). The written report of the
full individual evaluation of a student must be completed

20
“not later than the 45th school day following the date on
which the school district received the written consent for
the evaluation from the student’s parent.” Id., § 89.1011(c).
In T.P.’s case, the school district delayed the process by
which parental consent was sought and obtained, in order
to conduct a screening rather than an evaluation. Pet.
App. 10a.
CCISD was required to follow IDEA reevaluation
procedures and, at the very least, to explain to the
Parent the implications of a “screener” as opposed to an
IDEA-compliant reevaluation, which CCISD failed to
do. The eight-month gap between the Parent’s request
for evaluation and the resulting provision of services
was not reasonable. The Court erred in finding CCISD’s
assessment procedures for dyslexia services did not
procedurally violate the IDEA’s reevaluation procedures.
20 U.S.C. § 1414(a)(2). The Circuit Court erred in its
adoption of the District Court finding that because the
District had a policy of conducting a “screener” followed
by a reevaluation months later, that “deference must
be given to the District with respect to the means and
method of providing the FAPE.” Pet. App. 22a. School
district procedures that violate the IDEA are not entitled
to such deference; otherwise, there would be no need
for administrative hearings under the IDEA under any
circumstances. R.S. v. Montgomery Twp. Bd. of Educ., No.
10-CV-5265, 2012 WL 2119148, at *7 (D.N.J. June 11, 2012)
(finding that “if the views of school personnel regarding
an appropriate educational placement for a disabled child
were conclusive, then administrative hearings conducted
by an impartial decision-maker would be unnecessary”).
Citing Dallas Indep. Sch. Dist. v. Woody, the District
Court found that CCISD “justified the reevaluation

21
process” and therefore “in the context of the surrounding
circumstances,” CCISD did not violate the IDEA. Pet.
App. 23a; Woody, 865 F.3d 303, 320 (5th Cir. 2017). The
Court made this finding while acknowledging CCISD’s
process “may have prevented the Student from receiving
meaningful benefits” (emphasis added). Id.
Texas requires school districts to obtain consent for
evaluation within fifteen days of receipt of the parent’s
request. 19 T ex . A dmin. C ode § 89.1011(b)(1). The
“screener” requirement, however, resulted in a 42-day
delay in obtaining parental consent for evaluation after the
request for evaluation. The full evaluation for dyslexia was
not completed until seventy-two days after the CCISD’s
receipt of the Parent’s request for evaluation (May 18,
2018). The ARDC did not meet to discuss the results until
103 school days after the parental request for evaluation
(September 17, 2018). Texas provides only thirty calendar
days, excluding summer break, in which to do so. 19 Tex.
A dmin Code § 89.1011(d).
Had CCISD completed a timely and appropriate
evaluation for dyslexia, T.P. would have received
individualized dyslexia services during the 2017-2018
school year, including the summer months. The CCISD’s
use of a dyslexia “screener” delayed the evaluation,
caused a deprivation of educational benefit, impeded T.P.’s
right to FAPE, and impeded the Parent’s opportunity to
participate in a meaningful way in the decision-making
process insofar as it deprived her of pertinent information.
Spring Branch Indep. Sch. Dist. v. O.W., 961 F.3d 781, 794
(5th Cir. 2020). Moreover, the Court’s reliance on Woody
to validate CCISD’s dyslexia assessment procedure is
misplaced. The portion of Woody cited by the District

22
Court states that “a student must be referred for an
evaluation within a ‘reasonable time’ after the District
has reason to suspect a qualifying disability.” Woody, 865
F.3d at 320. T.P. had already been determined to be IDEAeligible and required reevaluation upon parental request.
34 C.F.R. § 300.303(a)(2). Moreover, the three-month delay
between identification and referral in Woody was found to
be reasonable “partly… because the district court found
that the delay was not solely attributable to the District.”
Id. In T.P’s case, however, the delay between the Parent’s
request for evaluation and the CCISD’s seeking consent to
conduct the evaluation was solely attributable to CCISD’s
impermissible “screener” procedure and not to any action
or inaction on the part of the Parent. Indeed, the Parent
signed the consent for evaluation on the very day the
consent form was presented to her. The District Court’s
reliance on the “reasonableness” standard of Woody is not
applicable to the facts in this proceeding.
In the Circuit Court’s adoption of the findings of
the District Court below, the Circuit Court showed
unwarranted deference to those findings under its clear
error standard of review. “It is CCISD’s policy to first
conduct a screener and follow up with a test only if needed.
While the district must provide the student with a FAPE,
deference must be given to the District with respect to
the means and method for providing the FAPE.” Pet.
App. 22a. Even as it acknowledged that “the reevaluation
time from start to finish may have prevented the Student
from receiving meaningful benefits,” the District Court
excused an eight-month delay in conducting the requested
evaluation “because CCISD justified the reevaluation
process” by reference to its own policy to require a
screener. Pet. App. 23a. The school district’s procedures

23
unreasonably delayed the evaluation of a child with a
disability, delayed the development of an IEP based on
current evaluations, and delayed the implementation of
an appropriate program of services for the child. Thus,
the Fifth Circuit has shown unwarranted deference to
the school district’s use of its own procedures to justify
a procedural violation of the IDEA that resulted in a
denial of IDEA protections and services to a student with
a disability.
The use of a “screener,” the delay in evaluation, and the
consequent eight-month delay in the provision of services,
was a procedural violation of the IDEA that denied to T.P.
a FAPE. The IDEA and the courts have made clear that, in
the context of an initial evaluation, delaying an evaluation
by relying on other assessment or intervention methods
is a violation of the IDEA. See 34 C.F.R. § 300.302; O.W.,
961 F.3d at 794 (school district’s failure to evaluate, even
while implementing intermediate accommodations, can
be described as nothing less than a delay or denial).
Children who are already receiving special education
services should not receive fewer procedural protections
than children who have not yet been deemed eligible for
special education services. To find otherwise would create
a “perverse incentive” to delay the provision of FAPE to
students already eligible for special education services.
Woody, 865 F.3d at 320.
The CCISD violated IDEA procedures by failing
to evaluate T.P. for a Specific Learning Disability. The
District Court did not directly address the Parent’s
argument that CCISD procedurally violated the IDEA
by failing to appropriately re-evaluate T.P. for a Specific
Learning Disability, conducting instead only a limited

24
assessment for services in the general education context.
The Court conflated the assessment for dyslexia services
in the general education context with an evaluation
consistent with the requirements of the IDEA, finding that
the Parent had failed to show “deficiency” of the dyslexia
assessment. Pet. App. 23a.
School districts must ensure that the re-evaluation
of each child with a disability is conducted in accordance
with 34 C.F.R. §§ 300.304-300.311, 300.303(a). The IDEA
establishes additional procedures for the evaluation of
students with Specific Learning Disorders. 34 C.F.R.
§§ 300.307-311. Such evaluations must be conducted
by qualified individuals and must be sufficiently
comprehensive to identify all of a student’s special
education and related service needs, whether or not
commonly linked to the disability category in which the
child is suspected of needing specialized instruction.
Timothy O. v. Paso Robles Unified Sch. Dist., 822 F.3d
1105, 1109 (9th Cir. 2016).
The IDEA requires that children receive different
assessments embedded in the evaluation as a whole.
Jones-Herrion v. District of Columbia, No. 18-CV2828, 2019 WL 5086693, at *3 (D.D.C. October 10, 2019)
(“diagnostic assessments – which the IDEA refers to
simply as ‘assessments’ – are the tools used as part of an
evaluation or reevaluation of a student to ensure that the
child is evaluated in ‘all areas of suspected disability’ and
in ‘determining an appropriate education program for the
child’”). An IDEA-compliant evaluation requires, inter
alia, that the evaluation be comprehensive in scope and
assess the student in all areas related to the suspected
disability. 34 C.F.R. § 300.304(c)(4).

25
The CCISD’s failure to adhere to the IDEA’s
procedural requirements regarding evaluation denied
to the Student an educational benefit. The Circuit Court
erred in adopting the District Court’s determination that
CCISD did not procedurally violate the IDEA and its
finding that “while the reevaluation time from start to
finish may have prevented T.P. from receiving meaningful
benefits, CCISD justified their decision-making process
without any objections.” Pet. App. 23a. A parent, however,
cannot be expected to understand the nuances of the
IDEA and to cite to applicable regulations when seeking
evaluation or services under the IDEA; a parent’s request
for assessment is implied when a parent informs a school
that a child may have special needs. See Robertson Cty.
Sch. Sys. v. King, 99 F.3d 1139 (6th Cir. 1996). The Circuit
Court’s finding is thus inconsistent with the IDEA’s explicit
provisions regarding whether a procedural violation of the
IDEA results in the denial of FAPE.
Moreover, the Circuit Court erred in its acceptance
of the District Court’s determination that T.P. was
not denied educational benefit due to CCISD’s failure
to evaluate T.P. for Specific Learning Disability. This
finding is based on an unsupported legal standard that
would require the Parent to actively object to CCISD’s
assessment procedures in order to establish a procedural
violation of the IDEA. The IDEA, however, places upon
school districts – and not parents – the responsibility
for evaluating students in accordance with the IDEA.
34 C.F.R. § 300.304(a). A student’s entitlement to special
education “should not depend on the vigilance of parents
(who may not be sufficiently sophisticated to comprehend
the problem) nor be abridged because the district’s
behavior did not rise to the level of slothfulness or bad

26
faith.” M.C. v. Cent. Reg’l Sch. Dist., 81 F.3d 389, 397
(3d Cir. 1996). The Parent’s July 2018 request for an
Independent Educational Evaluation based on CCISD’s
failure to evaluate T.P. in all areas of suspected disability
was a clear indication of her disagreement with CCISD’s
assessment procedures. 34 C.F.R. § 300.502.
3.

The adequacy of an IEP to provide FAPE
requires prospective assessment.

The Courts of Appeals are divided over what
constitutes the appropriate educational progress that
must be demonstrated in order to demonstrate that a
school district has provided FAPE under the IDEA.
This confusion has led some courts to utilize improperly
stringent standards of review and to exalt form over
substance in the application of non-dispositive factors.
Moreover, the Second Circuit has concluded, in a matter
of first impression, that the adequacy of an IEP to provide
FAPE must be evaluated prospectively as of the time the
IEP itself was created. R.E. v. New York City Department
of Education, 694 F.3d 167. In the case below, the Fifth
Circuit decision was based on a retrospective analysis
that failed to correctly consider the reasonableness of
the IEP at the time of its creation, applying instead an
inapt assessment of the Student’s post-IEP progress. This
Court should use the instant case to provide the necessary
clarification and to resolve these conflicts.
The instant case is one in which the school district
developed and implemented an IEP which failed to
address a key area of need, i.e., dyslexia. The school
district, pointing to purported progress with services
provided outside the special education context, ignores
the requirement that it is the IEP itself which must

27
be reasonably calculated to confer educational benefit.
Endrew F., 137 S.Ct. at 993, 1000—01.
The Circuit Court below erred when it adopted the
District Court’s retrospective determination regarding the
sufficiency of the Student’s receipt of “some” educational
and academic benefit. The Court found that T.P.’s “reading
scores showed objective progress, and T.P. also showed
improvement in his math and writing skills.” Pet. App. 31a.
The Court looked at T.P.’s academic “results as a whole”
and concluded that he “demonstrated objective progress in
all areas.” Id. These findings were contrary to the weight
of the evidence and are the result of a misapplication of
relevant legal standards. Neither “some” progress nor
“objective progress” necessarily constitutes “meaningful”
progress in light of the individual circumstances of a child
with a disability, however. T.P.’s progress in reading in the
general education setting did not constitute meaningful
progress, as he remained on a mid-first grade level,
according to witness testimony at the administrative
hearing. Pet. App. 93a.
Moreover, the Court’s findings were based on an
assessment of T.P.’s progress in a program that did not
include special education services established by an IDEAcompliant IEP, including a statement of present levels of
performance, measurable annual goals, and reporting of
progress toward those goals.
A variation of the “some educational benefit” standard
was utilized by a majority of circuit courts prior to Endrew
F. to evaluate whether an IEP provided FAPE. See, e.g.,
Devine v. Indian River Cty. Sch. Bd., 249 F.3d 1289,
1292 (11th Cir. 2001) (“[A] student is only entitled to some
educational benefit.”); Gill v. Columbia 93 Sch. Dist., 217

28
F.3d 1027, 1035 (8th Cir. 2000) (“The standard to judge
whether an IEP is appropriate under IDEA is whether
it offers instruction and supportive services reasonably
calculated to confer some educational benefit.”); Kerkam
v. Superintendent, District of Columbia Pub. Schs., 931
F.2d 84, 87 (D.C. Cir. 1991) (“There seems to be little
doubt that [the child] would have made less progress under
the District of Columbia program, but Rowley precludes
our taking that factor into account so long as the publicschool alternative confers some educational benefit.”).
In contrast, the Third Circuit applied the “meaningful
educational benefit” standard. See, e.g., Shore Reg’l High
Sch. Bd. of Educ. v. P.S., 381 F.3d 194 (3d Cir. 2004).
The Third Circuit justified the “meaningful educational
benefit” standard by explaining that it would contravene
the intent of Congress in enacting the IDEA to allow
states receiving federal special education funding to make
the “idle gesture” of providing only trivial benefits. Polk
v. Central Susquehanna Intermediate Unit 16, 853 F.2d
171, 184 (3d Cir. 1988).
Rowley generated disagreement among the circuits
regarding the appropriate standard. The Supreme Court
addressed this issue in Endrew F., in which the Court
unanimously agreed that the “some educational benefit,”
“merely more than de minimis” standard defended by
the school district was problematic. The Court held that
the IDEA “requires an educational program reasonably
calculated to enable a child to make progress appropriate
in light of the child’s circumstances.” Endrew F., 137 S.Ct.
at 1000-01. While not explicitly mentioning “meaningful
progress,” the Court stated that a child’s “educational
program must be appropriately ambitious in light of his
circumstances.” Id., at 1000. The Endrew F. standard
holds school districts to a higher standard of accountability

29
by requiring them to develop differentiated curricula
to help students with disabilities make individually
appropriate progress. Id. (requiring school districts to
provide students with disabilities “individualized special
education calculated to achieve advancement from grade to
grade” in order to meet the FAPE standard). Developing
educational programs consistent with the heightened
standard of Endrew F. requires those responsible for the
development of IEPs to fully understand the potential
complications of a specific disability and its impact on
a student’s educational progress. The Fifth Circuit’s
determination regarding the issue of T.P.’s educational
progress ref lects a misapplication of the standard
established by the Court in Endrew F.
B. The questions presented are exceptionally
important to children with disabilities and their
parents and warrant this Court’s review.
If permitted, the Fifth Circuit’s decision and analysis
will have broad practical consequences. It would impair
the ability of parents of disabled children to succeed in
the impartial hearing process whenever school districts
show “some” progress by the child, and whenever a local
school district procedure can be cited as a justification
for the delay in evaluating a disabled child in accordance
with the mandates of the IDEA, to be followed by a
rubber-stamp under clear error review. Such disregard
for the procedural and substantive requirements of the
IDEA reflects an improper adherence to the pre-Endrew
F. standards that this Court has rejected. Consistent
standards for evaluation of disabled children and for
assessing their progress under their IEPs are necessary
to implement the IDEA. Whether the IEP itself afforded
FAPE to a student with a disability is a matter that

30
must be viewed prospectively, i.e., from the time of the
development of the IEP itself.
This case offers a next step in reaching a shared
standard for determining whether FAPE has been
provided to students with a disability, a standard that
reflects a highly individualized nature of the IEP team’s
assessment of the abilities, needs and circumstances of an
individual child with a disability. In Endrew F., the Court
held that “to meet its substantive obligation under the
IDEA, a school must offer an IEP reasonably calculated
to enable a child to make progress appropriate in light of
the child’s circumstances.” 137 S.Ct. at 999. While focusing
on whether a student was offered such a program, the
Court also reiterated the emphasis in Rowley that “For
children with disabilities, receiving instruction that aims
so low would be tantamount to ‘sitting idly… awaiting the
time when they were old enough to ‘drop out.’” 137 S.Ct.
at 999 (quoting Rowley, 458 U.S. at 179). While Endrew F.
did not decide standards surrounding the implementation
of an IEP, the Court foresaw that deciding what a school
should offer was only one side of the coin; the student’s
progress under the program actually provided is the
other – whether at the IEP meeting, in an administrative
hearing, or in a judicial proceeding.
C. The Fifth Circuit’s decision is in error.
The Circuit Court below erred. It applied no substantive
standard to enforce the IDEA’s requirements for the
provision of an appropriate education under Endrew F.,
and excused the school district from its obligation to meet
state and federal requirements regarding the timely
evaluation of students with disabilities or suspected
disabilities. The Court rehabilitated an IEP that was

31
not reasonably calculated at the inception to address all
of T.P.’s special education needs, most notably, dyslexia.
The practical consequences of such misplaced deference
to school district practices that violate the IDEA, and to
after-the-fact determinations that FAPE has been provided
to a child with a disability, are significant. IEPs that are
the result of untimely and inadequate evaluations cannot
address and meet the needs of a child with a disability and,
therefore, cannot result in the conferral of educational
benefit appropriate in light of the child’s circumstances.
In the absence of guidance from this Court, lower
courts may effectively revert to their pre-Endrew F. case
law such as Michael F., or avoid addressing these issues
altogether. This Court should accept this case to clarify
standards applicable to determinations regarding the
provision of FAPE to students with a disability.
CONCLUSION
The Court should grant the petition for a writ of
certiorari.
				

Respectfully submitted,
A ndrew K. Cuddy
Counsel of Record
Cuddy Law Firm, P.L.L.C.
5693 South Street Road
Auburn NY 13021
(315) 370-4020
acuddy@cuddylawfirm.com
Counsel for Petitioners

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the fifth
circuit, filed march 1, 2021
United States Court of Appeals
for the Fifth Circuit
No. 20-50373
AMANDA P., AS PARENT/GUARDIAN/NEXT
FRIEND OF T.P., A MINOR INDIVIDUAL WITH A
DISABILITY; CASEY P., AS PARENT/GUARDIAN/
NEXT FRIEND OF T.P., A MINOR INDIVIDUAL
WITH A DISABILITY,
Plaintiffs-Appellants,
versus
COPPERAS COVE INDEPENDENT
SCHOOL DISTRICT,
Defendant-Appellee.
March 1, 2021, Filed
Appeal from the United States District Court
for the Western District of Texas
USDC No. 6:19-CV-00197
Before Owen, Chief Judge, and Graves and Ho, Circuit
Judges.

2a
Appendix A
Per Curiam:*
T.P. is an elementary-school student who receives
special education and related services as a result of his
autism, ADHD, and dyslexia. In September 2017, he
moved with his family from North Carolina to Texas and
began second grade in the Copperas Cove Independent
School District (CCISD). Eventually, Plaintiffs became
dissatisfied with the school district’s provision of special
education services and requested a due process hearing
with the Texas Education Agency.
After the hearing, the Special Education Hearing
Officer (SEHO) concluded that Plaintiffs had failed to
show that CCISD had denied T.P. a free appropriate
public education (FAPE) or violated the Individuals with
Disabilities Education Act (IDEA). Plaintiffs filed suit to
challenge the decision, and both sides moved for judgment
on the administrative record. The district court denied
Plaintiffs’ motion but granted Defendant’s motion. Like
the SEHO, the district court concluded that Plaintiffs had
failed to show either a procedural or substantive violation
of the IDEA. Plaintiffs now contend that the district court
erred in multiple respects. We disagree and affirm.

* Pursuant to 5th Circuit Rule 47.5, the court has determined
that this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Circuit Rule 47.5.4.

3a
Appendix A
I.
When T.P. arrived in Texas, CCISD convened an
Admission, Review, and Dismissal Committee (ARDC) to
develop T.P.’s Individualized Education Program. Using
in-class assessment data, the ARDC developed a program
that set goals for T.P.
In December 2017, T.P.’s private therapy provider
began to suspect that T.P. had dyslexia. The next month,
the ARDC met to review and revise T.P.’s program. There,
Plaintiffs raised concerns about T.P.’s lack of progress and
requested that he be tested for dyslexia.
In February 2018, CCISD began that process by
giving T.P. a dyslexia “screening”—a less intensive and
comprehensive examination to determine whether a fuller,
more rigorous evaluation is necessary. Plaintiffs agreed
to T.P.’s screening.
In April, the ARDC discussed the screener results
and recommended further assessment. At that point,
Plaintiffs consented to a Full and Individual Evaluation.
The express goal was to complete testing by late August
2018, but T.P. ended up being tested much earlier, in May.
That assessment recommended that T.P. be considered for
general education dyslexia services.
CCISD later disqualified T.P. from summer school
because his grades were too high. As a result, Plaintiffs
paid $7,451 for T.P. to receive academic tutoring over the
summer.

4a
Appendix A
In July, Plaintiffs requested that T.P. receive an
Independent Educational Evaluation (IEE) in “all areas
of suspected disability and need, including but not limited
to Autism, Specific Learning Disability, Other Health
Impairment, Occupational Therapy, Assistive Technology,
and any other area of suspected disability.” CCISD
granted the request but did not complete the IEE until
December.
In August, Plaintiffs asked T.P.’s reading teacher
about the May evaluation and the teacher agreed to
allow T.P. to begin participating in her general education
dyslexia class—even though the ARDC had not yet
reconvened. That same month, Plaintiffs selected an
evaluator for T.P.’s IEE.
In September, the ARDC met, reviewed the May
evaluation, and issued a program stating T.P. was
“Dyslexia/Qualified” and would receive general education
dyslexia services. Days later, Plaintiffs filed a request for
a due process hearing.
In early December, the evaluator completed T.P.’s
IEE and concluded that T.P. had a Specific Learning
Disability in reading, reading comprehension, reading
fluency, and written expression. That same month, the
SEHO conducted a hearing. The SEHO concluded that
Plaintiffs had failed to show that CCISD had denied T.P. a
FAPE or violated the IDEA—and determined that there
were “no data” supporting T.P.’s eligibility for extended
school year services. Still, the SEHO ordered CCISD to
put together a summer plan to address T.P.’s deficiencies.
CCISD did so, and T.P. eventually attended CCISD’s 2019

5a
Appendix A
summer reading camp, received daily dyslexia services,
and worked on other goals in his program. Two months
into the 2019-2020 school year, T.P. moved to Tennessee.
II.
“This court reviews a district court’s determination as
to whether a school district has provided a FAPE under
IDEA as a mixed question of fact and law.” R.S. ex rel.
Ruth B. v. Highland Park Indep. Sch. Dist., 951 F.3d 319,
328 (5th Cir. 2020). “The district court’s legal conclusions
are reviewed de novo, while findings of underlying fact
are reviewed for clear error.” Id. (quotations omitted).
“Whether the student obtained educational benefits
from the school’s special education services is a finding
of underlying fact.” Id.
III.
Plaintiffs make three main contentions on appeal.
First, they assert that the district court erred in finding
that CCISD complied with the procedural requirements
of the IDEA. Second, they contend that the district court
erred in finding that CCISD substantively complied with
the IDEA. And third, they argue that the district court
abused its discretion in denying a motion for additional
evidence.
We have explained that, “[u]nder clear error review,
a factual finding may be reconsidered” only when, “after
reviewing all of the evidence, the court is left with the
definite and firm conviction that a mistake has been
committed.” A.A. ex rel. K.K. v. Northside Indep. Sch.

6a
Appendix A
Dist, 951 F.3d 678, 684 (5th Cir. 2020) (quotations omitted).
After carefully considering the briefs, record, and oral
arguments in this case, we are left with no such conviction.
Moreover, we are unpersuaded that the district court
erred in concluding that CCISD complied with the IDEA
or in denying Plaintiffs’ motion for additional evidence.
For substantially the same reasons articulated by the
district court, we affirm its orders granting Defendant’s
motion for judgment on the administrative record, denying
Plaintiffs’ motion for judgment on the administrative
record, and denying Plaintiffs’ motion for additional
evidence.1
1. Amici curiae in this case battle over the impact of the
Supreme Court’s decision in Endrew F. ex rel. Joseph F. v. Douglas
County School District RE-1, 137 S. Ct. 988, 197 L. Ed. 2d 335 (2017),
on our four-factor test for evaluating the sufficiency of a child’s
program (first articulated in Cypress-Fairbanks Independent School
District v. Michael F. ex rel. Barry F., 118 F.3d 245 (5th Cir. 1997)).
But this court has already held multiple times that the Michael F.
factors align with the interpretation of FAPE outlined in Endrew
F. See, e.g., A.A., 951 F.3d at 690 (“Endrew F. has not changed or
eliminated our circuit’s use of the ‘reasonably calculated’ factors
as we announced them twenty-two years ago in Michael F.”); id.
(“[W]e hold that Endrew F. did not eliminate, nullify, nor modify this
circuit’s practice of applying the Michael F. factors when evaluating
the sufficiency of a child’s [program].”); Renee J. ex rel. C.J. v.
Houston Indep. Sch. Dist., 913 F.3d 523, 529 (5th Cir. 2019) (“In 2017,
the Supreme Court held in Endrew F. that, to meet its substantive
burden under the IDEA, ‘a school must offer a[ program] reasonably
calculated to enable a child to make progress appropriate in light of
the child’s unique circumstances.’ This court recently reaffirmed the
validity of the Michael F. test in light of Endrew F.”) (citing E.R. ex
rel. E.R. v. Spring Branch Indep. Sch. Dist., 909 F.3d 754 (5th Cir.
2018) (per curiam)).

7a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF TEXAS, WACO DIVISION,
FILED APRIL 14, 2020
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION
CIVIL NO. 6:19-CV-00197-ADA
AMANDA P. AND CASEY P. AS PARENTS/
GUARDIANS/NEXT FRIENDS OF T.P., A MINOR
INDIVIDUAL WITH A DISABILITY,
Plaintiff,
v.
COPPERAS COVE INDEPENDENT
SCHOOL DISTRICT,
Defendant.
April 14, 2020, Decided;
April 14, 2020, Filed
ORDER GRANTING DEFENDANT’S MOTION
FOR JUDGMENT ON THE ADMINISTRATIVE
RECORD AND DENYING PLAINTIFF’S
MOTION FOR JUDGMENT ON THE
ADMINISTRATIVE RECORD
Before the Court is Defendant’s Motion for Judgment
of the Administrative Record (ECF No. 34), Plaintiffs’

8a
Appendix B
Motion for Judgment on the Administrative Record (ECF
No. 35), Plaintiffs’ Response to Defendant’s Motion (ECF
No. 36), Defendant’s Response to Plaintiffs’ Motion (ECF
No. 37), Defendant’s Reply (ECF No. 38), and Plaintiffs’
Reply (ECF No. 39). After carefully reviewing the
parties’ briefs, case file, and applicable law, the Court
has determined that Defendant’s Motion should be
GRANTED, and Plaintiffs’ Motion should be DENIED
for the reasons set forth below.
I.

BACKGROUND

This case is about Copperas Cove Independent School
District’s (“CCISD”) alleged denial of T.P.’s (“Student”)
right to a free appropriate public education (“FAPE”) by
failing to provide Student with comparable services as
required under the Individuals with Disabilities Education
Act (“IDEA”). ECF No. 35 at 3.
Before Student’s family moved to Texas, Student
attended public school in North Carolina. A.R. at 667.
Student was in general education classes, “Participating
with Accommodations” in math, reading, science, social
studies, and writing. Id. at 634-35. Student had an
Individualized Education Program (“IEP”) to address
his disabilities that included Other Health Impairment
(“OHI”) for Attention Deficit Hyperactivity Disorder
(“ADHD”) and a Speech Impairment (“SI”). Id. at 629-47.
Student received thirty minutes of speech services twelve
times per grading period. Id. at 635. Student received
five, fifteen-minute sessions per week of resource help
in writing, and five, thirty-minute sessions per week in
reading. Id.

9a
Appendix B
A.

Second Grade

On September 27, 2017, Student enrolled in the second
grade at an elementary school within CCISD after the
family moved to Texas due to military transfer. A.R. at 11,
¶ 25; A.R. at 648. The CCISD elementary school received
Student’s IEP and evaluations from his previous school
in North Carolina. Id. at 875. Student’s special education
case manager and special education teacher ensured
that Student received services comparable to his North
Carolina IEP when he enrolled. Id. at 2222:10-13; A.R. at
2255:14-2256:18.
On October 20, 2017, CCISD held a Transfer
Admission Review Dismissal (“ARD”) Committee
meeting. Id. at 648-83. The meeting consisted of a Review
of Existing Evaluation Data (“REED”). Id. at 648.
This REED review includes: (1) a review of evaluations
and information provided by the parents of the child;
(2) performance on curriculum-based, local or state
assessments, and classroom-based observations; and, (3)
observations by teachers and related service providers.
Id. The ARD Committee concluded that Student exhibited
a need for specially designed instruction in the areas of
reading comprehension and language arts, as well as
math. Id. at 678. CCISD addressed Student’s individual
needs accommodating him with support in language arts,
reading, math, social studies, and science. Id. at 668.
Student’s goals and accommodations remained comparable
to what he received in North Carolina. Id. at 2256:12-18.
On October 27, 2017, Student’s Schedule of Services”
became effective. Id. at 673. The Schedule of Services

10a
Appendix B
included general education in language arts and writing
for forty-five minutes per day, and math for forty-five
minutes per day. Id. Special education included math
support for thirty minutes per day and specialized reading
support for thirty minutes per day. Id. Speech therapy was
provided thirty minutes, five times per six-week grading
period in the speech therapy room. Id. at 674. CCISD used
the Fountas & Pinnell Assessment (“F&P”) to assess a
student’s progress in reading skills. Id. at 2026:19-22. F&P
is a curriculum-based, criterion-referenced assessment
that tests reading skills. Id. at 2026:15-2027:1. At the
beginning of the year, Student was assessed at an F&P
Level F and a comprehension level of E. Id. at 2030:20-25;
A.R. at563; A.R. at 2031:1-3; A.R. at 563.
On January 30, 2018, the ARD Committee reviewed
Student’s levels of performance and noted the he still
struggled with his reading fluency. Id. at 708-20. Amanda
P. and Casey P. (“Parents”) expressed a desire for dyslexia
testing, but CCISD suggested, and Parents agreed to
conduct a dyslexia screening instead. Id. at 709, 711. A
CCISD Reading Interventionist conducted the dyslexia
screening on February 15, 2018. Id. at 967-74. On April
6, 2018, a Revision ARD Committee meeting convened to
discuss the results of the screening. All parties agreed
that Student would undergo dyslexia testing, and Parents
provided consent. Id. at 721. The dyslexia assessment test,
conducted on May 18, 2018, revealed that Student qualified
for dyslexia services. Id. at 551-53.
At the end of the school year, Student’s progress
reports showed that he made progress on all IEP goals

11a
Appendix B
and received passing grades in all academic areas. Id. at
793; A.R. 22, ¶ 101. Student’s end of the year F&P testing
on May 23, 2018, demonstrated objective progress in
reading. A.R. at 2031; 563; A.R. 27 at 27, ¶ 133).
B. Summer of 2018
On July 18, 2018, Parents requested an Independent
Educational Evaluation (“IEE”) of Student by Jason Craig
in all areas of suspected disability and need, including but
not limited to Autism, Specific Learning Disability, Other
Heath Impairment, Occupational Therapy, Assistive
Technology, and any other area of suspected disability.
A.R. at 1071. CCISD contracted with Mr. Craig as the
evaluator for the psychoeducational IEE and Believe
Pediatric Therapy Services for the speech IEE. Id. at
1062.
Parents provided Student tutoring through the Sylvan
Learning Center over the summer, and the military
provided Applied Behavior Analysis (“ABA”) services.
Id. at 23. Despite the 150 hours of one-on-one instruction,
Student did not demonstrate gains in learning when he
returned for third grade. Id.
C.

Third Grade

On September 17, 2018, CCISD held an A RD
Committee meeting and determined that Student qualified
for dyslexia services. Id. at 750. The services were to be
provided in the general education setting during the school
year. Id. Student received 45 minutes per day, four days

12a
Appendix B
per week, dyslexia instruction using the Wilson Reading
System along with resource and inclusion services. Id. at
746; A.R. at 17776: 18-20. Student also received the use of
assistive technology daily as needed and thirty minutes of
speech therapy, four times per six-week grading period.
A.R. at 746-47.
Student’s IEP identified weaknesses in reading
fluency and comprehension, in writing legibly, and in
math with the expanded form of numbers and word
representation of numbers. Id. at 728-30. Student made
progress in developing reading skills toward grade level.
Id. at 659, 728.
Parents expressed concern over Student’s handwriting
at the ARD Committee Meeting on September 17, 2018.
CCISD’s Reading Specialist offered to allow Student to
stay after school to practice his handwriting with her. Id.
at 750; A.R. at 1735:7-1736:20.
D.

Parents Request Due Process Hearing

Three days after the ARD Committee meeting,
Parents filed a request for a due process hearing with the
Texas Education Agency. A.R. at 67-84. The due process
hearing was held December 12-14, 2018, before Special
Education Hearing Officer (“SEHO”) Ray E. Green. Id.
at 4. In the due process proceedings, Parents alleged that
CCISD committed procedural and substantive violations
of the IDEA and denied Student a FAPE. Id. at 4. Parents
alleged that CCISD failed to evaluate Student in all areas
of suspected disability, failed to identify him as eligible

13a
Appendix B
for special education services as a student with a Specific
Learning Disability (“SLD”), improperly denied Parents
an IEE at CCISD’s expense, and denied speech therapy
and phonics/reading comprehension services during his
first month in school for second grade. Id. at 4, ¶¶ 1-5.
Following the three-day hearing, the SEHO issued
a decision concluding that Parents did not meet their
burden to show that CCISD’s program for Student failed
to provide a FAPE, or CCISD violated the IDEA. Id. at
48. Despite the SEHO finding that the findings of facts
and conclusions of law weighed in favor of CCISD, the
SEHO granted Parents relief. Id. at 1-64.
The SEHO ruled against Parents on every issue raised
at the due process hearing, including: (1) CCISD did not
violate the IDEA and deny Student a FAPE; (2) CCISD did
not violate the IDEA by failing to evaluate Student in all
areas of suspected disability and need; (3) CCISD did not
violate the IDEA by failing to grant Parents’ request for
an Independent Educational Evaluation; (4) CCISD did not
fail to identify Student as eligible for special education and
related services; and (5) CCISD did not violate the IDEA
by failing to provide Student with comparable services
in speech therapy and phonics/reading comprehension
intervention. Id. at 58. The SEHO confirmed that Parents
did not meet their burden of proof. Id. at 59.
The SEHO ordered CCISD to convene an ARD
Committee meeting to provide an appropriate plan for
the provision of services to Student during the 2019
summer to address Student’s deficits in Basic Reading,

14a
Appendix B
Reading Fluency, Reading Comprehension, and Written
Comprehension. ECF No. 1-2 at 62. Student attended
CCISD’s Ranger Reading Camp between July 10 and
July 25, 2019. ECF No. 34-1 at 13. In addition to the
Camp, CCISD provided Student daily dyslexia services.
Id. Student also worked on Reading and Language Arts
goals contained in his IEP. Id. CCISD complied with the
SEHO’s order to provide summer dyslexia support to
Student. Id. Two months after the start of the 2019-2020
school year, Student moved back to North Carolina. Id.
E. Procedural Background
On March 7, 2019, Parents sued CCISD on behalf of
Student, appealing the decision of the SEHO. ECF No.
1 at 1. Plaintiffs challenged the following findings of the
SEHO: (1) the Hearing Officer’s finding that no procedural
violations of the IDEA occurred; (2) the Hearing Officer’s
finding that no substantive violations of the IDEA occurred;
(3) CCISD did not deny Student a FAPE; (4) CCISD did
not violate the IDEA; (5) the Hearing Officer’s rejection
of an award for compensatory educational services; and
(6) the Hearing Officer’s rejection of an award to Parents’
reimbursement in the amount of $7,451.00 for summer
academic tutoring services. Id. at 51-52. The Parties filed
cross-motions for summary judgment on February 21,
2020. See Pls.’ Mot. J. A.R.; Def.’s Mot. J. A.R. The Parties
have fully briefed this dispute.
II. LEGAL STANDARD
The purpose of the IDEA is to ensure children with
disabilities receive a “free appropriate public education

15a
Appendix B
(FAPE) that emphasizes special education and related
services designed to meet their unique needs and prepare
them for further education, employment, and independent
living.” 20 U.S.C. § 1400(d)(1)(A). All school districts within
Texas must comply with the IDEA. Cypress-Fairbanks
Indep. Sch. Dist. v. Michael F., 118 F.3d 245, 247 (5th Cir.
1997). The IDEA requires states to educate children with
disabilities “in the least restrictive environment consistent
with [the child’s] needs . . . ” Teague Indep. Sch. Dist. v.
Todd L., 999 F.2d 127, 128 (5th Cir. 1993). The IDEA does
not require the school district to provide the best possible
FAPE, “nor one that will maximize the child’s educational
potential.” Michael F., 118 F.3d at 247. Instead, the
“FAPE must be tailored to each disabled child’s needs
through an ‘individualized education program,’ (“IEP”)
which is a written statement prepared [by a committee
consisting of] a ‘qualified’ and ‘knowledgeable’ school
district representative, a teacher, the child’s parents or
guardians, and, when appropriate, the child himself.” El
Paso Indep. Sch. Dist. v. Richard R., 567 F. Supp. 2d 918,
925 (W.D. Tex. 2008) (citing 20 U.S.C. § 1414(d)(1)(B)). In
Texas, the committee responsible for preparing a student’s
IEP is the ARD committee.
Under the IDEA, any party aggrieved by the SEHO’s
findings and decisions may bring suit in district court.
20 U.S.C. § 1415(i)(2)(A). “Under the IDEA, a federal
district court’s review of a [SEHO’s] decision is ‘virtually
de novo.’” Adam F. ex rel. Robert J. v. Keller Indep. Sch.
Dist., 328 F.3d 804, 808 (5th Cir. 2003). The court should
afford the SEHO’s findings “‘due weight,’ but the district
court must arrive at an independent conclusion based on

16a
Appendix B
a preponderance of the evidence.” Id. As a result, even
though the court is ruling on summary judgment, the
existence of a disputed material fact will not defeat a
summary judgment motion. Reyes v. Manor Indep. Sch.
Dist., No. A-14-CA-00469, 2016 U.S. Dist. LEXIS 12506,
2016 WL 439148, at *4 (W.D. Tex. Feb. 2, 2016).
The IDEA presumes a school district’s IEP is
appropriate. White ex rel. White v. Ascension Parish
Sch. Bd., 343 F.3d 373, 377 (5th Cir. 2003). The party
challenging the IEP bears the burden of showing the
IEP was inappropriate under the IDEA. Richardson
Indep. Sch. Dist. v. Michael Z., 580 F.3d 286, 292 n.4 (5th
Cir. 2009). A district court should not substitute its “own
notions of sound educational policy for those of the school
authorities which [it] review[s].” Bd. of Educ. of Hendrick
Hudson Cent. Sch. Dist., Westchester Cty. v. Rowley, 458
U.S. 176, 206, 102 S. Ct. 3034, 73 L. Ed. 2d 690 (1982). To
that end, a district court’s task is to determine whether a
school district complied with the IDEA and not to secondguess their educational decision making. R.H. v. Plano
Indep. Sch. Dist., 607 F.3d 1003, 1010 (5th Cir. 2010).
III.

ANALYSIS

When reviewing a SEHO’s decisions, district courts
make two determinations. First, courts determine whether
the school district complied with the IDEA’s procedural
requirements. The second inquiry is to determine whether
a student’s IEP is reasonably calculated to provide
meaningful educational benefits. Rowley, 458 U.S. at 177.
Plaintiffs allege Defendant denied Student a FAPE by

17a
Appendix B
violating both the procedural safeguards and substantive
provisions of the IDEA.
A.

Procedural Violations

The existence of a procedural violation does not
automatically entitle a plaintiff to relief. Adam J. v. Keller
Indep. Sch. Dist., 328 F.3d 804, 811-12 (5th Cir. 2003). A
plaintiff must also show substantive harm precipitating
from the procedural violation. Id. Under the IDEA, a
plaintiff must show that the procedural violation: (1)
impeded the child’s right to a FAPE; (2) significantly
impeded the parents’ opportunity to participate in
the decision-making process regarding the provision
of a FAPE; or (3) caused a deprivation of educational
benefits. 20 U.S.C. § 1415(f)(3)(E)(ii). Parents allege
CCISD committed, and the SEHO erred in not finding a
procedural violation in Student’s IEP reevaluation.
Parents argue that since Student was eligible for
special education when he started school at CCISD in 2017,
the Court should look to the IEP reevaluation procedural
requirements for guidance. ECF No. 35 at 17. Under
the requirements, the IDEA requires school districts to
reevaluate a student, in general, “if the local educational
agency determines that the educational or related services
needs . . . of the child warrant a reevaluation; or if the
child’s parents or teacher requests a reevaluation.” 20
U.S.C. § 1414(a)(2). The IEP reevaluation shall occur not
more frequently than once a year, but it shall occur every
three years. Id. “School districts must seek to evaluate
students with suspected disabilities within a reasonable

18a
Appendix B
time after the school district is on notice of facts or
behavior likely to indicate a disability.” Dallas ISD v.
Woody, 865 F.3d 303, 320 (5th Cir. 2017).
Additionally, the school must coordinate with the
previous schools when a child with disabilities transfers
from one public school to another. 34 C.F.R. § 300.304(c)
(5). At the same time, if conducting a reevaluation, the
evaluation must be sufficiently comprehensive to identify
all of the child’s special education and related service
needs, whether or not commonly linked to the disability
category in which the child has been classified. 34 C.F.R.
§ 300.304(c)(6).
Parents argue that CCISD had notice of the possibility
that Student had an SLD in reading and writing when
Student moved into the school district from North
Carolina. ECF No. 35 at 18. The school in North Carolina
provided CCISD with an IEP and an evaluation that
noted Student’s specialized instruction requirements
in the areas of reading and writing. Id. Furthermore,
Student’s teachers within CCISD reported that Student
failed to make appropriate progress in reading. Id.
Parents subsequently requested an evaluation for reading
disability. Id.
Instead of following the required procedures and
conducting a fully comprehensive test, CCISD conducted a
dyslexia “screener” on Student. Id. Later in the semester,
CCISD conducted a general education dyslexia assessment
rather than a full evaluation for an SLD. Id.

19a
Appendix B
Parents contend that Student finally received a full
SLD evaluation when CCISD consented to Parents’
request for an independent evaluation by Jason Craig at
the end of 2018. Id. at 19. In Mr. Craig’s formal evaluation
of Student, Mr. Craig recommended Student be found
eligible for special education and related services as a
student with an SLD in basic reading, reading fluency,
reading comprehension, and written expression. Id. at
20. Student was only receiving general education dyslexia
interventions at the time, and Parents contend that those
services do not constitute special instruction under the
IDEA. Id. at 19. Because of the failure by CCISD to
provide a sufficiently comprehensive evaluation, Parents
contend that CCISD denied Student an IEP that contained
specialized instruction individualized to Student’s
disabilities and needs. Id. at 20. Thus, CCISD deprived
Student of educational benefits and impeded Student’s
right to a FAPE. Id. at 20.
In their response, CCISD makes three main
counterarguments. First, CCISD argues that they were
not on notice that the evaluations or the IEP from the
North Carolina school were deficient in any way. ECF No.
37 at 6. CCISD had no evidence to suggest that the IEP
was deficient. Id. CCISD points out that the statute only
requires CCISD to conduct a reevaluation every three
years, unless the parent and school district agree the
reevaluation is necessary. Id.; See also 20 U.S.C. § 1414(a)
(2). The school in North Carolina conducted the initial
evaluation of Student two years before moving to CCISD.
CCISD contends that they complied with the statute when
they relied upon Student’s prior school evaluations and the
IEP when creating their own IEP.

20a
Appendix B
Second, CCISD arg ues that they timely and
appropriately evaluated Student for dyslexia. ECF No.
37 at 8. CCISD points out that the IDEA only requires an
evaluation when the district suspects that a student has
a disability and needs special education. Id. Courts then
require that the school evaluate within a reasonable time
after receiving notice of any behavior that likely indicates
a disability. Id. at 8-9. In this case, Parents first raised
the concern for dyslexia at the end of January 2018 and
requested a dyslexia evaluation from CCISD. Id. at 9.1
Parents concern constituted a notice of possible disability,
so CCISD initiated a dyslexia screener within two weeks.
Id. at 10. When the screener indicated reasons to suspect
dyslexia, CCISD agreed to conduct the formal dyslexia
testing in the middle of May 2018. Id. The assessment
determined that Student qualified for services due to
dyslexia, so CCISD started Student’s dyslexia instruction
the following school year. Id. CCISD contends that these
facts suggest that CCISD conducted the tests without
unreasonable delay. Id. at 11.
Lastly, CCISD argues that the evaluation by Jason
Craig does not support Parents’ claims. Id. at 12. CCISD
contends that Mr. Craig lacked credibility because he
recommended accommodations already provided by
CCISD to Student. Id. Specifically, CCISD highlights that
Mr. Craig (1) did not know that Student already received
1. CCISD explained that dyslexia screeners in its district occur
during a student’s first-grade year because schools have exposed
students to reading instruction by that point. The North Carolina
school did not conduct a dyslexia screen despite displaying language
problems before Student moved to Texas. ECF No. 37 at 9.

21a
Appendix B
special education services, (2) had not seen Student’s
existing IEP, and (3) acknowledged that the CCISD’s
accommodations were appropriate. Id. at 12-13.
In their reply, Parents make three counterpoints.
First, Parents point out that CCISD committed a
procedural violation when CCISD delayed dyslexia testing
by instead conducting the dyslexia screener. ECF No. 39 at
4. The procedural violation by CCISD resulted in an eightmonth delay in Student’s new IEP. Id. As a result, Student
suffered substantive harm through a denial of services. Id.
Second, Parents contend that CCISD committed a second
violation when CCISD conducted the limited assessment
for dyslexia as opposed to evaluation for an SLD. Id. While
Parents point out that CCISD’s dyslexia assessment in
May 2018 did not meet the reevaluation requirements,
they do not point to any specifics or explain how they
substantively harmed Student. Id. Lastly, Parents contend
that Mr. Craig’s evaluation was credible because the
SEHO made numerous findings of fact regarding his
evaluation and testimony and awarded relief to Parents.
Id. at 5.
The Court finds that Parents did not show substantive
harm to Student from a procedural violation. Moreover,
the Court finds that CCISD complied with its obligations
under the IDEA. First, although Parents assert that
CCISD violated the IDEA procedures when they
conducted the dyslexia screener, Parents failed to show
that the steps taken by CCISD were inappropriate given
the facts and circumstances. Specifically, Student’s
teacher did not see any indications that Student had

22a
Appendix B
dyslexia over the first three months of class. A.R. at
2067:2-2068:3. CCISD conducted the screener instead of
the dyslexia testing because the dyslexia testing is a long
process. Id. at 1723:18-1724:1. It is CCISD’s policy to first
conduct a screener and follow up with a test only if needed.
While the district must provide the student with a FAPE,
deference must be given to the District with respect to the
means and method of providing the FAPE. The Court’s
only proper inquiry is if CCISD ultimately violated the
IDEA, not to assess whether a better system exists. See
Rowley, 458 U.S. at 206. Thus, CCISD did not violate
the procedural requirements by conducting the dyslexia
screening before the dyslexia test.
Second, although Parents assert that CCISD violated
the IDEA procedures because of the eight-month delay for
the new IEP, Parents fail to show that CCISD acted with
unreasonable delay. See Dallas ISD v. Woody, 865 F.3d
303, 320 (5th Cir. 2017) (stating that a three-month period
of time between notice and evaluation was reasonable).
While the delay in this case is longer than the three-month
period in Woody, CCISD justified their delay because of
(1) holding the dyslexia screening (A.R. at 1345-51), (2)
conducting the ARD Committee meeting accessing the
results of the screening (A.R. at 1196; A.R. at 721-25), (3)
conducting the dyslexia test (A.R. at 551-53), (4) convening
for summer break (A.R. at 925-26), and (5) conducting the
ARD meeting to access the results of the dyslexia test
(A.R. at 727-756).
In contrast, Parents did not dispute any of the specific
justifications made by CCISD. The facts provided to the

23a
Appendix B
Court suggest reasonableness, with neither CCISD nor
Parents reacting with unreasonable delay. See Dallas
ISD, 865 F.3d at 320. While the reevaluation time from
start to finish may have prevented Student from receiving
meaningful benefits, CCISD justified their decisionmaking process without any objections. Id. Moreover,
CCISD was not idly standing by during this delay. On the
contrary, as described above, CCISD acted reasonably,
albeit not in the exact sequence Parents preferred. What
is considered to be a reasonable time must be evaluated
in context of surrounding circumstances. See Woody,
865 F.3d at 317-19. Here, the District, following the steps
outlined above, “offer[ed] an IEP reasonably calculated
to enable a child to make progress appropriate in light
of the child’s circumstances.” Endrew F., 137 S.Ct. at
999. Accordingly, the Court finds that CCISD complied
with the IDEA’s timeliness requirement because CCISD
justified the reevaluation process.
Finally, even though Parents contend that the dyslexia
evaluation constitutes a procedural violation, they failed
to show the deficiency of this evaluation. Parents point
to statements made in the Independent Educational
Evaluation (“IEE”) by Mr. Craig, recommending that
Student be found eligible for special education. However,
the record shows that CCISD was already providing
the specific recommendations from Mr. Craig, including
information checking, small-group instruction, checking
for understanding, repetition, and practicing. A.R. at
1932:1-1933:13; A.R. at 1939:4-16. Parents must show
the substantive harm that occurred from the alleged
procedural violation. Based on the record, CCISD

24a
Appendix B
already built in all the recommended accommodations
that Student needed to improve his performance. Without
further evidence, the Court cannot conclude that CCISD
deprived Student of an educational benefit, impeding his
right to a FAPE. Accordingly, Parents have not shown
by a preponderance of the evidence that CCISD impeded
Student’s right to a FAPE or that CCISD caused a
deprivation of educational benefits.
Because Parents have failed to show a procedural
violation of the IDEA, the Court need not discuss whether
the violation led to substantive harm. However, in an
abundance of caution, the Court will nevertheless address
the substantive appropriateness prong of the IDEA.
B. Substantive Violations
For a school district “to meet its substantive obligation
under the IDEA [to a child], [the] school district must
offer [the child] and IEP [that is] reasonably calculated
to enable [the] child to make progress appropriate in light
of the child’s circumstances.” Endrew F. ex rel. Joseph F.
v. Douglas Cty. Sch. Dist. RE-1, 137 S.Ct. 988, 999, 197
L. Ed. 2d 335 (2017). To this end, the child’s IEP “must
be appropriately ambitious in light of his circumstance.”
Id. at 1000.
The Fifth Circuit identifies four factors to analyze and
determine whether a school district substantively denied
a student a FAPE:
(1) the program is individualized on the basis
of the student’s assessment and performance;

25a
Appendix B
(2) the program is administered in the least
restrictive environment; (3) the services are
provided in a coordinated and collaborative
manner by the key “stakeholders”; and (4)
positive academic and non-academic benefits
are demonstrated.
Cypress-Fairbanks Indep. Sch. Dist. v. Michael F., 118
F.3d 245, 253 (5th Cir. 1997) The Fifth Circuit has not
specified how a district court must weigh the Michael
F. factors. Richardson Indep. Sch. Dist. v. Michael Z.,
580 F.3d 286, 293 (5th Cir. 2009). Instead, the factors are
general indicators of the IEP’s appropriateness intended
to guide a district court in the inquiry of whether an IEP
provided an educational benefit. Id. at 294.
1.

S t u d e n t ’s I E P w a s s u f f i c i e n t l y
ind iv idua lized on the ba sis of his
assessment and performance.

Under IDEA, the IEP is the “means by which special
education and related services are tailored to the unique
needs of a particular child.” Endrew F., 137 S. Ct. at
994. The IEP should include a statement of the child’s
“present levels of academic achievement and functional
performance (“PLAAFP”). 20 U.S.C. § 1414(d)(1)(A)(i).
The PLAAFP includes “how the child’s disability affects
the child’s involvement and progress in the general
education curriculum.” Id. The IEP should also include
“a statement of measurable annual goals, including
academic and functional goals,” along with a “description
of how the child’s progress toward meeting the annual

26a
Appendix B
goals . . . will be measured.” Id. The IEP must describe
the “special education and related services . . . that will
be provided so that the child may “advance appropriately
toward attaining the annual goals” and, when possible, “be
involved in and make progress in the general education
curriculum.” Id.
An IEP is sufficiently individualized when multiple
assessments are conducted of the student, the ARD
committee considers these assessments and parent
and teacher input in developing the student’s IEP,
accommodations and modifications are made based on the
student’s test performance and parent input, and the IEP
goals are revised or added to based on the new assessment
data. Z.C. v. Killeen Indep. Sch. Dist., No. W:14-CV-086,
2015 U.S. Dist. LEXIS 180348, 2015 WL 11123347, at *6
(W.D. Tex. Feb. 17, 2015).
Pa r ent s a rg ue t hat St udent ’s IEP w a s not
individualized while he was in second or third grade.
EFC No. 21, 22. In second grade, when CCISD received
evaluation results from the North Carolina school, Parents
contend that CCISD did not include those evaluations in
Student’s new IEP. Id. at 21. Specifically, CCISD did not
provide any targeted individual instruction or include
any baseline performance information. Id. As a result,
Student’s PLAAFP statements are generic and unclear,
and the IEP contains deficient goals. Id. In third grade,
after Student’s dyslexia assessment, Parents contend
that CCISD did not individualize the PLAAFP because
CCISD did not incorporate the word dyslexia within the
PLAAFP statement. Id. at 23. As a result, Student’s IEP

27a
Appendix B
goal for reading became more generic, less individualized,
and less ambitious than his second-grade plan. Id.
In their response, CCISD argues that Student’s
PLAAFP statements directly related to his individualized
goals in his IEP in both second and third grade. ECF No.
14. Specifically, Student’s PLAAFP statements related
to reading weaknesses in fluency and comprehension. Id.
Student made progress on these IEP goals as indicated on
his final report card for second grade. Id. at 14-15. In their
reply, Parents argue that Student’s second-grade reading
goals for the year were unrealistic and unattainable. When
CCISD adjusted Student’s IEP in third grade, Student’s
PLAAFP did not even mention that he had dyslexia.
The Cour t f inds that Parents failed to meet
their burden that Student’s IEP was not sufficiently
individualized. Moreover, the record shows that Student’s
IEP was sufficiently individualized. Student’s secondgrade PLA A FP statement includes a description
of how Student’s disability affected his involvement
and progress. A.R. at 657-83. The PLAAFP included
measurable annual goals with detailed descriptions of
how Student could obtain these goals. Id. Specifically,
Student’s goals included a reading goal that targeted
fluency and comprehension, and a writing goal that
addressed legibility, punctuation, and capitalization. A.R.
at 664-65. Student’s PLAAFP provided specific services,
including specialized instruction in reading for thirty
minutes per week. A.R. at 673. When Student’s dyslexia
assessment results came back, CCISD modified the IEP
goals, and they provided different services. A.R. at 728-

28a
Appendix B
36. Accordingly, the Court finds that Student’s IEP was
individualized and that the first Michael F. factor weighs
in favor of CCISD.
2.

Student’s IEP was administered in the
least restrictive environment.

Parents concede that this factor is not at issue in
this proceeding. ECF No. 35 at 26. The Court agrees.
Accordingly, the second factor weighs in favor of CCISD
3.

Student’s IEP was coordinated and
collaborative.

This factor is satisfied when a variety of individuals,
including persons with personal relationships to the
student and school district employees, work together to
develop the student’s IEP. Michael F., 118 F.3d at 253. A
party challenging the implementation of an IEP must show
more than a de minimus failure to implement all elements
of that IEP. Houston Indep. Sch. Dist. v. Bobby R., 200
F.3d 341, 349 (5th Cir. 2000). Instead, the challenging
party must demonstrate that the school board or other
authorities failed to implement substantial or significant
provisions of the IEP. Id. With this approach, the school
districts are afforded some flexibility in implementing
IEPs, but they are still held accountable for material
failures. Id.
Parents argue that Student’s IEP was not coordinated
or collaborative while Student was in second and third
grade because the staff members did not communicate

29a
Appendix B
educational programing, the parents could not collaborate
during the ARD process, and the parents could not
participate in the development of Student’s educational
plan. ECF No. 35 at 24-26.
In the District’s response, CCISD argues that the
evidence indicates extensive participation between CCISD
and Parents. ECF No. 37 at 16. Additionally, CCISD
contends that the record shows that CCISD included
Parents in multiple meetings with CCISD to discuss
Student’s programming. Id. at 17. In their reply, Parents
point out that a complete lack of communication existed
between the members of the CCISD staff who were
implementing Student’s IEP. ECF No. 39 at 9.
The Court finds that CCISD provided educational
services in a coordinated and collaborative manner. The
record shows that CCISD worked with Parents to ensure
a smooth transition from North Carolina to CCISD. A.R.
at 2256:1-11. Parents actively participated in every ARD
Committee meeting and indicated agreement at the
end of each one. A.R. at 678-680; 698; 707; 709-711; 723;
752-753. Student’s educational plan included substantial
participation by various professionals. A.R. at 648-756.
CCISD provided progress reports that allowed teachers
and Parents to monitor progress. A.R. at 793-859. Parents
did not show the Court how CCISD failed to implement
substantial or significant provisions of the IEP due to
various communication errors by CCISD staff. The Court
is persuaded that sufficient coordination and collaboration
took place in implementing Student’s educational services.
Accordingly, the Court finds that the third factor weighs
in favor of CCISD.

30a
Appendix B
4.

Student’s I EP demonst r at e d some
educational and academic benefit.

Although no factor is dispositive, this fourth factor
“is ‘one of the most critical factors in [the Michael F.]
analysis.’” R.P. ex rel. R.P. v. Alamo Heights Indep. Sch.
Dist., 703 F.3d 801, 814 (5th Cir. 2012) (citing Houston
Indep. Sch. Dist. V. V.P. ex rel Juan P., 582 F.3d 576,
588 (5th Cir. 2009)). Courts determine whether academic
and non-academic benefits resulted from a student’s IEP
by looking to the progress or regress of the individual
student, rather than by comparison to the academic
progress achieved by the student’s peers. Bobby R., 200
F.3d at 349.
The Bobby R. court found that academic benefits were
shown where the student’s test scores improved and the
student progressed grade levels each year. Id. at 349-50.
Notably, the court found that the fourth factor was met
where only an educational benefit had been demonstrated.
Similarly, courts have found that the fourth factor is met
where only nonacademic benefits are demonstrated. A.B.
v. Clear Creek Indep. Sch. Dist., No. 4:17-CV-2382, 2018
U.S. Dist. LEXIS 168572, 2018 WL 4680564, at *5 (S.D.
Tex. Sept. 28, 2018), aff’d, 787 F.App’x 217 (5th Cir. 2019).
Parents argue that Student did not make meaningful
progress in reading in either second grade or third grade.
ECF No. at 11-13. Specifically, Parents point to Student’s
test scores through both the F&P assessment and iReady.
Id. at 10. In F&P, Student began second grade at level
F, which is equivalent to an early first-grade level. Id.

31a
Appendix B
Halfway through third grade, Student scored at a Level H,
which is equivalent to “meeting expectations” for a student
in first grade at mid-year. Id. at 13. Parents contend that
this lack of progress indicates that Student showed de
minimus academic benefit. Id.
In its response, CCISD contends that Parents are
looking at the results of the academic progress from a
narrow scope. ECF No. 37 at 19-21. Specifically, CCISD
admits that Student had significant reading deficiencies,
but Student received academic and non-academic benefits
from his specialized instruction. Id. at 19. The reading
scores showed objective progress, and Student also
showed improvement in his math and writing skills.
Id. at 20. Overall, Student made appropriate academic,
behavioral, and social progress in light of his unique
circumstances. Id. at 21.
In their reply, Parents focus on the lack of meaningful
progress in Student’s reading scores. ECF No. 39 at 10.
Parents point to the testimony of a dyslexia expert who
testified that she would have expected more progress than
what CCISD documented. Id.
The Court finds that Student demonstrated positive
academic and non-academic benefits. While Student’s
progress in reading was slower than expected, Student
did make objective improvements and showed progress
in other areas of school. A.R. at 660, 731; A.R. at
2290:17-20; A.R. at 2262:15-24; A.R. at 2279:6-14; A.R. at
2264:15-2268:8. When looking at the results as a whole,
Student demonstrated objective progress in all areas.

32a
Appendix B
Accordingly, the Court finds that Parents failed to show,
by a preponderance of the evidence, that CCISD denied
a FAPE due to a lack of progress in academic and nonacademic areas. Accordingly, the Court finds that the
fourth factor weighs in favor of CCISD.
For these reasons, the Court finds that CCISD
complied with the substantive requirements of the IDEA.
IV. CONCLUSION
Because of the foregoing reasons, the Court finds that
CCISD complied with the procedural and substantive
requirements of the IDEA. Accordingly, the Court
GRANTS Defendant’s Motion for Judgment of the
Administrative Record and DENIES Plaintiffs’ Motion
for Judgment on the Administrative Record. Pursuant to
Federal Rule of Civil Procedure 58, the Court will issue
its Final Judgment in a separate Order.
SIGNED this 14th day of April 2020.
/s/ Alan D Albright		
ALAN D ALBRIGHT
UNITED STATES
DISTRICT JUDGE

33a
Appendixbefore
C
Appendix c — decision
a special
education hearing officer for the
state of texas, filed march 7, 2019
BEFORE A SPECIAL EDUCATION HEARING
OFFICER FOR THE STATE OF TEXAS
TEA Docket No. 019-SE-0918
T.P., b/n/f AP & CP
v.
COPPERAS COVE INDEPENDENT
SCHOOL DISTRICT
DECISION OF HEARING OFFICER
Petitioner Student, b/n/f Parents (Student) filed a
complaint requesting an impartial due process hearing
pursuant to the Individuals with Disabilities Education
Improvement Act (“IDEA”) 20 U.S.C. §§ 1401-1482 (IDEA)
and its implementing state and federal regulations. The
complaint was received by the Texas Education Agency
on September 20, 2018.
Respondent, Copperas Cove Independent School District,
(District) made a general appearance and disputes the
facts upon which Student’s allegations are based. In
addition, the School District requested the dismissal of 1)
claims arising outside the one-year statute of limitations
rule as applied in Texas; and 2) dismissal of all claims
arising under laws other than the IDEA.

34a
Appendix C
LEGAL REPRESENTATIVES
Student was represented by Elizabeth Angelone and
Meera Krishnan of the Cuddy Law Firm. School District
was represented by Kelly Janes and Jamie Turner of
Walsh Gallegos Treviño Russo & Kyle, P.C.
CASE SUMMARY
The main issue in this case is whether the school district
fails to provide Student with a Free Appropriate Public
Education (FAPE). Specifically, whether the school
district fails to provide and implement an appropriate
Individual Education Plan (IEP) in the least restrictive
environment (LRE).
The hearing officer concludes the school district provided
Student with FAPE and implemented an appropriate
IEP during the 2017-2018 and 2018-2019 school years.
The hearing officer also concludes that School District’s
proposed placement for 2018-2019 is appropriate and in
the least restrictive environment. Each IEP was approved
or recommended by the Admission, Review, and Dismissal
(ARD) Committee during meetings attended by Parent.
The hearing officer finds that the school district’s
evaluations are appropriate, and therefore, Petitioner
is not entitled to the cost of an Individual Educational
Evaluation (IEE) at school district expense.
The hearing officer orders additional evaluations for
consideration by the ARD Committee and the revision of

35a
Appendix C
the IEP as may be determined appropriate in accordance
with the evaluations.
PRELIMINARY MOTIONS
SUFFICIENCY OF COMPLAINT
The Complaint asserts claims arising under the IDEA
and its implementing federal and state regulations. There
being no objection, Petitioner’s complaint was found
sufficient to meet the requirements of the IDEA.
CONTINUANCES AND EXTENSIONS OF DECISION
DUE DATE
Both parties waived their right under 19 TA.C. §89.1185(1),
to obtain a final decision within 45 days after the date
Petitioner’s Request for a Due Process Hearing was
originally filed. Several motions for continuance and
extension of deadlines were filed. After consideration
of the factors specified in Texas Administrative Code
§89.1186, each motion was granted for good cause.
PRELIMINARY ORDERS
The first scheduling order was issued on September
21, 2018. The second scheduling order was issued on
November 5, 2018. A Third Scheduling Order was issued
on January 25 , 2019.

36a
Appendix C
JURISDICTION
Petitioner alleges violations of the Individuals with
Disabilities Education Act (IDEA) (20 U.S.C. Section
1400 et seq.), the Texas Commissioner’s and State Board
of Education Rules, and the Rehabilitation Act of 1973
(Section 504), 29 U.S.C. §701 et seq. Petitioner also alleges
a failure to provide comparable services pursuant to
the Interstate Compact on Educational Opportunity for
Military Children. See the Tex. Educ. Code Chapter 162.
The jurisdiction of a special education hearing officer
in Texas is strictly limited to claims arising under the
Individuals with Disabilities Education Act (“IDEA”), 20
U.S.C. § 1400 et seq. Specifically, a hearing officer has the
authority to determine claims related to the identification,
evaluation, or educational placement of a student with a
disability or the provision of a FAPE to the student. 34
C.F.R. §§ 300.507; 300.511; 19 Tex. Admin. Code §§ 89.1151
(a), 89.1170.
The hearing officer has no jurisdiction to resolve claims
or make an award under any law other than the IDEA.
To the extent either party seeks affirmative relief arising
under any law other than the Individuals with Disabilities
Education Act (IDEA) 20 U.S.C. §1400 et seq. (2004),
such claims are beyond the scope of jurisdiction for
these proceedings, and they are DISMISSED for want
of jurisdiction.
Requests for an award of attorneys’ fees and litigation
costs, including expert witness costs, are outside the

37a
Appendix C
jurisdiction of a special education hearing officer in Texas.
34 C.F.R. §§ 300.516, 300.517; 19 Tex. Admin. Code §
89.1185 (n).
STATUTE OF LIMITATIONS
Under the IDEA, a parent or agency must request an
impartial due process hearing within two years of the date
the parent knew or should have known about the alleged
action that forms the basis of the complaint. 20 USC
§1415(f); 34 CFR §§300.507(a)(2); 300.511(e). However, if
the state has its own time limitation for filing a request
for hearing, then the state rule applies. In Texas, the time
limitation is one year. 19 Tex. Admin. Code §89.1151(c).
Petitioner filed this action on September 20, 2018. Under
Texas law, the statute of limitations would bar any claims
arising prior to September 20, 2017 to be heard by this
hearing officer.
DUE PROCESS HEARING
The matter came on for Due Process Hearing in the offices
of the School District on December 12, 2018 through
December 14, 2018. A record was duly made by Michael
Naegele, TX CSR CSR 1210, a Texas certified court
reporter. A copy of the transcript was delivered to the
parties and this hearing officer. Both parties submitted
briefs in a timely manner, and this Decision is timely
issued by the ordered deadline of February 5, 2019.

38a
Appendix C
ISSUES FOR DECISION
PETITIONER’S REQUESTED FINDINGS
1.

A finding that CCISD procedurally and substantively
violated the IDEA and denied Student a free
appropriate public education during the relevant time
period.

2.

A finding that CCISD procedurally and substantively
violated the IDEA by failing to evaluate Student in
all areas of suspected disability and need, including
a failure to evaluate Student for a Specific Learning
Disability (SLD) and an auditory processing disorder
under the IDEA

3.

A finding that CCISD procedurally violated the
IDEA by failing to grant Parent’s request for an
Independent Educational Evaluation (IEE) of Student
in all areas of suspected disability and need.

4.

A finding that Student is eligible for special education
and related services as a Student with a Specific
Learning Disability in Basic Reading, Reading
Fluency, Reading Comprehension, and Written
Expression.

5.

A finding that CCISD procedurally and substantively
violated the IDEA by failing to provide Student
with comparable services in speech therapy and
phonics/reading comprehension intervention between
September 26, 2017 and October 20, 2017.

39a
Appendix C
PETITIONER’S REQUESTED RELIEF
1.

Order CCISD to fund independent Occupational
T herapy, A ssist ive Technolog y, a nd Speech
Evaluations of Student by an evaluator of the Parent’s
choosing so as to obtain recommendations relating
to Student’s programming and services to address
Student’s handwriting deficiencies.

2.

Order CCISD to fund an independent evaluation of
Student for an Auditory Processing Disorder by an
evaluator of the Parent’s choosing so as to obtain
recommendations relating to Student’s programming
and services, as recommended by Mr. Jason Craig,
the IEE provider.

3.

Order that upon receipt of the above evaluations,
CCISD will convene an ARD meeting and develop a
new IEP for Student which:
a.

Incorporates and explicitly lists any compensatory
services awarded by the Hearing Officer in this
proceeding;

b.

Accurately ref lects the Student’s present
levels of academic achievement and functional
performance;

c.

Includes appropriate goals and short-term
objectives that address the Student’s academic
and behavior needs;

40a
Appendix C
d.

Includes appropr iate related ser v ices as
recommended by the evaluators referenced
above, including:
i.

At least one hour per week of speech
therapy;

ii.

One hour per day of academic language
therapy, provided by a certified academic
language therapist, licensed dyslexia
therapist, or licensed dyslexia practitioner,
licensed under Chapter 403 of the Texas
Occupations Code; and

iii. Direct occupational therapy to address
Student’s handwriting deficiencies;
e.

Identifies appropriate teaching methodologies
that will be employed to address the Student’s
academic needs;

f.

Identifies appropriate behavior methodologies
and includes a plan to implement the behavior
methodologies;

g.

Includes parent training so that the Parents have
the skills to support the implementation of the
IEP; and

h.

Provides services in Student’s appropriate least
restrictive environment.

41a
Appendix C
4.

5.

Order CCISD to provide compensatory educational
services to Student including but not limited to:
a.

13 hours of compensatory speech services by a
qualified provider of the parent’s choosing;

b.

520 hours of compensatory academic language
therapy ser vices by a Certified Academic
Language Therapist, licensed dyslexia therapist,
or licensed dyslexia practitioner, licensed under
Chapter 403 of the Texas Occupations Code of the
parent’s choosing, provided over two (2) years, as
recommended by Dr. Robillard;

c.

Handwriting support in the form of occupational
therapy and assistive technology by a qualified
provider of the parent’s choosing, in an amount
recommended by the independent evaluator; and

d.

Transportation or reimbursement of transportation
expenses to/from the compensatory services
provider, if the services are not provided on
campus.

Order CCISD to reimburse Parents in the amount
of $7,451.00 for summer academic tutoring services
provided by Sylvan Learning Center, and $770.40
for the transportation of Student to and from Sylvan
Learning Center during Summer 2018 (40 miles
round-trip, 3 days per week, for 12 weeks), calculated
at the Texas Comptroller rate of $.535/mile.

42a
Appendix C
6.

Order CCISD to ensure staff members who work or
interact with Student are trained on FIE policies and
practices to ensure each child referred to the ARD
Committee is comprehensively evaluated in all areas
of suspected disability by a date certain determined
by the Hearing Officer.

7.

Order CCISD to ensure staff members who work
or interact with Student receive training relating
to the determination and provision of comparable
services under the IDEA and the Military Interstate
Children’s Compact by a date certain determined by
the Hearing Officer.

8.

Order CCISD to ensure staff members who work
or interact with Student receive training relating
to the interaction between dyslexia and the Specific
Learning Disability eligibility category in the IDEA,
the importance of using research-based interventions
for students with a specific learning disability, and the
provision of dyslexia interventions to students also
receiving special education services by a date certain
determined by the Hearing Officer.

9.

Any other relief the Hearing Officer determines is
appropriate in the interest of justice or fairness.

BURDEN OF PROOF
There is no distinction between the burden of proof in
an administrative hearing or in a judicial proceeding.
Richardson Ind. Sch. Dist. v. Michael Z., 580 F. 3d 286,

43a
Appendix C
292 n. 4 (5th Cir. 2009). The burden of proof in a due
process hearing is on the party challenging the proposed
IEP and placement. Schaffer v. Weast, 546 U.S. 49, 62
(2005); Teague Ind. Sch. Dist. v. Todd L., 999 F.2d 127,
131 (5th Cir. 1993).
TESTIMONY AND EXHIBITS
The Hearing Officer makes the following findings:
EARLY CHILDHOOD
1.

Student began receiving special education services
through an early childhood intervention program
when Student was 1.5 years old. T. 563.

2.

Student was diagnosed with autism at the age of
3. T. 562. At the time of his diagnosis, Student was
nonverbal and had frequent tantrums and behavioral
issues. T. 562; 1048.

3.

Following his Autism diagnosis, Parent enrolled
Student in 40 hours per week of private Applied
Behavior Analysis (ABA) Therapy. T. 562. Parent
reported that following Student’s enrollment in ABA
Therapy, it took the therapists “about six months to
get him to start talking.” T. 1058.

4.

At the beginning of the 2015-2016 school year, Student
transferred to the Wake County Public School System
(WCPSS) in Raleigh, N.C. and began Kindergarten.
J.Ex. 3 at 1

44a
Appendix C
5.

Student’s IEP provided services to Student under the
eligibility categories of Significant Developmental
Delay and Speech-Language Disorder. J.Ex. 3 at 1.

6.

Student continued to receive private ABA therapy
while enrolled in WCPSS. Student received between
10 to 12 hours per week of therapy while school was
in session, and 40 hours per week when school was on
break. T. 562.

7.

During the second semester of Kindergarten, Student
began receiving 1:1 tutoring with his classroom
teacher twice a week before school to address his
literacy skills. J.Ex. 3 at 2.

8.

Student was able to meet WCPSS’ “end of year
k inderga r ten Text Reading Comprehension”
benchmark. J.Ex. 3 at 2.

FIRST GRADE (NORTH CAROLINA)
9.

At the beginning of first grade, in September 2016,
Parent expressed concern about Student’s lack
of progress during Student’s annual IEP team
meeting. Student’s IEP Team requested additional
assessments to determine Student’s need for specially
designed instruction. J.Ex. 3 at 1.

10. In October 2016 WCPSS created an intervention
plan to address weakness in reading comprehension.
Student received 15 minutes per week of small group
instruction in reading comprehension skills and small-

45a
Appendix C
group reading intervention with a reading specialist
three times per week. J.Ex. 3 at 2.
11. Student’s writing was inconsistently legible, and
he struggled to retell a story in written form using
multiple sentences. J.Ex. 3 at 5.
12. WCPSS staff also noted Student had difficulty with
vowel sounds, wrote letters and words out of order,
and became nervous about writing if not helped by
his teacher right away. J.Ex. 3 at 5.
13. In-class assessment data showed Student struggled
with decoding. Student interchanged vowel sounds
and had difficulty reading words in isolation. Staff
concluded Student required specially designed
instruction to address his decoding deficits. J.Ex. 12
at 5
14. Parent expressed concern about Student’s reading
abilities and the IEP Team noted Student was making
slow progress and was not “closing the gap.” J.Ex. 12
at 12.
15. WCPSS also conducted the Behavior Assessment
System for Children, Third Edition (BASC-3),
a standardized behavioral checklist to measure
Student’s problem behaviors and positive adaptive
behaviors. J.Ex. 3 at 6-8.
16. Student’s November 2016 BASC-3 overall behavior
assessment scores fell in the clinically significant

46a
Appendix C
range, meaning Student has a tendency to become
irritable quickly, has poor social skills and difficulty
communicating, and has trouble concentrating
and follow ing directions. Student had trouble
concentrating and following directions and difficulty
maintaining necessary levels of attention at school.
J.Ex. 3 at 7.
17. These assessments indicated a disability was
adversely affecting his educational performance and
suggested he may benefit from specialized instruction.
The evaluator recommended Student’s IEP Team
consider providing Student with special education
services under the eligibility category of Other Health
Impairment (OHI). J.Ex. 3 at 9.
18. Based on observation and teacher reports, it was
noted that Student was not making progress in the
areas of reading and writing, partly because “he gets
fixated on the spelling of words and this impedes his
ability to express himself through writing. At times,
he refuses to write and will get frustrated and cry.”
J.Ex. 3 at 3.
19. At the end of first grade, WCPSS determined Student
required Tier II interventions to address his lack of
progress in phonics/word recognition and reading
comprehension. P.Ex. 5 at 1-2.
20. To address Student’s lack of progress in phonics/word
recognition, WCPSS began providing Student with
30 minutes per week of interventions on CVC words.
P.Ex. 5 at 1.

47a
Appendix C
21. To address Student’s lack of progress in reading
comprehension, WCPSS provided Student with 40
minutes per week of intervention in a small group of
five students. P.Ex. 5 at 2.
SECOND GRADE (NORTH CAROLINA)
22. On July 13, 2017, at the beginning of second grade,
the IEP Team at WCPSS changed Student’s primary
eligibility category to Other Health Impairment
based on his diagnosis of ADHD as Student “has
continued to struggle with reading and has made slow
progress.” The IEP included the secondary eligibility
category of Speech Impairment. J.Ex. 12 at 12.
23. Student’s July 13, 2017 IEP provided the following
accommodations:
a.

Math: Preferential seating, all items read aloud;

b.

Read i ng: P referent ia l seat i ng, mod i f ied
assignments, spelling tests split into two parts;

c.

Social Studies, Writing, Science: Preferential
Seating. J.Ex. 12 at 6.

24. Student’s July 13, 2017 IEP also provided Student
with the following related services:
a.

Resource Reading: 5 sessions/week, 15 minutes
per session because Student needed support with
decoding;

48a
Appendix C
b.

Resource Writing: 5 sessions/week, 30 minutes
per session because Student needed to continue
working on writing multiple sentences;

c.

Speech Therapy: 12 sessions/grading period, 30
minutes per session. J.Ex. 12 at 6.

ENROLLMENT IN COPPERAS COVE ISD (SECOND
GRADE)
25. On September 27, 2017, Student began attending
second grade in Copperas Cove ISD, after Student’s
family moved to Texas due to a military transfer.
26. On September 28, 2017, Student’s special education
case manager, provided Student’s teachers with the
July 13, 2017 IEP from Wake County Public Schools.
All teachers signed that they received the IEP on
either September 28, 2017 or October 2, 2017. J.Ex.
31.
27. Student’s second grade reading teacher “sat down”
with Student’s case manager to discuss Student’s
accommodations and “where he was at.” She “took
the accommodations and things that were already in
place from that and continued on with those.” Student
was given additional accommodations at first, though
she did not specify which. T. 472.
28. Student’s special education case manager did not meet
with Student’s teachers to review the IEP because
the teachers could read the IEP and understand the
IEP in the same way that she could. T. 786.

49a
Appendix C
29. CCISD provided comparable services to his North
Carolina IEP from the day after his transfer, and “we
ended up providing him with more accommodations
than what he came with, because he didn’t seem to be
as far along as the IEP [from North Carolina] made
us believe.” (Tr. 649:21-23).
30. These services included co-teach and resource
instruction in the amounts specified in his North
Carolina IEP. (Tr. 650:16-18).
31. Student also received the same amount of speech
services as in his North Carolina IEP. The ARD
on October 20, 2017, reduced his speech services
slightly to allow his speech therapist to monitor his
generalization of skills. (Tr. 875:2-10).
32. Petitioner believes that Student should have received
Response to Intervention (“RtI”) services in addition
to his special education services because he received
such services in North Carolina. (Tr. 438; Tr. 441).
33. CCISD did not provide Student w ith Tier II
interventions in phonics and reading comprehension
services described in the IEP from WCPSS. T. 438;
487; 732-733; P.Ex. 5.
34. As Student’s resource teacher stated about RtI
supports, “we are more intense in special education
than they are in RTI and we’re more individualized
to his needs and goals and his weaknesses than they
are in RTI. What he’s receiving in special education

50a
Appendix C
is better than what he would be receiving in RtI.” (Tr.
704:25 – Tr. 705: 1-4).
35. In addition to the services outlined in the IEP, Student
received dyslexia services, a general education Tier 3
program, beginning in the 2017-2018 school year. (Tr.
46-47).
36. Student receives instruction in the Wilson Program
called Fundations to assist with phonics. Student works
on flash cards, participated in embedded reading,
whole-group reading, and reading comprehension
questions. (Tr. 462:9-21).
37. On October 4, 2017, Parent filled out a CCISD Parent
Information Form. J.Ex. 30. Indicating Student’s
underperformance in English and reading was
affecting his performance in all subjects. J.Ex. 30 at
7.
38. CCISD uses the Fountas & Pinnell Reading System
to assess the progress of all students in reading. T.
420.
39. On October 10, 2017, Student’s reading skills were
assessed using the Fountas & Pinnell Reading
System. J.Ex. 9 at 1, 10. Student scored on a Level F,
with 96 percent accuracy, excellent comprehension,
and a fluency level of 1. J.Ex. 9 at 1, 10. A Fountas
and Pinnell Level F is considered an early first grade
level. R.Ex. 6 at 1.

51a
Appendix C
40. On October 18, 2017, Student’s reading teacher
assessed Student using the iReady system. Student
scored a 396 overall, placing him on the Kindergarten
level in reading. J.Ex. 10 at 2.
41. Student’s gradebook reflects, that if Student scored
below a 65 on an assignment, a 65 would be entered
in the gradebook while Student’s actual grade on the
assignment would be recorded as a comment in the
Skyward grade book system. T. 433-434; see, e.g.
J.Ex. 26 at 2, 5, 15, 17, 18.
42. “Case Manager Accountability Tracking” sheets
were completed for Student for each six-week
grading period. J.Ex. 37. The tracking sheets require
a student’s case manager to check the student’s
grades, whether accommodations were provided and
tracked in the system, and “whether the student was
being successful or not.” The tracking sheets are not
provided to the student’s parents. T. 625.
43. When determining whether Student was passing his
classes for the purposes of the tracking sheets, the
recorded grade in the gradebook not Student’s actual
grades were used. T. 627-628.
44. Parents were expected to track Student’s progress
towards his IEP goals, using the combination of IEP
grades and the assignments being sent home to “keep
the parents informed.” T. 746.

52a
Appendix C
O C T OBER 2 0 , 2 017 R E V I E W OF E X I ST I NG
EVALUATION DATA (REED)
45. A Review of Existing Evaluation Data (REED) meeting
was held October 20, 2017. J.Ex. 13. The “Transfer
REED Part 1” incorporated the assessment results
from the Wake County Psychological Evaluation. It
also incorporates the information from the Parent
Information Form submitted by Parent on October
4, 2017, including Parent’s comments regarding
Student’s underperformance in English and reading.
J.Ex. 13 at 6.
46. As part of the October 20, 2017 REED, CCISD’s
speech-language pathologist completed a “Full and
Individual Evaluation Disability Report” for the
eligibility category of Speech Impairment. J.Ex. 13
at 8-9.
47. The FIE Disability Report indicates Student has a
communication disorder in the areas of Expressive
Language and Articulation. The form indicates the
evaluation information from Wake County Public
Schools was used in making her determination. J.Ex.
13 at 8-9.
48. CCISD did not conduct additional formal assessments
of Student since he had “just been tested two years
prior, and so that evaluation was still current for
another year.” T. 873.

53a
Appendix C
49. Student “did just meet the eligibility criteria for
Texas,” based on his scores from the WCPSS
evaluation. T. 873. He is considered “borderline”
because “half of his scores would meet the criteria
for Texas eligibility, and the other half were above
that cutoff criteria.” T. 874.
OCTOBER 20, 2017 ARDC MEETING
50. At the October 20, 2017 REED, the only additional
evaluation requested by the ARDC was an updated
Other Health Impairment form. J.Ex. 13 at 4.
51. CCISD also convened a “Transfer” ARDC meeting
for Student on October 20, 2017. J.Ex. 14. CCISD’s
Reading PLAAFP reported Student was failing
Reading with a grade of 67, even with his “ARDed
accommodations.” J.Ex. 14 at 2.
52. The Reading PLAAFP included in the October 20,
2017, IEP states three general strengths and 3 general
weaknesses but included no objective data regarding
Student’s reading comprehension or decoding skills.
The Reading PLAAFP does not incorporate any
information from Student’s July 13, 2017 IEP from
North Carolina. J.Ex. 14 at 2.
53. The October 20, 2017 Reading PLA AFP states
Student is “currently performing on Kindergarten
level.” J.Ex. 14 at 2. The PLAAFP provides iReady
data for Student demonstrating Student was on a
Kindergarten level in all assessed skills except for
an informational test of comprehension. J.Ex. 14 at 3.

54a
Appendix C
54. The October 20, 2017 IEP lists Student’s reading
goal as: “In 36 instructional weeks, provided his
accommodations, Student will read grade level text
with fluency and comprehension, including 180/200
high frequency sight words and CVC words with short
vowels, with 80% accuracy.” J.Ex. 14 at 8.
55. Student’s case manager who wrote the PLAAFPs
and goals was unable to demonstrate where Student’s
reading PLAAFP contained a baseline for the various
components of Student’s reading goal such as where
Student’s baseline for high frequency sight words was
located. T. 725-728.
56. The October 20, 2017 Written Expression PLAAFP
states Student had a grade average of 70, with
accommodations. J.Ex. 14 at 3.
57. The PLAAFP lists Student’s strengths as:
a.

Writing compete sentences, provided in a small
group setting 8 out of 10 times.

b.

Using correct punctuation, provided in a small
group setting, 7 out of 10 times

c.

Capitalization of proper nouns, provided in a
small group setting, 8 out of 10 times.

58. The PLAAFP lists Student’s weaknesses in Written
Expression as:

55a
Appendix C
a.

Writing sentences correctly and independently,
8 out of 10 times

b.

Spacing of letters appropriately, 7 out of 10 times

c.

Using capitalization independently, 8 out of 10
times.

J.Ex. 14 at 3.
59. The October 20, 2017 IEP lists Student’s language
arts goal as: “In 36 instructional weeks, provided
his accommodations and text on his instructional
level, Student will write legibly and use appropriate
punctuation conventions, proper capitalization, and
word endings (such as tenses, plurals vs singular) in
his compositions 80% of the time.” J.Ex. 14 at 9.
60. The October 20, 2017 IEP contains a section for
“Assessment Results/Considerations.” The only
assessments listed are “BOY iReady Results” for
Math and Reading. Id. Student was recorded as being
between a Kindergarten – 1st grade level in Math,
and a Kindergarten level in Reading. J.Ex. 14 at 6.
61. The October 20, 2017 IEP provides Student with 5
sessions of speech therapy per 6-week grading period,
30 minutes per session. J.Ex. 14 at 18. The campus
speech pathologist noted significant progress in his
skills prior to transferring to CCISD. (Tr. 873-874).
Student’s services were reduced slightly at ARD. (Tr.
874-875). Student continues to receive speech therapy

56a
Appendix C
services in the amount of 30 minutes, 4x per six week
grading period. (J19:21).
62. The “LRE Service Alternatives” section of the
October 20, 2017 IEP states the ARDC is providing
Student with “General education classroom core
instructional inter ventions (Tier 1)” and that
the ARDC “considered” providing Student with
both “Targeted group interventions (Tier II) and
“Intensive, individual interventions other than special
education (Tier III).” J.Ex. 14 at 14.
63. Student’s reading teacher testified Student did not
receive tiered intervention services because “he was
already receiving special ed services.” T. 441.
64. Student’s case manager also testified Student was
“out of the RTI process” because he receives special
education services. T. 733.
65. Student is currently, during the 2018-2019 school year,
receiving both special education services and Tier 3
intervention services. T. 733.
66. The ARDC deliberations conclude that “[Student’s]
weaknesses indicate a need for specially designed
instruction in the areas of reading comprehension
and language arts, as well as math.” J.Ex. 14 at 22.
67. The October 20, 2017 ARD deliberations do not
contain any discussion regarding the services and
supports Student was receiving under his IEP in

57a
Appendix C
North Carolina, including the tiered interventions
to address his decoding and reading comprehension
weaknesses.
68. CCISD has worked collaboratively with Petitioner’s
parents both in and out of ARD. (Tr. 765-766).
Student’s case manager called the parent within the
first week or two of his transfer to touch base with the
parent and introduce herself. (Tr. 649-650). Staff has
also communicated with the parent outside of ARD
via email and telephone conversations. (Tr. 780:18-24).
At ARD meetings, the parent participated actively
in each meeting. Parent input was considered, and
revisions to the IEP were made with consideration
of that input. (Tr. 765:1-20).
69. CCISD provided progress reports at all required
intervals as outlined in the Student’s IEP. CCISD
uses an innovative method of progress reporting
to permit parents to see a student’s progress in
the general education curriculum in comparison
to their IEP goal progress. The parents receive a
“cover” page that includes the student’s grades in all
areas, including grades in IEP progress. (See, e.g.,
J26:1). The subsequent pages of the report indicate
each general education assignment that was used to
monitor progress in general education, and then each
grade that was used to monitor progress on an IEP
goal/objective. (See, e.g., J26:2-13). Additionally, these
pages indicate the accommodations that were used by
the student on each assignment. (Tr. 994:17-21).

58a
Appendix C
70. Prior Written Notice was provided at the end of each
ARD meeting held for Student. (J14:25 [October
20, 2017 PWN]; J15:1-2 [October 20, 2017 IEP
Amendment PWN]; J17:5 [January 30, 2018 PWN];
J18:4-5 [April 6, 2018 PWN]; J19:28-29 [September
17, 2018 PWN]).
71. The Prior Written Notice (PWN) provided to Parent
at the conclusion of the October 20, 2017 ARDC
meeting does not contain any information regarding
CCISD’s reduction in speech services from 12 sessions
per grading period to 5 sessions per grading period.
J. Ex. 14 at 25.
72. The Prior Written Notice (PWN) provided to Parent
at the conclusion of the October 20, 2017 ARDC
meeting does not contain any information regarding
the ARDC’s consideration and rejection of providing
Tier II or Tier III interventions to Student for
decoding and reading comprehension. J.Ex. 14 at 25.
PRIVATE ABA THERAPY
73. Student began receiving private ABA therapy
services in November 2017. Student’s private ABA
provider testified regarding both the Vineland
Adaptive Behavior Scales and the ABA Therapy
Student receives from. T. 517.
74. The purpose of conducting the Vineland assessment
was to identify Student’s deficits and create therapy
goals for Student’s treatment plan. T. 522.

59a
Appendix C
75. The Vineland Adaptive Behavior Scales indicated
Student had deficits in adaptive behavior and
communication. P.Ex. 1 at 9; T. 523-524. Student had
significantly higher receptive and written language
scores than his expressive language score, indicating
Student is “able to understand what we’re saying,
what we’re asking of him, but he’s not necessarily able
to verbalize it or put it into writing when it comes to
expressively communicating.” P.Ex. 1 at 9; T. 524.
76. The Vineland results also indicate Student has
socialization deficits and deficits in fine motor skills.
P.Ex. 1 at 9. Fine motor skills are “things you do with
your fingers,” which includes handwriting. T. 525.
77. The Vineland results indicate Student should receive
20 hours of ABA therapy per week. T. 526. During
the school year, Student receives six hours per week
of ABA therapy. T. 526. During the summer, Student
receives an average of fourteen hours per week of
ABA therapy. T. 533.
78. Student’s ABA treatment plan includes strategies and
goals tailored to the “shut down behavior.” Student
has made progress and mastered some of the goals
created for him, and he has been given new treatment
goals. T. 531-2.
79. Parent testified that Student has “come a long way
with ABA” and that in an “ideal world” she would love
for ABA to be able to come into the school setting.”
(Tr. 1058-1059). The parent offered assurances that
her insurance would cover such visits. (Tr. 1059:14-18).

60a
Appendix C
80. Student’s ABA therapist is using the same strategies
as CCISD to support Student’s behaviors. Specifically,
his ABA therapist has been “working on asking for
help... using different tools to express his emotions
when he’s frustrated.” (Tr. 532:19-23).
81. Student’s resource teacher testified that “shut down”
behavior was not persistent and seemed to be reduced
as Student’s confidence grew in the classroom. (Tr.
696:1-6).
82. Student does have an existing medical diagnosis of
Autism, but Mr. Craig, an independent evaluator,
testified he would not recommend autism eligibility
for Student. Teachers testified that he interacts
appropriately with peers and during group work. (Tr.
491:3-5)
SECOND GRADE: JANUARY- MAY 2018
83. On January 8, 2018, CCISD re-assessed Student in
reading using iReady. J.Ex. 10 at 2.
84. On January 26, 2018, CCISD re-assessed Student’s
reading skills using Fountas & Pinnell. Student
scored on a Level G, with 91% accuracy, excellent
comprehension, and a fluency of 1. A “1” is the lowest
level of fluency in Fountas and Pinnell. . J.Ex. 9 at 1,
10.
85. For the middle of second grade year, a Level G is
considered “Does not meet expectations: Needs
intensive intervention.” R.Ex. 6 at 1.

61a
Appendix C
86. On January 30, 2018, Student’s ARDC convened to
hold a Revision ARDC Meeting. J.Ex. 17. The ARDC
reviewed Student’s present levels of performance
and noted “[Student] still struggles with his reading
fluency and often relies on his teachers reading to
him instead of trying to read passages himself first.”
J.Ex. 17 at 2.
87. Parent “expressed concerns regarding Dyslexia
testing.” In response to Parent’s concerns, the district
agreed to conduct a dyslexia screening and “share
findings with the parent.” J.Ex. 17 at 2.
88. Parent testified CCISD staff did not explain to her the
difference between a screening and an assessment.
T. 569. Parent believed CCISD would be conducting
a full evaluation for a reading disability. T. 569.
89. On February 15, 2018, CCISD Reading Interventionist
conducted the WIST Word Identification and Spelling
Test as a dyslexia “screener.” P.Ex. 2 at 1. The WIST
is a standardized, normed assessment. T. 71.
90. Student’s scores on the WIST were almost uniformly
in the “very poor” range. P.Ex. 2. Student’s results
were in the “less than one percentile,” meaning
Student scored so low on the assessment that his
results were not able to be measured. T. 77.
91. On April 6, 2018, a Revision ARDC meeting was
convened to discuss the WIST results, and it was
agreed to conduct “dyslexia testing.” J.Ex. 18 at 1.

62a
Appendix C
The reading interventionist attended the meeting and
recommended that Student “could benefit by targeted
instruction.” J.Ex. 18 at 2.
92. On April 6, 2018, CCISD provided Parent with
documents titled “Consent for Full and Individual
Evaluation” and “Notice of Full and Individual
Evaluation”. The latter document indicates “dyslexia
testing” will be given in the area of “Academic
Performance.” J.Ex. 7. Parent signed the consent
form on April 6, 2018. CCISD conducted the dyslexia
assessment on May 18, 2018. J.Ex. 8.
93. Student was evaluated using the following normreferenced, standardized assessments:
a.

Comprehensive Test of Phonological Processing—
2nd Edition (C-TOPP 2)

b.

Woodcock Reading Mastery Test – 3rd Edition
(WRMT-III)

c.

Gray Oral Reading Test –5th Edition (GORT-V)

d.

Test of Written Spelling –5th Edition (TWS-V).

94. Student scored in the “below average” range on the
CTOPP-II measuring Phonological Awareness and
Phonological Memory, and the subtests measuring
the “Characteristics of Dyslexia:” Decoding, Word
Recognition, Oral Reading Fluency, Accuracy, Rate,
and Spelling. J.Ex. 8 at 1-2.

63a
Appendix C
95. Student scored in the “below average” range for
Reading Comprehension, based on subtest scores
from the GORT-V and the WRMT-III, and Written
Expression. However, Student scored in the average
range for Cognitive/Academic Ability. J.Ex. 8 at 1.
96. Based on assessment results, Student should qualify
with dyslexia. J.Ex. 8 at 3.
97. CCISD did not communicate the results of Student’s
dyslexia testing to Parent during the 2017-2018 school
year or at any point during Summer 2018.
98. In May 2018, Student’s progress in reading was
assessed using iReady. Student’s final iReady
assessment score corresponded to a Kindergarten
level. J.Ex. 10 at 2.
99. Student’s End of Year iReady results in math
indicated Student remained on a first grade level in
all components of the assessment, with only small
gains from his comprehensive score in October 2017.
J.Ex. 10 at 1.
100. Student’s final Speech Therapy Progress Report for
the 2017-2018 school year was made. J.Ex. 24 at 5.
101. Petitioner’s IEP progress reports from the 2017-2018
school year indicate that he made progress on all IEP
goals, and Petitioner received passing grades in all
academic areas, including on his IEP goals. (J26).

64a
Appendix C
102. Student received services in both the general
education and special education setting during
the 2017-2018 school year. Student’s second grade
reading teacher indicated that she would not have
recommended Student being pulled out of her
classroom more frequently, because learning with
his peers is important and that in second grade
they provide a lot of whole group instruction with
“teachable moments” so students can learn from
each other. (Tr. 455-456).
SUMMER 2018
103. Parent inquired as to whether Student would be
eligible for summer school or Extended School Year.
T. 570. Parent was told Student did not qualify for
either because his grades were too high for summer
school and he had not shown the regression required
to qualify for Extended School Year. T. 570.
104. CCISD requires a student to fail two semesters
in a row to be eligible for summer school. T. 435.
Eligibility is based on report card grades. T. 435.
105. As CCISD would not provide summer services to
Student, Parent sought out academic tutoring for
Student on her own in order to prevent Student from
falling further behind. T. 1049.
106. Parent enrolled Student in academic reading classes
at Sylvan Learning Center on May 19, 2018. P.Ex.
11. Based on Student’s assessment results, Sylvan

65a
Appendix C
recommended a 12-week program for Student with
13 hours of instruction per week. P.Ex. 11.
107. The parent testified that that he “did okay with
Sylvan” but he still had shutdowns and refusal to
do work after attending Sylvan, and that he did not
make significant progress in his Fountas & Pinnell
reading assessment between EOY in Spring 2018
and BOY in Fall 2019. (Tr. 2050- 1051).
108. The cost of Student’s Sylvan summer program was
$7,451.00. Parent paid for the program. T. 596-597;
614.
109. Parent also provided Student with transportation to
and from Sylvan during Summer 2018. T. 583; 1049.
Parent testified her home was approximately 20
miles from the Sylvan center where Student received
tutoring. T. 583.
110. During Summer 2018, Student also received an
average of 14 hours per week of private ABA therapy.
T. 533.
111. On July 18, 2018, Parent requested an Independent
Educational Evaluation (IEE) of Student in “all
areas of suspected disability and need, including but
not limited to Autism, Specific Learning Disability,
Other Health Impairment, Occupational Therapy,
Assistive Technology, and other areas of suspected
disability.” P.Ex. 8 at 11.

66a
Appendix C
112. On August 1, 2018, the CCISD special education
director emailed Parent stating she had “reviewed
and summarized the timeline of data,” with a list of
the evaluations of Student that she had reviewed.
P.Ex. 8 at 6.
113. On August 13, 2018 Parent emailed the CCISD
special education director with her selection of two
evaluators: Mr. Jason Craig for the psychoeducational
IEE and Believe Pediatric Therapy Services for the
speech IEE. P.Ex. 8 at 2.
114. On September 5, 2018, Ms. Kirkpatrick informed
Parent that the contract w ith Mr. Craig had
been completed, but the contract with the speech
therapy provider was still in progress. The District
provided payment to Mr. Craig for the independent
psychoeducational evaluation. To date, CCISD has
not provided Parent with an independent speech
evaluation. P.Ex. 8 at 1.
THIRD GRADE (AUGUST 2018-PRESENT)
115. Student has made passing grades in all of his
general education classes, as well as on his IEP
goals. (J23; J26: J29). Petitioner accused District
staff of inflating Student’s grades by raising his
grades on assignments to a 65 when his true grade
was lower. However, this was the grading policy
for ALL students in second grade, to give students
the opportunity to recover from failing grades.
(Tr. 434:7-16; Tr. 459-460). The grading policy was

67a
Appendix C
therefore not a modification of Student’s grading in
the general education setting. (Tr. 991: 11-15).
116. Student’s third g rade teachers also follow a
similar policy for recording Student’s grades in the
gradebook. J.Ex. 26 at 42, 47. Student’s case manager
claimed she was “not aware of this happening.” T.
630, 632.
117. Petitioner made assertions that the grading policy in
math in third-grade was “raising” grades. The math
teacher testified that if a student had a failing grade,
Student would be retaught in small group and then
would be permitted to retake the test to receive a
maximum grade of a 70. (Tr. 632:14-19).
118. Permitting a student to re- do an assignment is
another way for the student to show mastery and to
pass the class and meet grade-level expectations.
(Tr. 996-997) and is permissible in accordance
with CCISD policies that permit any student to
be retaught and reassessed if they make a failing
grade. (Tr. 996:15- 16). This helps students master
grade-level concepts in the school environment and
find success. (Tr. 997:1-15).
119. Dr. Robillard testified that based upon the records
she reviewed, Student “has made some progress.”
(Tr. 829:8).
120. Observations from Student’s teachers at CCISD
indicate that Student’s writing skills have improved.
(Tr. 440:9-40).

68a
Appendix C
121. Student’s case manager also testified that when
Student first transferred, “it was very difficult to
get him to read willingly and independently” and
that his first F&P testing took a very long time.
(Tr. 656:21-24). She also emphasized that Student
is now showing “maturity, growth” and that he has
improved significantly in his willingness to write.
(Tr. 673:6-10).
122. Student’s resource teacher described the progress
Student has made through the example of a recent
research project, where Student researched an
animal on his own, put his ideas on a graphic
organizer, created a seven-sentence rough draft,
completed the revision/editing process, and is
creating a book to read aloud to the class. (Tr. 658661).
123. Student receives instructional services appropriate
to meet his educational needs and to create an IEP
reasonably calculated for Student to make progress.
Student received a number of multi-sensory supports
in the second grade general education classroom,
like use of magnetic letters, document readers and
dry-erase boards so students could see and hear
instruction at the same time. (Tr. 457-458).
124. When Student first transferred to CCISD, his ARD
committee included an accommodation to pre-teach
reading skills before reading out loud in front of the
class to build confidence and fluency. (Tr. 658:7-14).

69a
Appendix C
125. Student’s third grade classroom offers many
opportunities for movement, provided engagement
through read-aloud, and would create anchor charts
to provide students with visual support for new
concepts. (Tr. 703:5-25; 704:1-12).
126. Mr. Craig, an independent evaluator, indicated
that Student’s current IEP accommodations are
appropriate “as long as he understands them” (Tr.
350-357; Tr. 363-364), and that having Co-Teach and
resource services for ELAR and math is appropriate.
(Tr. 357-358).
127. Throughout Student’s enrollment in CCISD,
he received 45 minutes per day each of general
education ELAR and math, with co-teacher support.
(J19:20). Student also received 30 minutes per day of
resource ELAR and math (J19:20).
128. Student receives the recommended 3 blocks per
lesson and two lessons per week in the Wilson
program. (Tr. 53:14- 24).
129. Beginning with the 2018-2019 school year, Student
receives 45 minutes per day, 4 days per week of
dyslexia instruction in addition to resource and
inclusion services. (J19:20). Student also received
use of assistive technology daily as needed, and 30
minutes of speech four times per six weeks grading
period. (J19:21).

70a
Appendix C
130. Mr. Craig recommended giving Student only 15
minutes in the general education classroom per day,
and 60 minutes in each class period away from his
general education peers. (Tr. 359:5-11). Mr. Craig
was unable to articulate what services or supports
justified an increase in Student’s time away from his
peers. (Tr. 343:3-6; 344:19-24).
131. Student’s resource teacher testified she would not
increase resource time. He is making progress
in the current setting, and she is hopeful that she
can reduce the amount of time he needs for math
inclusion services by the end of the year. (Tr. 696:7-9).
132. After Student enrolled on September 28, 2017, he
took the F&P and received an instruction level of F.
(J.9:10). Four months later, Student progressed to a
F&P Level G. (J9:10). By the end of the year, Student
remained at a level G, but with higher accuracy and
fluency rates. (J9:10).
133. This indicates objective progress in Student’s
reading. Student’s research teacher testified that “I
wouldn’t expect with the deficits that he came with, to
see a growth over several reading levels. But there’s
growth.” (Tr. 664:12-13). Student also improved being
able to self-correct errors in reading over the course
of the school year. (Tr. 667:3-5).
134. Student also made progress in iReady in both
reading and math. When Student first took the
iReady assessment in reading during the 2017-2018

71a
Appendix C
school year, he was at Level K (kindergarten) in
phonological awareness, phonics, high frequency
words, vocabulary, and literature comprehension.
(J14:3).
135. By the time of Student’s iReady benchmark in the
2018-2019 school year, Student had tested out of any
need in phonological awareness, had received the
“max score” in high frequency words, and was at
grade 1 in vocabulary and literature comprehension.
(J19:3; Tr. 755:22-25).
136. Student’s iReady scores from his transfer ARD on
October 20, 2017 indicated that he was in kindergarten
level for number/operations and measurement/data,
and at a first-grade level for geometry and algebra/
algebraic thinking. (J14:4).
137. By Student’s annual ARD on September 17, 2018,
Student was at second-grade level in both number/
operations and geometry and was at grade one for
measurement/data. (J19:5). Only Student’s algebra/
algebraic thinking scores remained at the first-grade
level from year to year. (J14:4; J19:5).
138. Within the resource setting in second and third
grade, Student has the benefit of working directly
with his resource teacher in 1:1 settings or in very
small groups of three to complete assignments. (Tr.
690). (Tr. 740:5).

72a
Appendix C
139. Since the resource class is a small class, the teacher
is able to give individualized attention to each
student. Student’s resource teacher indicated that
Student recently struggled with expanded form of
numbers, but that in working with his teacher, he
and his teacher were able to create an individualized
strategy that worked for him in order to be able to
successfully use the expanded form of numbers. (Tr.
690-691).
140. W hen asked about “expected prog ress,” Dr.
Robillard stated that after two years in an OrtonGillingham based program (when Student has
currently participated for less than six months) she
would expect Student to get to a place where he can
understand the rules of reading and writing and feel
comfortable working on building vocabulary, fluency,
and comprehension. She noted that for children like
Student who also have handwriting difficulties and
attention problems, “that progress could be a bit
slower.” (Tr. 830).
DYSLEXIA INTERVENTION: WILSON READING
SYSTEM
141. Student’s dyslexia teacher testified that providing
services for 45 minutes per day instead of an hour
is appropriate because at the third-grade level, a
student’s attention span is lower. (Tr. 145-146).
142. In dyslexia class, they complete sound drills, work
with creating words on magnet boards, write sight-

73a
Appendix C
words on whiteboards, all in order to repeat the
sounds and combinations that letters make. (Tr.
146-149). Additionally, teaching students in groups
means that they have the ability to learn from each
other in that setting. (Tr. 161: 11-15).
143. Student’s teacher did not see any indications that
Student had dyslexia over the first three months
that Student was enrolled. Student knew letters and
number sounds, was able to read small sentences,
was not reversing letters, and was able to track what
was being read. (Tr. 461).
144. Student was not screened for dyslexia services upon
enrollment in CCISD because CCISD screeners
take place during a student’s first grade year, after
students have been exposed to reading instruction.
(R10: Tr. 153:23-25)
145. Student’s dyslexia teacher indicated that she was
surprised that he was not tested at his prior district,
because usually they would consider that testing
earlier, and prior to sped testing. (Tr. 155:9-15).
146. The dyslexia screener was completed on February
15, 2018. (R11:1). The screener did indicate a reason
to suspect dyslexia characteristics. However, in
accordance with the Dyslexia Handbook, for students
currently receiving special education and related
services, consent for formal dyslexia testing must
be decided by ARD Committee. (P14:82).

74a
Appendix C
147. The ARD Committee convened to discuss dyslexia
testing on April 6, 2018. The time frame between
the completion of the dyslexia screener and the ARD
date was thirty school days, due to the intervening
time for Spring Break and other District holidays.
(J42).
148. The formal dyslexia evaluation report was reviewed
in ARD thirty school days after the report was
completed, on September 17, 2018. (J19).
149. On August 23, 2018, Parent emailed the reading
interventionist for the results of the testing since
the district had not contacted her with the results.
P.Ex. 9 at 8-9.
150. The CCISD reading interventionist informed Parent
that Student did “fit the dyslexic profile,” and offered
to begin providing dyslexia services to Student
during the first week of September, even though
Student’s ARDC was not scheduled to meet until
September 17. P.Ex. 9 at 7.
151. The parent and the dyslexia teacher agreed prior to
the ARD to start Student’s dyslexia instruction the
same date as the other students, which was about a
week before the ARD Committee met on September
17, 2018. Parent agreed to allow Student to begin
receiving dyslexia services because she wanted
Student “to get appropriate resources sooner rather
than later.” (Tr. 600:9-19; P9:7)

75a
Appendix C
152. CCISD began providing Student with dyslexia
services through the Wilson Reading System in
September 2018. The Wilson Reading System is a
research-based program that is based in the OrtonGillingham method. T. 44-45.
153. Student’s dyslexia teacher indicated that although
dyslexia services would have been helpful during his
second grade year, they were not critical because “he
was getting support and accommodations” in second
grade and “was getting support from the special
education department [resource].” (Tr. 173:8-15).
154. The Wilson Reading System is a program that is used
with children who have word-level deficits who are
not making sufficient progress through their current
intervention. Wilson is appropriate for students who
need more intensive, structured, literacy instruction
due to a language-based learning disability, such as
dyslexia. T. 49.
155. The publisher of the Wilson Reading System
recommends the material be presented to students in
12 steps. T. 50.; R.Ex. 9. The publisher of the Wilson
program recommends students complete at least
four steps per year, with six being recommended.
Wilson recommends an hour to an hour and a half of
instruction per day, five days per week. Wilson can be
taught either individually or in groups. For groups,
Wilson recommends a group of “up to six students,
with four being optimal.” T. 51-52.

76a
Appendix C
156. Student is provided Wilson Reading instruction in
a group of six students. T. 52. Student is provided
Wilson instruction 45 minutes per day, 4 days per
week. T. 207.
157. Student’s prog ress is assessed through his
performance on subtests. T. 187; P.Ex. 17. Student’s
scores on the subtests are not recorded. T. 207.
SEPTEMBER 17, 2018 ARDC MEETING
158. On September 17, 2018. Student’s ARDC convened
J.Ex. 19. Student’s private ABA therapist was
present. CCISD also invited a district BCBA to
attend the ARDC meeting. J.Ex. 19 at 27.
159. At the September 17, 2018 ARDC meeting, “[Student]
was found eligible for dyslexia services which will be
provided in the general education setting during the
2018-2019 school year.” J.Ex. 19 at 24.
160. The IEP produced at the September 17, 2018 meeting
states Student is “Dyslexia/Qualified,” but does not
include any information regarding eligibility for a
Specific Learning Disability. J.Ex. 19 at 1.
161. The schedule of services in the September 17, 2018
IEP states Student will receive “Dyslexia Services
– Gen Ed” for 45 minutes per day, 4 times per week,
in a group setting. J.Ex. 19 at 20.

77a
Appendix C
162. The parent criticized the dyslexia program as not
being sufficiently individualized, because it is taught
in groups. However, the dyslexia teacher supports
students’ individual needs by weaving areas of
difficulty back into future lessons. (Tr. 62:13-15).
163. Student’s Reading PLA A FP notes Student’s
“beginning of year” iReady results, indicating
current performance on a 1st grade level.” J.Ex. 19
at 2.
164. Student’s present levels of performance were used
by student’s case manager to write goals based upon
Student’s individualized strengths and weaknesses.
(Tr. 654-655).
165. Based upon these PLAAFP statements, Student’s
IEP specifically included a reading goal targeting
fluency and comprehension (J14:8), a writing goal
addressing legibility, punctuation, and capitalization
(J14:9), and solving word problems (J14:10).
166. In second grade, Student’s PLAAFP statements
were supported by teacher data and also Fountas
and Pinnell (“F&P”) and iReady scores. (J14:23). Those related to reading weaknesses focused
on fluency and comprehension. Student’s writing
weaknesses included spacing letters, using proper
capitalization, and drafting sentences independently.
(J14:3). Student’s math weaknesses included solving
word problems. (J14:4).

78a
Appendix C
167. Student made progress on his IEP goals as indicated
on his final report card for second grade. (J29:1).
At the time the goals were created, Student had
been enrolled in CCISD for 20 days; it takes time to
determine student’s level of functioning. (Tr. 723725).
168. For third grade, Student’s IEP once again identified
weaknesses in reading fluency and comprehension
(J19:2), in writing legibility (J19:4), and in math
related to expanded form of numbers and word
representation of numbers. (J19:4).
169. Student’s resource teacher specifically wrote his
reading goal to be on “instructional level” so that
the F&P reading levels could guide the books he was
selecting and reading. Student once again received
a writing goal regarding increasing legibility and
improving sentence conventions such as capitalization
and punctuation (J19:10), and a math goal related to
representing and comparing whole numbers. (J19:11).
170. Student did make progress in developing reading
skills towards grade level, as indicated by his
progress in improving reading from a kindergarten
level in the 2017-2018 school year to a first-grade level
in 2018-2019 school year. (J19:2).
171. During the September 17, 2018 ARDC meeting, Parent
expressed her concern regarding Student’s illegible
handwriting and asked for an Occupational Therapy
consult to assist Student with his handwriting. J.Ex.
19 at 24.

79a
Appendix C
172. Despite Student’s handwriting weaknesses being
noted in his Written Expression PLAAFP, Student’s
teachers told Parent they “had not been collecting
data on his handwriting at this time.” J.Ex. 19 at 24.
Instead, Ms. Stone offered to allow Student to stay
after school to practice his handwriting with her.
J.Ex. 19 at 24.
ASSISTIVE TECHNOLOGY EVALUATION
173. It is not disputed that Student has difficulty with
handwriting, and that handwriting tasks are
non-preferred. In this instance, the District felt
comfortable providing Student w ith assistive
technology supports without need for a formal AT
evaluation. (Tr. 1005:1-16).
174. Speech-to-text also has been considered but was not
determined to be a necessary AT device. Student’s
resource teacher did not recommend a support like
speech-to-text. Student has made progress in his
willingness to write as well as his writing abilities.
He is capable of handwriting, demonstrates an
ability to convey his thoughts on paper, and that
handwriting is much more functional of a skill for
Student. (Tr. 708).
175. Student uses a graphic organizer to assist in
recalling information and organizing his thoughts.
(Tr. 1006:10-16).

80a
Appendix C
OCCUPATIONAL THERAPY EVALUATION
176. Petitioner failed to identify any educational need for
occupational therapy or physical therapy services. The
parent has not produced any evaluation supporting
that OT is required for Student. The parent stated
that she wanted an occupational therapy evaluation
for Student because his handwriting is not always
legible. (Tr. 1060).
177. Student’s second grade teacher indicated writing was
not a preferred activity, but his writing was generally
legible, though not perfectly formed. (Tr. 463:9-14).
178. Student’s dyslexia teacher supported that Student’s
handwriting is legible when he focuses, and that the
purpose of after-school handwriting tutoring for him
was to ensure that he could form letters correctly.
(Tr. 98:9-13).
179. When the dyslexia teacher discontinued tutoring,
she stated that “he can form the letters correctly,
he just needs to take his time when he’s writing, he
has the ability to do that.” (Tr. 103:4-8).
180. Throughout Student’s enrollment in CCISD,
Student has had a handwriting goal. Student’s
resource teacher provides reminders and support
for Student to slow down, which results in legible
writing. Such supports can be provided within the
general education environment and do not require
an occupational therapist. (Tr. 1004:17-18).

81a
Appendix C
ASSISTIVE TECHNOLOGY
181. Student received multisensory reading supports
within the general education curriculum. For
example, Student received TumbleBooks, where
the book reads aloud to a student and highlights the
words as they go along. (Tr. 445:16-18).
182. All students had headphones so they could listen to
books. (Tr. 445:20-22). Student has access to iPads
and computers/laptops in the general education
environment and the resource environment. (Tr.
683:9-11). Additionally, in resource, Student has
access to a whiteboard, movement breaks around the
room, and introduction of concepts through visual,
auditory, and tactile means. (Tr. 698-699).
183. Student receives assistive technology in his IEP in
the form of the option to use a laptop for the final
draft of written assignments. (J19:14). Student’s
handwriting is legible when he focuses, and Student
does not need or request use of a laptop instead,
preferring to handwrite his final projects. (Tr. 731:19; Tr. 711:1-1-5).
FUNCTIONAL BEHAVIORAL ASSESSMENT
184. Shortly after school resumed, Parent received a
phone call inquiring as to “what they had done over
the summer” because Student appeared to have
regressed. Student’s “shut down” behavior had
grown worse, and he was consistently refusing to do

82a
Appendix C
work. T. 588-589. Student “wouldn’t talk” and could
not be redirected to do his work. T. 589.
185. Parent offered to bring Student’s private ABA
therapist to Student’s Annual ARD in September
2018. T. 588. The parent’s ABA therapist attended
the September ARD and agreed with the Committee
that a FBA was not needed. (Tr. 546:8-18). The ABA
therapist also did not recommend development of a
BIP for Student regarding his behavior of shutting
down. (Tr. 551:13-16). The ABA therapist agreed
and the Committee agreed that data tracking to see
if a token system was needed in case the behaviors
reemerged was an appropriate next step. (Tr. 546:1921). (Tr. 641; Tr. 542-543; J39).
186. After Student’s transfer at the beginning of second
grade, Student would cry when presented with work
tasks. With redirection and positive support, he made
progress with this behavior and was increasingly
able to initiate and complete work without assistance.
(Tr. 439:20-25; 440:1-19).
187. At the beginning of third grade, Student would “shut
down” by putting his head down on his desk. With
redirection and encouragement, he was able to begin
working again. (Tr. 638-639; Tr. 709:8-14)).
188. His behaviors were not persistent and seemed to
be reduced as Student’s confidence grew in the
classroom. (Tr. 696:1-6).

83a
Appendix C
189. Student had accommodations already in place in his
IEP to assist with the “shut down” behavior, like
chunking assignments and using a laptop for long
writing assignments. (Tr. 710-711; J19:13-14).
190. By the time of Student’s September ARD, the
behaviors were no longer occurring. (Tr. 544-545).
Student’s Behavior PLAAFP states: 4 out of 5 times,
[Student] does not respond favorably to redirection
or reminders of classroom expectations, resulting in
his refusal to work at all or follow the instructions
correctly. He will shut down, put down his head or
ignore any teacher instructions. J.Ex. 19 at 5.
191. For the first time, Student’s IEP states that his
behavior impedes his own learning or that of
others. Despite this statement, the only positive
behavioral interventions listed are unspecified
“Accommodation for behavior (i.e. task avoidance/
refusal, distractions.)” J.Ex. 19 at 7.
192. Student’s private ABA therapist testified no one
from CCISD had been in contact with her after the
ARDC meeting, even though both she and Parent
had signed consent for CCISD staff to do so. T. 541;
543- 544.
193. Though Student was supposed to be provided with
accommodations for his behavior, the IEP does
not discuss which accommodations were added to
address Student’s “shut down” behavior. J.Ex. 19 at
13- 14.

84a
Appendix C
194. The September 17, 2018 IEP contains Prior Written
Notice. J.Ex. 19 at 28. The Prior Written Notice
simply states there was a “proposed adjustment of
IEP services based on student needs and results of
dyslexia evaluation.” Id. The Prior Written Notice
contains no description of the services that were
adjusted or added, the IEP accommodations that
were changed, or the reduction in speech services.
195. The schedule of services contained in the September
17, 2018 IEP states Student will receive four
30-minute sessions per 6 week grading period. J.Ex.
19 at 21. This is a decrease from the number of speech
therapy sessions Student received under his October
2017 IEP. J.Ex. 14 at 18 (five 30-minute sessions per
6 week grading period).
THIRD GRADE: POST-ARDC
196. “How we work with him and what we provide him
with does not matter what [eligibility] he comes with.
He gets what he needs. And I feel that the IEP is
providing him with everything that he needs to be
successful.” (Tr. 756:15-23).
197. On September 20, 2018, Student began receiving one
hour of after-school handwriting support each week.
P.Ex. 9 at 3.
198. On September 27, 2018, Parents receied an
“Intervention Progress Report,” indicating Student
was receiving “Tier 3 Reading” through the Wilson

85a
Appendix C
Program and that Student had “Met Expectation.”
R.Ex. 3 at 2; T. 180.
199. Student’s third grade ELAR teacher filled out two
forms titled “Reading RTI Documentation Tier 1.”
Student’s “areas of concern for reading” were both
“basic reading skills” and “written expression.”.
Student’s goal for RTI was “neat and legible writing,”
“phonics,” and “increase [reading] comprehension
to grade 2.” According to the forms, Student was
provided with approximately 10-15 minutes of
intervention services each day. P.Ex. 18 at 1-2.
200. On October 19, 2018, after-school handwriting
support was discontinued because “[Student] has
demonstrated that he can form letters that are
legible. He just needs to take his time.” Ms. Stone
also stated Student could continue to stay after
school, but that she would no longer be able to work
with him one-on-one. P.Ex. 9 at 1.
201. On November 8 , 2 018 , Pa rents received an
“Intervention Progress Report” indicating Student
“Made Progress, Less Than Expected.” R.Ex. 3 at
2. Ms. Stone testified Student was working hard
and doing good work but “doesn’t always get the
concepts.” Ms. Stone claimed Student has “worked
through” his difficulties since the issuance of the
progress report. T. 180.
202. As of November 30, 2018, Student had progressed
from Level 1.3 in the Wilson Reading Program to
Level 1.6. J.Ex. 41 at 3.

86a
Appendix C
203. CCISD’s records indicate Student received all of his
scheduled dyslexia instruction (45 minutes, 4 times
per week) on five out of 11 weeks of the semester.
J.Ex. 41 at 3.
204. Student has not received an outside dyslexia
evaluation recommending a change in Student’s
current programming. Student’s dyslexia teacher
reports he is making progress and is completing his
step tests with expected accuracy. (Tr. 169:1-6; P17).
INDEPENDENT EDUCATIONAL EVALUATION
(IEE) BY JASON CRAIG
205. The contract with Mr. Craig was executed on
September 5, 2018, and evaluations began October
24, 2018. P.Ex. 20 at 2. Mr. Craig was contracted
to conduct evaluations of Student in the areas of
“psychological, learning disability, and ADHD.” T.
270.
206. Mr. Craig did not receive any of Student’s records
from CCISD for his review. T. 272. Instead, Parent
provided Student’s evaluations to Mr. Craig. T. 271.
Mr. Craig produced his evaluation report to Parent
and to Ms. Kirkpatrick on December 4, 2018. P.Ex.
20 at 1.
207. Mr. Craig testified that on his initial meeting of
Student, he had “immediate language concerns”
because Student was unable to spell his first name,
only his middle name. T.273. Student was also unable

87a
Appendix C
to recall his birth year of the name of his school.
T. 273. Mr. Craig also noted Student’s responses
“tended to be long and hard to follow at times” and
that Student “tended to get off track easily.” T. 273274.
208. Mr. Craig reported Student’s cognitive flexibility
and frustration tolerance seemed “below age-level
expectations.” P.Ex. 20 at 3.
209. Mr. Craig also conducted observations of Student
in his resource classroom. T. 275-276. Student read
at less than 40 words per minute. T. 276; P.Ex. 20
at 3. In third grade, an average student reads at
approximately 80 words per minute. T.276.
210. Mr. Craig testified Student’s reading rate was
concerning because when Student was evaluated in
first grade at WCPSS, he read 32 words per minute,
meaning Student had only increased his reading
speed by eight words per minute. T. 276. Mr. Craig
testified this eight-word increase was not meaningful
progress. T. 276-277.
211. Mr. Craig noted the abnormally low score of 65 on
the WJC-IV Auditory Processing subtest was a “red
flag that would warrant additional investigation”
into whether Student has an auditory processing
disorder. T. 284.
212. Mr. Craig also reported and testified Student had a
deficit in processing speed, observing that Student

88a
Appendix C
was slow to read and slow to answer questions during
the evaluation. T. 285- 286; P.Ex. 20 at 11, 13.
213. Mr. Craig testified regarding his observation that
Student “seemed lost” in the classroom and was
“unsure what to do next.” T. 347. Mr. Craig testified
Student’s slower decision-making skills were also
indicative of Student’s slower processing speed. T.
347.
214. Mr. Craig assessed Student’s academic abilities
using the Woodcock-Johnson Fourth Edition Test of
Academic Abilities. P.Ex. 20 at 12-13. He reported
Student’s scores on the assessment “demonstrate the
profound deficit in his academic abilities. P.Ex. 20 at
12. Mr. Craig testified these results were indicative
of a learning disability. T. 288.
215. Mr. Craig theorized that Student’s raw score on
the assessments had “probably stayed the same”
between first and third grade, meaning Student’s
academic ability “probably has not increased since
first grade.” T. 290.
216. M r. Cra ig ’s eva luat ion concluded w it h t he
recommendation that Student receive special
education services as a student with a Specific
Learning Disability in Basic Reading, Reading
Fluency, Reading Comprehension, and Written
Expression. P.Ex. 20 at 16.

89a
Appendix C
217. Mr. Craig failed to understand during the review of
documents and observations of the Student that he
is already receiving special education instruction.
(P20).
218. Mr. Craig recommends that Student be provided with
an IEP, and that he receive whole word approach,
as well as use of audio books and flash cards (which
Student already receives). P.Ex. 20.
219. The evaluation report noted that Student struggles
with phonics and phonemic understanding. P.Ex.
20 at 10, 16. Student “does not have a good grasp of
word sounds.” T. 288. As a result, Student’s dyslexia
instruction from CCISD may not be effective
because it “purports to teach him in his weakest
area, auditory processing.” Thus, “more of the same
instruction method will not increase his fluency and
comprehension, which are the goals of reading.” P.Ex.
20 at 16.
220. The Wilson program is Orton-Gillingham based,
and that method specifically targets phonics-based
instruction. (Tr. 405:22-25; Tr.835:2-10).
221. Student’s dyslexia teacher would not recommend
whole word teaching because it doesn’t give students
an understanding of what each symbol represents.
(Tr. 149-150). Dr. Robillard, would not recommend
mastery of a certain phoneme before progressing to
the next sound, because Orton-Gillingham programs
work through phonemes sequentially and with much
practice and repetition. (Tr. 835:2-10).

90a
Appendix C
222. Dr. Robillard specifically recommended OrtonGillingham based-interventions for dyslexic students
like Student, because such programs are “sequential,
systematic, and multisensory” and they “build on
each other” with “a lot of repetition and a lot of
practice.” (Tr. 12:5-10).
TESTIMONY OF DR. RACHEL ROBILLARD
223. Dr. Rachel Robillard has a PhD in educational
psychology, with a specialty in school psychology
and neuropsychology. T. 800; P.Ex. 15. She is a
licensed specialist in school psychology and a licensed
psychologist. Id. Dr. Robillard worked as a teacher,
a principal, a school psychologist, a university
professor, and the Assistant Director of 504 Services
for Austin Independent School District before
retiring to private practice. T. 801-802; P.Ex. 15.
Dr. Robillard was admitted as an expert in dyslexia
evaluation and programming at the due process
hearing. T. 803-804.
224. Dr. Robillard reviewed the evaluations conducted
by WCPSS in 2016 and by Mr. Craig in November
2018. T. 804. Dr. Robillard testified Student’s
cognitive profile had remained consistent across
both evaluations and CCISD’s own evaluations for
dyslexia from May 2018. T. 804. A child’s cognitive
profile should not change absent an event such as a
traumatic brain injury. T. 805.

91a
Appendix C
225. Dr. Robillard testified Student’s cognitive ability
was in the average range. T. 829. Student’s verbal
comprehension ability is also in the average range.
T. 827.
226. In Dr. Robillard’s opinion, Student has a “moderate
to severe presentation” of dyslexia. Dr. Robillard
explained students with dyslexia can learn how to
read, but only with a very specific intervention. T.
856. In the context of the IDEA, dyslexia is included
in the definition of a specific learning disability in
basic reading skills. T. 809-810.
227. Dr. Robillard testified early identification and
intervention for students who are suspected of having
dyslexia is important because early intervention
creates more opportunity to build stronger neural
pathways thus making it easier for the child to learn
how to read. T. 811.
228. Dr. Robillard recommends a dyslexia intervention
based on the Orton-Gillingham method. T. 812. OrtonGillingham-based interventions are sequential,
systematic, and multisensory and include a lot of
repetition and practice. T. 812. Dr. Robillard testified
the appropriate intervention for a specific child would
depend on the individual child’s profile, including the
severity of their dyslexia. T. 812.
229. Dr. Robillard testified that the appropriate program
for Student would be “having him in an OrtonGillingham-based program through completion

92a
Appendix C
and mastery of that program. And then at his age,
also making sure that he has access to things like
Learning Ally and Bookshare so he has all of his
visual reading materials on auditory, you know,
availability, so he can participate with grade level
discussions...I would also like to see some vocabulary
development goals.” (Tr. 826:17-23). Student is
currently being provided with all of these supports
in CCISD.
230. Dr. Robillard testified that the provision of intensive
instruction must also be balanced with the capacity of
the human brain. Dr. Robillard opined that it would
not be productive for Student to be pulled out of his
instruction for half a day or a full day to focus on
certain skills to master them. Research shows that
the optimal timing for dyslexia programming is in
spurts of less than an hour for “optimal outcomes”
and indicated that if a school does more than that,
“it just doesn’t compute; it’s too exhaustive.” (Tr.
850:18-19). The brain needs a rest period for those
things to solidify in order to build upon each other.
(Tr. 850:19-24).
231. Dr. Robillard is familiar with the Fountas & Pinnell
system. She does not recommend Fountas & Pinnell
for any dyslexic child because “[it] does not teach
reading from that systemic, multisensory, sequential
place that needs to be in place for our kids with
dyslexia to actually learn to read well.” T. 813.

93a
Appendix C
232. The District does not use F&P as an intervention
system, but instead as a benchmark for tracking
student progress in reading, not dyslexia. Dr.
Robillard stated that she would want dyslexia
progress monitored by one of the tools that go
with the Orton-Gillingham program, that measure
progress every week or every other week. (Tr.
819-820). Dr. Robillard testified that F&P would be
appropriate to measure fluency and reading rate.
(Tr. 835:22-24).
233. Dr. Robillard testified the Fountas & Pinnell would
not be a good system to measure a dyslexic child’s
progress in reading, instead preferring one of the
progress monitoring tools that come with the OrtonGillingham-based programs. T. 819.
234. Dr. Robillard reviewed Student’s Fountas & Pinnell
record from CCISD. In her opinion, Student’s
purported progress to Level H from a Level G after
1.5 years is not meaningful progress, because even
if Student had recently progressed to a Level H, he
would still be on a mid-first grade level. T. 817.
235. Dr. Robillard testified that, for a child who is far below
grade level, such as the Student in this proceeding,
the hope would be for Student to progress more than
two levels in Fountas & Pinnell in one academic year
as the ultimate goal is for the student to be on grade
level.T. 818.

94a
Appendix C
236. Dr. Robillard emphasized the purpose of special
education is to give a student: “Highly individualized
instruction, different intensity of instruction, more
one-on- one and very small group instruction so that
they can—the goal is to work through and figure out
how they’re learning so we can best get them back
up to grade level, which is the D in dismissal with
an ARD; we’re hoping to get them to that point at
some time. T. 818.
237. Dr. Robillard expressed concern that Student’s IEPs
from October 20, 2017 and September 17, 2018 did
not contain any Orton-Gillingham-based program
language, which is important if the child moves from
district to district. T. 822.
238. Dr. Robillard’s opinion of Student’s 2018 IEP Reading
goal is that the goal is “very broad” and “probably
too vague to understand if [Student is] making good
progress and making appropriate progress for what
we believe his abilities are.” T. 824-825.
239. Dr. Robillard’s opinion of Student’s 2017 IEP
Reading goal is that, while the goal is more specific
than the 2018 IEP Reading goal, the goal is “pretty
unachievable” because it required Student to read
grade level text with fluency and comprehension,
when Student “clearly is not on grade level or
anywhere close to it.” T. 826.
240. In Dr. Robillard’s opinion, based on her review of
the records, Student has not made a large amount

95a
Appendix C
of progress over the preceding 1.5 years. T. 845.
Based on Student’s cognitive ability and prescribed
number of hours of Wilson instruction, she believes
Student should be making more progress than was
documented by CCISD. T. 829.
241. When asked to describe the environmental conditions
Student would need to make progress, Dr. Robillard
stated that best practice would be to have him in
academic language therapy one on one 45 minutes a
day for five days a week. He could be in a very small
group, maybe two or three children max. T. 841
242. In Dr. Robillard’s opinion, a group of six for the
Wilson program, taught by a Level 1 certified
instructor, would be “a very hard thing to do.” T. 843.
Dr. Robillard testified that only “a handful of very,
very highly trained academic language therapists”
may feel comfortable instructing a group of six
students in the Level 1 Wilson program. T. 843.
243. Although Dr. Robillard testified that instruction
from a CALT may be “best practice,” use of
reading interventionists trained in the program
are appropriate, particularly if they are supervised
to make sure that implementation is being followed
appropriately. (Tr. 837-838). This is also supported
by the Dyslexia Handbook. (P14:79-80).
244. Dr. Robillard defined methodology as “the training
of the interventionist, the therapist, in understanding
how to teach [a program].” (Tr. 822:14-15).

96a
Appendix C
APPLICABLE LAW
DUTY TO PROVIDE FAPE
The purpose of the IDEA is to ensure that all children with
disabilities have available to them a FAPE that emphasizes
special education and sufficient related support services
and specifically designed personalized instruction
reasonably calculated to meet the unique needs of the
child in order for them to receive an educational benefit,
and prepare them for further education, employment, and
independent living. 20 U.S.C. § 1400 (d).
Under IDEA the District is required to identify students
with disabilities residing within its jurisdiction between
the ages of 3 and 21, who it suspects are eligible for special
education. 34 C.F.R. § 300.111. The District is required
to provide eligible students with special education and
related services. The school district is responsible for
providing such instruction and services at public expense
and to comport with the child’s IEP. 20 U.S.C. § 1401(9);
Bd. of Educ. of Hendrick Hudson Cent. Sch. Dist. vn.
Rowley, 458 U.S. 176, 188-189, 200-201, 203-204 (1982).
FAPE
The obligation to provide a FAPE requires a school
district to have in effect an IEP at the beginning of each
school year. The ARD Committee develops the IEP and
must consider the student’s strengths, the results of the
most recent evaluation data, the student’s academic,
developmental and functional needs, and parental

97a
Appendix C
concerns for enhancing the student’s education. 34 C.F.R.
300.324(a).
An IEP must include a description of the related services,
supplementary supports and services, the instructional
arrangement, program modifications, supports for school
personnel, designated staff to provide the services, the
duration and frequency of the services, and the location
where the services will be provided. 34 C.F.R. §§ 300.22,
300.323 (a).
An IEP is more than simply a written statement of annual
goals and objectives and how they will be measured.
It is not a form document. It is constructed only after
careful consideration of the student’s present levels of
achievement, disability, and potential for growth. 20
U.S.C.§§ 1414(d)(1)(A)(i)(I)-(IV), (d)(3)(A)(i)-(iv); Endrew
F., 137 S.Ct. at 999.
The IDEA does not require the IEP to guarantee a certain
level of accomplishment. It is not required to provide
Student with the best possible education. It need not be
designed to maximize a student’s potential. The issue
is not whether the school district could have done more.
Houston Ind. Sch. Dist. v. V.P., 582 F. 2d 576 (5th Cir. 2009)
cert. denied, 559 U.S. 1007(2010).
Instead, the IDEA guarantees only a “basic f loor
of opportunity,” by requiring that the IEP must be
specifically designed to meet Student’s unique needs,
supported by services that permit Student to benefit from
the instruction. The inquiry is whether Student received

98a
Appendix C
an educational benefit. Rowley, 458 U.S. at 188-189.
THE FOUR FACTOR TEST
The Fifth Circuit has articulated a four factor test to
determine whether a Texas school district’s program
meets IDEA requirements to provide a FAPE. Those
factors are:
1.

The program is individualized on the basis of the
student’s assessment and performance;

2.

The program is administered in the least
restrictive environment;

3.

The services are provided in a coordinated,
collaborative manner by the “key” stakeholders;
and,

4.

Positive academic and non-academic benefits are
demonstrated.

Cypress-Fairbanks Ind. Sch. Dist. v. Michael F., 118 F.
3d 245, 253 (5th Cir. 1997).
The four factors need not be accorded any particular
weight nor be applied in any particular way. Instead,
they are merely indicators of an appropriate program
and intended to guide the fact-intensive inquiry required
in evaluating the school district’s educational program.
Richardson Ind. Sch. Dist. v. Leah Z., 580 F. 3d 286, 294
(5th Cir. 2009).

99a
Appendix C
PRESUMPTION OF APPROPRIATENESS
Under the IDEA the educational plan developed by a
school district is presumed appropriate and the burden of
proof for challenging that program is placed on the party
making the challenge. Shaeffer v. Weast, 546 U.S. 49, 126
S.Ct. 528, 536-537 (2005); R.H. v. Plano Indep. Sch. Dist.,
607 F.3d 1003, 1010-1011(5th Cir. 2011). Petitioner bears
the burden of proof in this dispute and must overcome
the presumption in favor of the District’s educational plan
and establish that the District failed to provide a FAPE.
DISCUSSION
The presumption of the appropriateness of the District’s
education program for the Student withstands challenge
in this dispute. Petitioner did not meet Petitioner’s burden
to show that the District’s program for the Student failed
to provide a FAPE, or the District violated the IDEA.
Student is successful in the general education setting.
The evidence established that the Student behaved as
an average student within student’s general education
program. The Student’s teachers had high expectations
of the Student to achieve the goal of getting an education.
These requirements are not inconsistent with the IDEA.
Within this general education setting success, the District
offered accommodations and services. Student received
instructional accommodations and services that allowed
student to exhibit both academic and non-academic
success – with the addition of special education instruction.

100a
Appendix C
The Student is making progress. The District’s general
education program does not remediate the Student’s
disability, but instead allows the Student to receive an
overall educational benefit within mainstream classes that
includes passing grades and advancement from grade to
grade. Klein Independent School Dist. v. Hovem, 690 F.3d
390, 398 (5th Cir. 2012).
Petitioner did not sustain Petitioner’s burden to show a
denial of a FAPE to the Student.
APPLICATION OF THE FOUR FACTOR TEST
Application of the four factors to the evidence in this case
supports the finding that the School District’s program
was appropriate because the IEP is reasonably calculated
to provide the requisite educational benefit given Student’s
unique circumstances. Rowley, supra, 458 U.S. at 206-20;
Endrew F., supra, 137 S.Ct. at 999-1000 (2017).
INDIVIDUALIZED PROGRAM
Factor 1:

The program is individualized on the
basis of the student’s assessment and
performance.

To meet its substantive obligation, a school district must
offer an IEP that is reasonably calculated to meet the
child’s needs to enable the student to make progress
appropriate in light of the child’s unique circumstances.
The adequacy of a given IEP turns on the unique
circumstances of the student for whom it was created.

101a
Appendix C
Endrew F. ex rel. Joseph F. v. Douglas Cnty. Sch. Dist.
137 S. Ct. 988 (2017).
The ARD committee is required to review the student’s
IEP at least annually, and on the basis of any reevaluations, information provided by parents, or the
student’s anticipated needs, to make any revisions
needed to address a lack of expected progress. 34 C.F.R.
300.324(b)(1).
As the Supreme Court noted in Endrew F., a student’s
“present level of performance” provides the benchmark
… the starting point … from which to measure the
student’s progress. The next component of every IEP is
measurable annual goals designed to allow the student
to make progress, if possible, based upon the student’s
circumstances, in the general education environment.
Meaningful progress is the key regardless of the
educational setting.
Petitioner believes Respondent failed to provide the student
a FAPE by not providing present levels of performance
on which appropriate, measurable goals could be based,
and by using goals that cannot be measured due to lack
of accurate baselines.
While it is clear that Student continues to have behavior
challenges and ongoing struggles, the educational
programming was individualized on the basis of the
Student’s assessments and performance, and it was
reasonably calculated to enable Student to make
appropriate progress in light of Student’s individual
circumstances. Endrew F., supra, 137 S.Ct. 988 at 1000.

102a
Appendix C
Petitioner provided evidence to the contrary, including
expert testimony showing that reasonable minds can
disagree on pragmatic details of the delivery of the
educational program. The school district is under a duty
to consider the results and recommendations of that
evaluation at an ARD committee meeting. The evidence
showed the school district did that.
While “more,” “different,” or “better” services/goals/
accommodations might be possible, the relevant question
is whether the IEP as written is appropriate. Adam J. v.
Keller Indep. Sch. Dist., Civ. No. 4:01-CV- 0797-A, 2002
WL 1906001 at *2 (N.D. Tex. Aug. 15, 2002) (finding fact
that another plan “might work as well or even better does
not mean that defendant has failed to provide plaintiff a
FAPE”), aff’d, 328 F.3d 804 (5th Cir. 2003).
The role of the court is not to “second guess” school
officials or substitute their own idea of an appropriate
IEP for the opinion of the educational professionals. C.G.
by & through Keith G. v. Waller Indep. Sch. Dist., 697 F.
App’x 816, 820 (5th Cir. 2017), as revised (June 29, 2017)
(citing Flour Bluff Indep. Sch. Dist. v. Katherine M. by
Lesa T., 91 F.3d 689, 693 (5th Cir. 1996)).
The Supreme Court recently reiterated that “the question
is whether the IEP is reasonable, not whether the court
regards it as ideal.” Endrew F., supra, 137 S.Ct. at 999
(referencing Rowley, 458 U.S. at 206-07.
This issue is decided in favor of the School District because
the District is not required to implement the “best”

103a
Appendix C
program designed by an expert to remediate or maximize
a child’s educational potential. Perhaps the school district
could have conducted additional assessments such as
those discussed during this due process hearing. Instead,
after deliberative consideration, the ARD committee
determined that the supports are sufficiently appropriate.
LEAST RESTRICTIVE ENVIRONMENT
Factor 2:

The program is administered in the least
restrictive environment.

The IDEA requires that students with disabilities must be
educated in general education settings with peers who do
not have disabilities to the maximum extent appropriate.
This requirement of the IDEA is referred to as a school
district’s obligation to educate a student in the least
restrictive environment (LRE). 34 C.F.R. § 300.114(a)(2)(i).
The determination of whether a student with a disability
can be educated in general education settings requires
an examination of the nature and severity of the student’s
disability, the student’s needs and abilities, and the school
district’s response to the student’s needs.
To determine whether a school district is educating a
student with a disability in the LRE, consideration must
be given to:
1.

Whether the student with a disability can be
satisfactorily educated in general education
settings with the use of supplemental aids and
services; and

104a
Appendix C
2.

If not, whether the school district mainstreamed
the student to the maximum extent appropriate.

Daniel R.R. v. El Paso Ind. Sch. Dist., 874 F. 2d 1036,
1048 (5th Cir. 1989).
This determination requires an examination of:
1.

a school district’s efforts to provide the student
with supplemental aids and services in the
general education setting;

2.

a school district’s efforts to modify the special
education curriculum to meet the student’s
individual needs;

3.

the educational benefit a student is receiving
while placed in the general education setting;

Daniel R.R., supra.
The binding law in this Circuit compels the conclusion
that the School District’s proposed schedule of services
with a mixture of special education and regular education
is the LRE.
Here, parents, teachers, and service providers continue to
engage in careful and thoughtful discussion regarding the
LRE appropriate to meet his needs, and the decision ARD
Committee decision complies with the IDEA. Student’s
teachers have the most knowledge of her learning needs
and have made a careful and thoughtful decision based
on the data available.

105a
Appendix C
The School District strives to offer the Student’s
educational program in the least restrictive environment.
The IEP is designed and reasonably calculated to meet
Student’s unique and complex needs to make it possible
for student to continue to be educated in the general
education environment.
The School District made significant efforts to provide
Student with supplemental aids and services and the
resources for Student, but, even with these efforts,
Student showed limited growth. The School District seeks
to achieve a balance of the general education environment
and the other educational needs of the student. Having
determined that Student cannot be satisfactorily educated
in the general education setting, the School District
seeks to mainstream Student to the maximum extent
appropriate.
COLLABORATIVE MANNER
Factor 3:

The services are provided in a coordinated,
collaborative manner by the “ key ”
stakeholders.

The third prong of the Michael F. analysis requires the
“key stakeholders” to provide services in a coordinated
and collaborative manner. Michael F., 118 F.3d at 253. The
school district is required to ensure parental participation
in the ARD process, and it must make consistent efforts
to reach consensus with over the relevant time period. 19
Tex. Admin. Code § 89.1050 (g).

106a
Appendix C
However, the school district is not obligated to implement
every parental request or suggestion. See, Lachman v.
Illinois St. Bd. of Educ., 952 F. 2d 290, 297 (7th Cir. 988).
No one member of an ARD Committee has veto power
over the educational decision-making that is the ARD
Committee’s overall responsibility. 34 C.F.R. §§ 300.321300.322.
To prevail on this prong, Petitioner must prove the school
“failed to implement substantial or significant provisions
of the IEP.” Bobby R., 200 F.3d at 349. Petitioner does
not complain that any provision of the IEP was not
implemented, but rather that it was not implemented with
fidelity.
Petitioner complains the approach lacked objective and
measurable goals. The evidence shows the goals were
relatively clear. Even if the goals lacked more detail in
describing behavior strategies, the IEP as a whole did
not deny Student FAPE.
The IDEA does not require the levels of methodology and
specificity Petitioner seeks in formulating an appropriate
IEP. Although the amount of special education consult
services seems somewhat arbitrary, Petitioner did not
prove it was insufficient for the purpose of monitoring
Student’s performance. Recognizing that the needs of the
child are not stagnant but evolving, the best educational
programming will require continued adaptation based on
the attention of the providers of support.

107a
Appendix C
It is important to acknowledge the extensive experience
of Student’s teachers, not only as qualified professionals
in the field of education, but with Student specifically.
The Fifth Circuit has recognized the importance of the
opinions of those individuals with the most immediate
knowledge of a student’s performance – the educators
who work with the student on a daily basis. See Michael
F., 118 F.3d at 253-54.
EDUCATIONAL BENEFIT
Factor 4:

Positive academic and non-academic
benefits are demonstrated.

The student must receive more than a de minimus
educat iona l benef it g iven the Student ’s u n ique
circumstances. Endrew F., supra; Rowley, supra.
The school district is required to provide the student
with a meaningful educational benefit that is likely to
produce progress not regression or trivial advancement.
The student does not need to improve in every academic
and non-academic area to receive an educational benefit.
Houston, supra, 582 F. 3d at 583.
The determination of whether the student is receiving
educational benefit while placed in the general education
setting requires an evaluation of both the academic and
nonacademic benefits. Id. Daniel R.R., supra, 874 F. 2d
at 1048.

108a
Appendix C
The fact that it is possible does not mean that it is required,
or appropriate, under the IDEA. The student should be
able to derive some actual educational benefit from his
placement. Northside Indep. Sch. Dist., Dkt. No. 050-SE1001 (SEA Tex. Jan. 4, 2002).
Although the additional supports recommended by
Student’s experts might “enhance” and “improve” the
“gains” and “success” Student is experiencing, the IDEA
does not require the District to implement them. See
Zelazny, supra, 325 F.3d at 731 (expert’s program showed
district how to maximize student’s potential, but IDEA
does not require it be implemented).
The School District’s program is reasonably calculated
to provide Student with an educational benefit. Student’s
educational program is designed to be delivered in a
mix of general and special educational settings. With
supplemental aids and services, Student was able to make
measurable progress on Student’s IEP. However, the
evidence also shows that Student received educational
benefit and was able to be successful in the special
education resource instruction setting.
It is important to acknowledge the extensive experience
of Student’s teachers, not only as qualified professionals
in the field of education, but with Student specifically.
The Fifth Circuit has recognized the importance of the
opinions of those with the most immediate knowledge of a
student’s performance – the educators who work with the
student on a daily basis. See Michael F., 118 F.3d at 253-54.

109a
Appendix C
PROCEDURAL VIOLATIONS
To prevail on a claim of a procedural violation of the
IDEA, Petitioner must establish that the School District
significantly impeded the parent’s opportunity to
participate in the decision-making process. See Deal v.
Hamilton Cnty. Bd. of Educ., 392 F.3d 840, 857-58 (6th
Cir. 2003) (analyzing predetermination under procedural
prong of Rowley test); Rockwall Indep. Sch. Dist. v. M.C.,
No. 3:12-CV-4429, 2014 WL 112642573, at *9 (N.D. Tex.
2014), aff’d, 816 F.3d 329 (5th Cir. 2016); see also Adam
J., 328 F.3d at 811-12. To do so, Petitioner must present
“evidence of bad faith exclusion…or refusal to listen to or
consider [the parent’s] input.” Rockwall, supra.
When Student enrolled in CCISD, he already had valid
evaluations from his prior school. Student’s struggles
were well-documented in his North Carolina IEP. Student
received co-teach in the general education environment,
resource services, and specific goals targeted at his unique
areas of need. The parent indicated that Student continues
to struggle with reading and math but did not request
additional testing in these areas.
The new district is only required to conduct a new
evaluation “if determined to be necessary by the new
public agency.” 34 CFR §300.323. CCISD did not
determine it to be necessary.
Petitioner asserts that the District should have evaluated
Student for dyslexia at an earlier time before Spring 2017.
A school district must conduct an evaluation “within a

110a
Appendix C
reasonable time after the school district is on notice of
facts or behavior likely to indicate a disability.” Dallas
Indep. Sch. Dist. v. Woody, 865 F.3d. 303 (5th Cir. 2017).
North East Indep. Sch. Dist., Dkt. No. 098-SE-0117 (TX
SEA 2017).
Student’s teacher did not see any indications that Student
had dyslexia over the first three months that Student was
enrolled. Student knew letters and number sounds, was
able to read small sentences, was not reversing letters,
and was able to track what was being read. (Tr. 461). A
dyslexia evaluation was therefore not suspected before
the parent’s request.
Parent first brought forward a concern regarding dyslexia
at the ARD meeting on January 30, 2018. On the basis of
the parent’s request, the District did initiate a dyslexia
screener. Student was not screened for dyslexia services
upon enrollment in CCISD because CCISD screeners
take place during a student’s first grade year, after
students have been exposed to reading instruction. (R10:
Tr. 153:23-25).2
The dyslexia screener was completed on February 15,
2018. (R11:1). The screener did indicate a reason to suspect
dyslexia characteristics. However, in accordance with
the Dyslexia Handbook, for students currently receiving
special education and related services, consent for formal
dyslexia testing must be decided by ARD Committee.
(P14:82).

111a
Appendix C
The ARD Committee convened to discuss formal dyslexia
testing on April 6, 2018. The time frame between the
completion of the dyslexia screener and the ARD date was
thirty school days, due to the intervening time for Spring
Break and other District holidays. (J42).
The formal dyslexia evaluation report was reviewed in
ARD thirty school days after the report was completed,
on September 17, 2018. (J19). The parent and the dyslexia
teacher agreed prior to the ARD to start Student’s
dyslexia instruction the same date as the other students,
which was about a week before the ARD Committee met
on September 17, 2018. (Tr. 600:9-19; P9:7).
Although the global length of time between the time frame
of the dyslexia screener and the ARD Committee meeting
to formally accept the dyslexia evaluation may seem long,
“the District is entitled to follow the procedures it did.”
See, Dallas ISD v. Woody (finding that a delay of 245
days from initial notice of Student’s possible needs and
completion of the evaluation were reasonable).
During Student’s second grade year, Student did receive
instruction in the Wilson Program called Fundations,
which assisted with phonics.3 in second grade reading,
Student worked on flash cards, participated in embedded
reading, whole-group reading, and reading comprehension
questions. (Tr. 462:9-21). These services were provided in
combination with Student’s resource instruction in math
and ELA.

112a
Appendix C
Student’s dyslexia teacher indicated that although dyslexia
services would have been helpful during his second grade
year, they were not critical because “he was getting
support and accommodations” in second grade and “was
getting support from the special education department
[resource].” (Tr. 173:8-15).
REQUEST FOR IEE
A parent has a right to an Independent Educational
Evaluation (IEE) at public expense if the parent disagrees
with the school district’s evaluation subject to certain
regulatory conditions. 34 C.F.R. § 300.502(b)(1). In
response to the request for an IEE, the school district
must either request a due process hearing to demonstrate
that its evaluation is appropriate or ensure the IEE is
provided. 34 C.F.R. § 300.502(b)(2).
If the school district provides evidence that its evaluation
is appropriate then the parent may still obtain an
independent evaluation, but it will not be provided at the
school district’s expense. 34 C.F.R. § 300.502(b)(3).
On April 9, 2018, Petitioner requested an FIE be conducted
by the School District.
The IDEA’s Child Find requirement obligates public
school districts to identify, locate, and evaluate students
with suspected disabilities “within a reasonable time after
the school district is on notice of facts or behavior likely to
indicate a disability.” Dallas Indep. Sch. Dist. v. Woody,
865 F.3d 303, 320 (5th Cir. 2017). An unreasonable delay

113a
Appendix C
in complying with this duty “may constitute a procedural
violation of the IDEA.” D.K. v. Abington Sch. Dist., 696
F.3d 233, 249–50 (3d Cir. 2012).
The presumption of the appropriateness of the District’s
general education program for the Student withstands
challenge in this dispute. Petitioner did not meet
Petitioner’s burden to show that the District’s program
for the Student failed to provide a FAPE, the District
violated the IDEA, or the Student needed specially
designed instruction.
FINDINGS OF FACT
1.

CCISD did not violate the IDEA and deny Student a
free appropriate public education during the relevant
time period.

2.

CCISD did not violate the IDEA by failing to evaluate
Student in all areas of suspected disability and need,
including a failure to evaluate Student for a Specific
Learning Disability (SLD) and an auditory processing
disorder under the IDEA.

3.

CCISD did not violate the IDEA by failing to grant
Parent’s request for an Independent Educational
Evaluation (IEE) of Student in all areas of suspected
disability and need.

4.

CCISD did not fail to identify Student as eligible for
special education and related services as a Student
with a Specific Learning Disability in Basic Reading,

114a
Appendix C
Reading Fluency, Reading Comprehension, and
Written Expression.
5.

CCISD did not violate the IDEA by failing to provide
Student with comparable services in speech therapy
and phonics/reading comprehension intervention
between September 26, 2017 and October 20, 2017.
CONCLUSIONS OF LAW

1.

The student is eligible for a free appropriate special
education program under the provisions of IDEA, 20
U.S.C. §1400, et seq., 34 CFR §300.301 and 19 T.A.C.
§89.1011, and related statutes and regulations.

2.

The Texas one-year statute of limitation (SOL) began
running one year before the date the Complaint
was originally filed on January 30, 2018. 19 Texas
Administrative Code § 89.1151(c).

3.

The District is a Local Education Agency responsible
for complying with the IDEA as a condition of the
State of Texas’ receipt of federal funding. The District
is required to properly identify, evaluate, and serve
the student, and provide each disabled child with a
FAPE pursuant to the IDEA, 20 U.S.C. §§ 1400 et
seq., 34 CFR §300.301, and 19 T.A.C. §89.1011.

4.

Petitioner bears the burden of proof on all issues
raised in Petitioner’s complaint, including challenges
to the proposed IEP, BIP, and LRE placement.
Schaffer v. Weast, 546 U.S. 49, 62 (2005), 126 S.Ct.

115a
Appendix C
528, 537, 163 L.Ed.2d 387 (2005); Teague Ind. Sch.
Dist. v. Todd L., 999 F. 2d 127, 131 (5th Cir. 1993).
5.

Petitioner did not meet the burden of proving the
School District failed to provide FAPE during the
2017-2018 school year. Petitioner did not meet the
burden of proving the current educational plan for
2018-2019 fails to provide FAPE. Petitioner did not
meet the burden of proving the district failed to
provide an appropriate educational placement for
the student. Schaffer v. Weast, supra; Endrew F. v.
Douglas County School District RE-1, 137 S.Ct. 988
(2017); and Cypress-Fairbanks ISD v. Michael F., 118
F.3d 245 (5th Cir. 1997); 34 C.F.R. §§ 300.1, 300.17.

6.

IDEA creates a presumption under the law favoring a
school district’s educational plan. Schaeffer v. Weast,
supra; and Tatro v. Texas, 703 F.2d 823 (5th Cir. 1983),
aff’d, 468 U.S. 883 (1984).

7.

Petitioner did not prove that the district’s proposed
educational plan fails to contain the essential
components of an IEP including baselines, present
levels of performance, and measurable goals. 20
U.S.C. § 1414(d)(1)(A); 34 C.F.R. § 300.320(a); 19 Tex.
Admin. Code § 89.1055.

8.

The IEP developed by the ARD Committee is
reasonably calculated to enable the student to
make meaningful progress and is appropriately
individualized to meet Student’s needs. Rowley,
supra.

116a
Appendix C
9.

Student’s educational program satisfied the standard
required at all relevant times. The educational
program is individualized on the basis of the student’s
assessment and performance; the program is
administered in the least restrictive environment; the
services and supports are provided in a coordinated
and collaborative manner by the key stakeholders;
and positive academic and non-academic benefits are
demonstrated. Rowley, supra; 34 C.F.R. §300.552, and
19 T.A.C. §89.1055; Endrew F., supra; and Michael
F., supra; 34 C.F.R. §300.300, 34 C.F.R. §300.530, 19
T.A.C. §89.1055, and Tex. Educ. Code §37.004.

10. Student’s IEP during the relevant time period was
individualized and appropriately ambitious to ensure
Student made meaningful educational progress. The
IEP is written to meet Student’s unique needs even
if it is not in the exact manner an outside expert
recommends. The IEP provided Student a FAPE
during the relevant time period and was consistent
with the requirements. 20 U.S.C. §1414(c)(1)(B)(iii)(iv); 34 C.F.R. § 300.324(a)(2)(v), (a)(3)(ii), Endrew F,
137 S.Ct. at 999-1000 (2017).
11. The district’s procedures in making decisions about
the least restrictive educational placement for the
student meet the requirements articulated in Rowley,
supra, and 19 T.A.C. §89.1055; Endrew F., supra;
and Michael F., supra; 34 C.F.R. §300.300, 34 C.F.R.
§300.530, 19 T.A.C. §89.1055, and Tex. Educ. Code
§37.004.

117a
Appendix C
12. The Student’s placement and schedule of services for
the 2017-2018 school year, and the District’s current
placement and schedule of services for the 2018-2019
school year, place the Student in the LRE. 20 U.S.C.
§ 1412(a)(5)(A), 34 CFR §300.300, and 19 T.A.C.
§89.1055. See Daniel R.R., supra, and Michael F.,
supra.
13. The combination of regular education and special
education instruction complies with the IDEA’s
mandate that Student be included with non-disabled
peers to the maximum extent appropriate. See Daniel
R.R., 874 F.2d 1036 at 1050 (5th Cir. 1989) (explaining
IDEA’s mandate for a continuum of placements may
require a combination of regular education and special
education instruction).
14. Student was placed in the general education
environment to the maximum degree feasible that
allowed Student to continue to make academic and
non-academic progress. Student’s placement meets
the statutory preference for educating Student, to the
maximum extent appropriate, in general education.
20 U.S.C. § 1412(a)(5)(A).
15. The School District is fulfilling the obligation to notify
parents early of upcoming meetings and schedule
meetings at an agreeable time and place. 34 C.F.R.
300.322(a). Parent has attended every ARD meeting
and been a key participant.

118a
Appendix C
16. The School District did not fail to provide a collaborative
and cooperative ARDC process that resulted in
denying Parents the meaningful opportunity to
participate in the IEP planning process. 20 U.S.C.
§ 1414(d)(1)(B)(i), 34 C.F.R. § 300.322(a), and 19 Tex.
Admin. Code § 89.1050(g).
17. The School District’s failure to provide all required
components of prior written notice explaining its
proposed actions or refusals did not result in a loss
of educational opportunity or infringe upon Parents’
opportunity to participate in the IEP process. The
errors were educationally harmless. Adam J. ex rel.
Robert J. v. Keller Independent School Dist., 328 F.3d
804, 812 (5th Cir. 2003).
18. The School District has developed an educational
program for the student allowing the student an
opportunity to make educational and non-educational
progress in accordance with the standard of Rowley,
supra; 34 CFR §300.552; and 19 T.A.C. §89.1055.
19. The School District’s program was reasonably
calculated to provide Student with the requisite
educational benefits. Student’s IEPs are designed
to and did provide Student with a “meaningful”
educational benefit.” Michael F., 118 F. 3d 245, 248,
253 (5th Cir. 1997); Richardson Independent School
Dist. v. Michael Z., 561 F.Supp.2d 589, 602 (N.D. Tex.
2007). Rowley, 458 U.S. at 192, 102 S.Ct. 3034.

119a
Appendix C
20. Petitioner did not meet Petitioner’s burden of
demonstrating the District did not timely re-evaluate
Student in all areas of suspected need. 34 C.F.R. §
300.303(b)(2).
21. There is no data suppor ting the reg ression /
recoupment concerns necessary to support Student’s
eligibility for ESY under State law. See 19 T.A.C. §
89.1065 (providing ESY is only appropriate when it
is reasonably expected the student will suffer severe
and substantial regression on critical goals (goals
established by the ARD Committee) over the summer
that cannot be recouped within a reasonable time).
22. Petitioner is not entitled to any award or reimbursement
as Petitioner did not meet Petitioner’s burden to prove
any violation of the IDEA by Respondent.
ORDERS
1.

Based upon the foregoing findings of fact and
conclusions of law, it is ORDERED:

2.

All claims arising before September 20, 2017 are
DISMISSED.

3.

All claims arising under any law other than the
Individuals with Disabilities Education Act (IDEA)
are DISMISSED as outside the jurisdiction of the
hearing officer including Petitioner’s requests for
attorneys’ fees, expert witness costs, and other
litigation costs.

120a
Appendix C
4.

CCISD is ORDERED to convene an ARD Committee
meeting within 15 school days to consider the December
14, 2018 recommendations of the independent
evaluator, and to determine whether student is
eligible for special education and related services as
a Student with a Specific Learning Disability in Basic
Reading, Reading Fluency, Reading Comprehension,
and Written Expression, and to develop an IEP based
thereon.

5.

CCISD is ORDERED to convene an ARD Committee
meeting within 15 school days to provide an appropriate
plan for the provision of special education services
during the 2019 summer to address student’s
deficits in Basic Reading, Reading Fluency, Reading
Comprehension, and Written Expression, including
but not limited to:

6.

a.

academic lang uage therapy ser vices by a
Cer tif ied Academic Lang uage Therapist,
licensed dyslexia therapist, or licensed dyslexia
practitioner, licensed under Chapter 403 of the
Texas Occupations Code;

b.

Handwriting support in the form of occupational
therapy and assistive technology by a qualified
provider of the District’s choosing.

CCISD i s OR DERED t o f u nd i ndep endent
Occupational Therapy, Assistive Technology, and
Speech Evaluations of Student by an evaluator of the
Parent’s choosing so as to obtain recommendations

121a
Appendix C
relating to Student’s programming and services to
address Student’s educational needs.
7.

CCISD is ORDERED to fund an independent
evaluation of Student for an Auditory Processing
Disorder by an evaluator of the Parent’s choosing so
as to obtain recommendations relating to Student’s
programming and services to address Student’s
educational needs.

8.

CCISD is ORDERED upon receipt of the above
evaluations, within fifteen school days to convene an
ARD meeting and develop a new IEP for Student
which:

9.

a.

Accurately ref lects the Student’s present
levels of academic achievement and functional
performance;

b.

Includes appropriate goals and short-term
objectives that address the Student’s academic
and behavior needs;

c.

Includes appropr iate related ser v ices as
recommended by the evaluators referenced
above.

All other of Petitioner’s requests for relief are
DENIED.

10. All other relief requested by either party not
specifically granted in these Orders is hereby
DENIED.

122a
Appendix C
SIGNED on February 5, 2019.
/s/ Ray E. Green		
RAY E. GREEN
Special Education Hearing Officer
For the State of Texas Education
Agency
3030 McKinney Avenue #1501
Dallas, TX 75204-2450
214-325-9400 Cell
214-303-0333 Office
214-303-0111 Fax
Ray@RayGreenLawFirm.com

